Audit Report




OIG-13-015
Audit of the Department of the Treasury’s Special-Purpose
Financial Statements for Fiscal Years 2012 and 2011
November 16, 2012




Office of
Inspector General
Department of the Treasury
THIS PAGE INTENTIONALLY LEFT BLANK
Contents


Transmittal Memorandum


Section I – Independent Auditors’ Report


Section II – Department of the Treasury’s Special-Purpose Financial
             Statements for Fiscal Years 2012 and 2011
THIS PAGE INTENTIONALLY LEFT BLANK
                                        DEPARTMENT OF THE TREASURY
                                              W ASHINGTON, D.C. 20220




     OFFICE OF
INSPECTOR GENERAL
                                               November 16, 2012


            MEMORANDUM FOR COLLEEN A. GRAHAM, DIRECTOR
                           FINANCIAL AND BUDGET REPORTS DIRECTORATE
                           BUREAU OF THE FISCAL SERVICE

                                     DAWN SIMPSON, ASSISTANT DIRECTOR
                                     FINANCIAL MANAGEMENT AND ASSURANCE
                                     GOVERNMENT ACCOUNTABILITY OFFICE

                                     REGINA KEARNEY
                                     SENIOR ADVISOR TO THE DEPUTY CONTROLLER
                                     OFFICE OF MANAGEMENT AND BUDGET

            FROM:                    Michael Fitzgerald
                                     Director, Financial Audits

            SUBJECT:                 Audit of the Department of the Treasury’s Special-Purpose
                                     Financial Statements for Fiscal Years 2012 and 2011

            I am pleased to transmit the attached audited Department of the Treasury
            (Department) special-purpose financial statements for fiscal years 2012 and 2011.
            Under a contract monitored by the Office of Inspector General, KPMG LLP, an
            independent certified public accounting firm, performed an audit of the
            Department’s special-purpose financial statements as of September 30, 2012 and
            2011, and for the years then ended. The contract required that the audit be
            performed in accordance with generally accepted government auditing standards
            and Office of Management and Budget Bulletin No. 07-04, Audit Requirements for
            Federal Financial Statements, as amended.

            In its audit, KPMG LLP reported:

                    •   that the special-purpose financial statements were fairly presented, in all
                        material respects, in conformity with U.S. generally accepted accounting
                        principles and the presentation pursuant to the requirements of the
                        Treasury Financial Manual Chapter 4700 (Chapter 4700).

                    •   no matters involving internal control over the financial reporting for the
                        special-purpose financial statements that are considered material
                        weaknesses, and

                    •   no instances of reportable noncompliance with Chapter 4700.
Page 2

In connection with the contract, we reviewed KPMG LLP’s report and related
documentation and inquired of its representatives. Our review, as differentiated
from an audit performed in accordance with generally accepted government
auditing standards, was not intended to enable us to express, and we do not
express an opinion on the special-purpose financial statements, or make any
conclusions with regard to the effectiveness of internal control over financial
reporting or compliance with Chapter 4700. KPMG LLP is responsible for the
attached auditors’ report dated November 16, 2012, and the conclusions
expressed therein. Our review disclosed no instances where KPMG LLP did not
comply, in all material respects, with generally accepted government auditing
standards.

Should you have any questions, please contact me at (202) 927-5789, or a
member of your staff may contact Ade Bankole, Manager, Financial Audits at
(202) 927-5329.

Attachment
         SECTION I

INDEPENDENT AUDITORS’ REPORT
THIS PAGE INTENTIONALLY LEFT BLANK
                                KPMG LLP
                                Suite 12000
                                1801 K Street, NW
                                Washington, DC 20006




                                         Independent Auditors’ Report


Inspector General
U.S Department of the Treasury:

We have audited the accompanying Closing Package Financial Statement Report – Balance Sheet of the
U.S. Department of the Treasury (Department) as of September 30, 2012 and 2011; the related Closing
Package Financial Statement Reports – Statement of Net Cost and Statement of Changes in Net Position,
and the accompanying Financial Report (FR) Notes Reports for the years then ended; the accompanying
Additional Note No. 31; the accompanying Trading Partner Summary Note Report – Balance Sheet as of
September 30, 2012 and 2011; and the related Trading Partner Summary Note Reports – Statement of Net
Cost and Statement of Changes in Net Position for the years then ended (hereinafter collectively referred to
as the special-purpose financial statements or basic special-purpose financial statements), except for the
information included in the following sections:

  a.   “Threshold” in FR Notes Reports;
  b.   FR Note 16 Section F
  c.   “Text Data Line No. 2” in FR Notes Report No. 25; and
  d.   “Text Data Line No. 3” in FR Notes Report No. 26.

These special-purpose financial statements are the responsibility of the Department’s management. Our
responsibility is to express an opinion on these special-purpose financial statements based on our audits.

We did not audit the amounts included in the special-purpose financial statements related to IRS, a
component entity of the Department, which consist of total assets of $46.8 billion and $43.3 billion, and
net cost of operations of $12.8 billion and $13.0 billion before applicable eliminating entries, as of and for
the years ended September 30, 2012 and September 30, 2011, respectively. The IRS financial statements
were audited by another auditor whose report dated November 5, 2012 has been furnished to us, and our
opinion on the special-purpose financial statements, insofar as it relates to the amounts included for IRS, is
based solely on the report of the other auditor.

We did not audit the amounts included in the special-purpose financial statements related to OFS, a
component entity of the Department, which consist of total assets of $116.7 billion and $164.2 billion, and
net cost of (income from) operations of ($7.7) billion and $9.5 billion before applicable eliminating entries,
as of and for the years ended September 30, 2012 and September 30, 2011, respectively. The OFS
financial statements were audited by another auditor whose report dated November 5, 2012 has been
furnished to us, and our opinion on the special-purpose financial statements, insofar as it relates to the
amounts included for OFS, is based solely on the report of the other auditor.

We conducted our audits in accordance with auditing standards generally accepted in the United States of
America; the standards applicable to financial audits contained in Government Auditing Standards, issued
by the Comptroller General of the United States; and Office of Management and Budget (OMB) Bulletin
No. 07-04, Audit Requirements for Federal Financial Statements, as amended. Those standards and OMB
Bulletin No. 07-04 require that we plan and perform the audits to obtain reasonable assurance about
whether the special-purpose financial statements are free of material misstatement. An audit includes
                                KPMG LLP is a Delaware limited liability partnership,
                                the U.S. member firm of KPMG International Cooperative
                                (“KPMG International”), a Swiss entity.
U.S. Department of the Treasury
November 16, 2012
Page 2 of 5


consideration of internal control over financial reporting as a basis for designing audit procedures that are
appropriate in the circumstances, but not for the purpose of expressing an opinion on the effectiveness of
the Department’s internal control over financial reporting. Accordingly, we express no such opinion. An
audit also includes examining, on a test basis, evidence supporting the amounts and disclosures in the
special-purpose financial statements and assessing the accounting principles used and significant estimates
made by management, as well as evaluating the overall special-purpose financial statement presentation.
We believe that our audits, and the reports of the other auditor related to the amounts included for the IRS
and OFS, provide a reasonable basis for our opinion.

The accompanying special-purpose financial statements have been prepared for the purpose of complying
with the requirements of Chapter 4700 of the U.S. Department of the Treasury’s Treasury Financial
Manual (TFM), as described in Additional Note No. 31, solely for the purpose of providing financial
information to the U.S. Department of the Treasury and the U.S. Government Accountability Office
(GAO) to use in preparing and auditing the Financial Report of the U.S. Government, and are not intended
to be a complete presentation of the consolidated balance sheets of the Department as of September 30,
2012 and 2011, and the related consolidated statements of net cost, changes in net position, and custodial
activity, and combined statements of budgetary resources (referred to herein as “general-purpose financial
statements”) for the years then ended.

In accordance with TFM Chapter 4700, the Department prepared FR Notes Report Nos. 1 through 30,
except for FR Notes Report Nos. 21 and 30 which were not applicable to the Department. The Department
included Additional Note No. 31, to disclose other data not contained in the special-purpose financial
statements, but which is necessary to make the special-purpose financial statements more informative.

In our opinion, based on our audit and the reports of the other auditor, the special-purpose financial
statements referred to above present fairly, in all material respects, the financial position of the Department
as of September 30, 2012 and 2011, and its net costs and changes in net position for the years then ended in
conformity with U.S. generally accepted accounting principles and the presentation pursuant to the
requirements of TFM Chapter 4700, as described in Additional Note No. 31.

As discussed in FR Notes Report Nos. 4A, 7, 20, 28A, 28B and Additional Note 31, the Department is a
participant in significant legislation and transactions whose purpose is to assist in stabilizing the financial
markets. Also, as discussed in Additional Note 31, the consolidated financial statements do not include the
assets, liabilities, or results of operations of commercial entities in which the Department has a significant
equity interest as it has determined that none of these entities meet the criteria for inclusion as a federal
entity and are therefore not included in the consolidated financial statements. Furthermore, as discussed in
Additional Note 31, the value of certain investments, loans, commitments, and asset guarantees is based on
estimates. These estimates are inherently subject to substantial uncertainty arising from the likelihood of
future changes in general economic, regulatory, and market conditions. In addition, there are significant
uncertainties related to the amounts that the Department will realize from its investments. As such, there
will be differences between the net estimated value of these investments, loans, commitments, and asset
guarantees at September 30, 2012, and the amounts that will ultimately be realized from these assets or be
required to pay to settle these commitments and guarantees. Such differences may be material and will
also affect the ultimate cost of these programs.

The Department also prepared Other Data Report Nos. 1 through 16, except for Other Data Report
Nos. 3-7, 10, and 13, which were not applicable to the Department. U.S. generally accepted accounting
principles require that certain information be presented to supplement the basic general-purpose financial
U.S. Department of the Treasury
November 16, 2012
Page 3 of 5


statements. Such information, although not a part of the basic general-purpose financial statements, is
required by the Federal Accounting Standards Advisory Board who considers it to be an essential part of
financial reporting for placing the basic general-purpose financial statements in an appropriate operational,
economic, or historical context. This information is included in the Other Data Report Nos. 1, 8, 9 and 14;
“Text Data Line No. 2” in FR Notes Report No. 25; and “Text Data Line No. 3” in FR Notes Report No.
26 to supplement the basic special-purpose financial statements in accordance with TFM Chapter 4700.
We have applied certain limited procedures to the required supplementary information in accordance with
auditing standards generally accepted in the United States of America, which consisted of inquiries of
management about the methods of preparing the information and comparing the information for
consistency with management’s responses to our inquiries, the basic special-purpose financial statements,
and other knowledge we obtained during our audits of the basic special-purpose financial statements. We
do not express an opinion or provide any assurance on the information because the limited procedures do
not provide us with sufficient evidence to express an opinion or provide any assurance.

Our audits were conducted for the purpose of forming an opinion on the basic special-purpose financial
statements as a whole. The information included in the Other Data Report No.16 is presented for purposes
of additional analysis in accordance with TFM Chapter 4700 and is not a required part of the basic special-
purpose financial statements. Such information is the responsibility of management and was derived from
and relates directly to the underlying accounting and other records used to prepare the basic special-
purpose financial statements. The Other Data Report No. 16 has been subjected to the auditing procedures
applied in the audits of the basic special-purpose financial statements and certain additional procedures,
including comparing and reconciling such information directly to the underlying accounting and other
records used to prepare the basic special-purpose financial statements or to the basic special-purpose
financial statements themselves, and other additional procedures in accordance with auditing standards
generally accepted in the United States of America. In our opinion, the information included in the Other
Data Report No. 16 is fairly stated in all material respects in relation to the basic special-purpose financial
statements as a whole.

The information in section F of FR Note 16; the sections entitled “Threshold” in the FR Notes Reports; the
Other Data Report Nos. 2, 11-12, and 15; the information in Other Text Data in Other Data Report Nos. 1,
8, and 14; the information in the Closing Package Line Reclassification Summary Report – Balance Sheet;
the information in the Closing Package Line Reclassification Summary Reports – Statement of Net Cost
and Statement of Changes in Net Position; and the information in the Closing Package Line
Reclassification Summary Report – Custodial Activity are presented for purposes of additional analysis in
accordance with TFM Chapter 4700 and are not a required part of the basic special-purpose financial
statements. Such information has not been subjected to the auditing procedures applied in the audits of the
basic special-purpose financial statements, and accordingly, we do not express an opinion or provide any
assurance on it.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Reporting System to input
certain data as described in Additional Note No. 31. Except as discussed in this report, we express no
opinion on information maintained in that system.

In accordance with Government Auditing Standards and OMB Bulletin No. 07-04, we have also issued a
combined auditors’ report dated November 15, 2012 which presents our opinion on the Department’s
general-purpose financial statements; our consideration of the Department’s internal control over financial
reporting; and the results of our tests of its compliance with certain provisions of laws, regulations,
U.S. Department of the Treasury
November 16, 2012
Page 4 of 5


contracts, and grant agreements, and other matters that are required to be reported under Government
Auditing Standards. That report includes our consideration of the results of the other auditor's testing of
internal control over financial reporting and compliance and other matters for IRS and OFS that are
reported on separately by the other auditor. However, that report, insofar as it relates to the results of the
other auditor, is based solely on the reports of the other auditor. Our combined auditors’ report is an
integral part of the audits of the general-purpose financial statements, performed in accordance with
Government Auditing Standards and OMB Bulletin No. 07-04, and should be read in conjunction with this
report in considering the results of our audits of the special-purpose financial statements. Our audit of the
general-purpose financial statements of the Department as of and for the year ended September 30, 2012,
disclosed the following material weakness, significant deficiency, noncompliance and other matter:

A. Material Weakness in Internal Control Over Financial Reporting at the IRS (Repeat Condition)

B. Significant Deficiency in Internal Control in Information Systems Controls at the Bureau of the Fiscal
   Service (Repeat Condition)

C. Noncompliance with Federal Financial Management Improvement Act of 1996 (Repeat Condition)

D. Other Matter of Potential Violation of the Anti-Deficiency Act (Repeat Condition)

                                                 *******

Management is responsible for establishing and maintaining effective internal control. In planning and
performing our audit of the fiscal year 2012 special-purpose financial statements, we also considered the
Department’s internal control over financial reporting by obtaining an understanding of the Department’s
internal control and performing tests of controls as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the special-purpose financial statements, but not for the purpose of
expressing an opinion on the effectiveness of the Department’s internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of the Department’s internal control over
financial reporting.

A deficiency in internal control exists when the design or operation of a control does not allow
management or employees, in the normal course of performing their assigned functions, to prevent, or
detect and correct misstatements on a timely basis. A material weakness is a deficiency, or a combination
of deficiencies, in internal control such that there is a reasonable possibility that a material misstatement of
the entity’s financial statements will not be prevented, or detected and corrected on a timely basis.

Our consideration of internal control over financial reporting for the special-purpose financial statements
was for the limited purpose described above and was not designed to identify all deficiencies in internal
control over financial reporting that might be deficiencies, significant deficiencies, or material weaknesses.
In our fiscal year 2012 audit, we did not identify any deficiencies in internal control over financial
reporting for the special-purpose financial statements that we consider to be material weaknesses, as
defined above.

Management is responsible for complying with laws, regulations (including TFM Chapter 4700), contracts
and grant agreements applicable to the Department. As part of obtaining reasonable assurance about
whether the Department’s fiscal year 2012 special-purpose financial statements are free of material
U.S. Department of the Treasury
November 16, 2012
Page 5 of 5


misstatement, we performed tests of its compliance with certain provisions of laws, regulations, contracts,
and grant agreements, noncompliance with which could have a direct and material effect on the
determination of financial statement amounts. However, providing an opinion on compliance with those
provisions or on compliance with TFM Chapter 4700 requirements was not an objective of our fiscal year
2012 audit of the special-purpose financial statements and, accordingly, we do not express such an opinion.

The results of our tests of compliance with TFM Chapter 4700 disclosed no instances of noncompliance or
other matters that are required to be reported under Government Auditing Standards or OMB Bulletin
No. 07-04.

                                  ______________________________

This report is intended solely for the information and use of the Department’s management, the
Department’s Office of Inspector General, OMB, and GAO, in connection with the preparation and audit
of the Financial Report of the U.S. Government, and is not intended to be and should not be used by
anyone other than these specified parties.




November 16, 2012
THIS PAGE INTENTIONALLY LEFT BLANK
             SECTION II

    DEPARTMENT OF THE TREASURY’S
SPECIAL-PURPOSE FINANCIAL STATEMENTS
   FOR FISCAL YEARS 2012 AND 2011
THIS PAGE INTENTIONALLY LEFT BLANK
                                                                       U.S Department of the Treasury                                         11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                     Previously Reported
Assets:
Non-Federal
Cash and Other Monetary Assets                                              178,186                             148,865                            148,865
Accounts and Taxes Receivable                                                41,463                              36,690                             36,690
Loans Receivable and mortgage                                                30,222                              99,068                             99,068
backed securities
TARP Direct Loans and Equity                                                 40,231                              80,104                              80,104
Investments
Beneficial Interest in Trust               I                                      0                                   0                             10,862
Inventory and Related Property                                                  630                                 743                                743
Property, Plant and Equipment                                                 2,435                               2,266                              2,266
Debt and Equity Securities                                                   18,047                              26,660                             15,798
Investment in Government sponsored                                          109,342                             133,043                            133,043
enterprises (GSEs)
Derivative Assets                                                                 0                                   0                                  0
Other Assets                                                                  6,050                               5,715                              5,715
Total Non-Federal Assets                                                    426,606                             533,154                            533,154

Federal
Fund Balance with Treasury                                                  344,346                             381,784                            381,784
Federal Investments                                                             968                                 739                                739
Accounts Receivable                                                             525                                 407                                407
Accounts Receivable, capital transfers                                            0                                   0                                  0
Interest Receivable                                                             531                                 225                                225
Loans Receivable                                                            946,705                             771,198                            771,198
Transfers Receivable                                                              0                                   0                                  0
Benefit Program Contributions                                                     0                                   0                                  0




                                                                                              -1-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2012                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                      Previously Reported
Receivable
Advances to Others and Prepayments                                                2                                  2                                     2
Other Assets (without reciprocals)                                       16,202,179                         14,902,717                            14,902,717
Total Federal Assets                                                     17,495,256                         16,057,072                            16,057,072
Total Assets                                                             17,921,862                         16,590,226                            16,590,226

Liabilities
Non-Federal
Accounts Payable                                                             (4,922)                             (4,787)                              (4,787)
Federal Debt Securities Held by the                                     (11,307,583)                        (10,148,963)                         (10,148,963)
Public
Federal Employee and Veteran                                                   (655)                               (641)                               (641)
Benefits Payable
Environmental and Disposal                                                         0                                   0                                      0
Liabilities
Benefits Due and Payable                                                           0                                   0                                   0
Loan Guarantee Liabilities                                                        (7)                                  0                                   0
Liabilities to Government Sponsored                                           (9,003)                           (316,230)                           (316,230)
Enterprises
Insurance and Guarantee Program                                                    0                                   0                                      0
Liabilities
Derivative Liabilities                                                            0                                   0                                    0
Other Liabilities                                                           (83,804)                            (83,835)                             (83,835)
Total Non-Federal Liabilities                                           (11,405,974)                        (10,554,456)                         (10,554,456)

Federal
Accounts Payable                                                               (256)                               (159)                               (159)




                                                                                              -2-
                                                                       U.S Department of the Treasury                                      11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: BALANCE SHEET                                            Fiscal Year:       2012                            Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:   ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                  Previously Reported
Accounts Payable, capital transfers                                               0                                   0                                0
Federal Debt                                                             (4,822,607)                         (4,680,864)                      (4,680,864)
Interest Payable                                                            (45,592)                            (47,841)                         (47,841)
Loans Payable                                                                     0                                   0                                0
Transfers Payable                                                                 0                                   0                                0
Benefit Program Contributions                                                  (247)                               (239)                            (239)
Payable
Advances from Others and Deferred                                                (57)                               (56)                             (56)
Credits
Liability to the General Fund for                                        (1,257,752)                         (1,226,475)                      (1,226,475)
custodial and other non-entity assets
Other Liabilities (without reciprocals)                                          19                                   2                                2
Total Federal Liabilities                                                (6,126,492)                         (5,955,632)                      (5,955,632)
Total Liabilities                                                       (17,532,466)                        (16,510,088)                     (16,510,088)


Net Position
Net Position-Non-Earmarked Funds                                           (346,173)                            (36,327)                         (36,327)
Net Position-Earmarked Funds                                                (43,223)                            (43,811)                         (43,811)
Total Net Position                                                         (389,396)                            (80,138)                         (80,138)
Total Liabilities and Net Position                                      (17,921,862)                        (16,590,226)                     (16,590,226)




                                                                                              -3-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2012                                Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                  Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                      Previously Reported
Beginning Net Position                                                      (80,138)                            (101,096)                           (101,096)
Non-Federal Prior-Period
Adjustments
Changes in Accounting Principles -                                                 0                                   0                                      0
Non Federal
Corrections of Errors - Non Federal                                                0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Non
Federal
Federal Prior-Period Adjustments
Change in Accounting Principles -                                                  0                                   0                                      0
Federal
Corrections of Errors - Federal                                                    0                                   0                                      0
Corrections of Errors - Years                                                      0                                   0                                      0
Preceding the Prior Year - Federal
Adjusted Beginning Net Position                                             (80,138)                            (101,096)                           (101,096)
Balance

Non-Federal Nonexchange Revenue
Individual Income Tax and Tax                                            (1,836,315)                        (1,757,646)                           (1,757,493)
Witholdings
Corporation Income Taxes                                                   (237,492)                            (175,071)                           (175,071)
Unemployment Taxes                                                           (7,053)                              (6,803)                             (6,803)
Excise Taxes                                                                (78,067)                             (70,612)                            (70,605)
Estate and Gift Taxes                                                       (13,945)                              (7,301)                             (7,301)
Custom Duties                                                                     0                                    0                                   0
Other Taxes and Receipts                                                    (87,805)                             (88,322)                            (88,482)




                                                                                              -4-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                     Previously Reported
Miscellaneous Earned Revenue                                                 (4,741)                             7,971                                 7,971
Total Non-Federal Nonexchange                                            (2,265,418)                        (2,097,784)                           (2,097,784)
Revenue

Federal Nonexchange Revenue
Federal Securities Interest Revenue                                                 0                                  0                                      0
(nonexchange)
Borrowing and other interest revenue                                                0                                  0                                      0
(nonexchange)
Benefit Program Revenue                                                             0                                  0                                      0
(nonexchange)
Other taxes and receipts                                                            0                                 (3)                                 (3)
Total Federal Nonexchange Revenue                                                   0                                 (3)                                 (3)

Budgetary Financing Sources:
Appropriations received as adjusted                                        (402,868)                            (490,421)                           (490,421)
(rescissions and other adjustments)
Appropriation of unavailable special                                                0                                  0                                      0
or trust fund receipts transfers-in
Appropriation of unavailable special                                                0                                  0                                      0
or trust fund receipts Transfers-out
Nonexpenditure transfers-in of                                                 (185)                               (133)                               (133)
unexpended appropriations and
financing sources
Nonexpenditure Transfers-out of                                                    43                                  4                                      4
unexpended appropriations and
financing sources




                                                                                               -5-
                                                                       U.S Department of the Treasury                                          11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                            2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:        MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                        2011-SEPTEMBER                     Previously Reported
Expenditure transfers-in of financing                                               0                                  0                                      0
sources
Expenditure Transfers-out of                                                    128                                   49                                  49
financing sources
Nonexpenditure Transfers-In of                                                      0                                  0                                      0
Financing Sources - Capital Transfers
Nonexpenditure Transfers-out of                                                     0                                  0                                      0
Financing Sources - Capital Transfers
Collections for Others Transferred to                                               0                                  0                                      0
the General Fund
Accrual for Amounts to be Collected                                                 0                                  0                                      0
for Others and Transferred to the
General Fund
Other budgetary financing sources                                           (95,879)                              19,147                              19,147
Total Budgetary Financing Sources                                          (498,761)                            (471,354)                           (471,354)

Other Financing Sources:
Transfers-in Without Reimbursement                                                  0                                  0                                   0
Transfers-out Without                                                              47                                 60                                  60
Reimbursement
Imputed Financing Source                                                       (812)                             (925)                                  (925)
Non-Entity Collections Transferred                                        2,308,533                         2,199,481                              2,199,481
to the General Fund
Accrual for Non-entity Amounts to                                              1,972                             (12,672)                            (12,672)
be Collected and Transferred to the
General Fund
Other non-budgetary financing                                                       0                                  0                                      0




                                                                                               -6-
                                                                       U.S Department of the Treasury                                         11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF CHANGES IN NET POSITION Fiscal Year:                           2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                     Previously Reported
sources
Total Other Financing Sources                                             2,309,740                         2,185,944                             2,185,944


Net Cost                                                                    145,181                             404,155                            404,155

Ending Net Position Balance                                                (389,396)                            (80,138)                            (80,138)




                                                                                              -7-
                                                                       U.S Department of the Treasury                                         11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                     Previously Reported
Gross Cost:
Non-Federal Gross Cost                                                     (261,197)                             21,693                             21,693
Interest on Debt Held by the Public                                         245,707                             250,921                            250,921
Gain/Loss from changes in actuarial                                               0                                 195                                195
assumptions
Total Non-Federal Gross Cost                                                (15,490)                            272,809                            272,809

Federal Gross Cost
Benefit Program Costs                                                         1,756                               1,744                              1,744
Imputed Costs                                                                   813                                 925                                925
Buy/Sell Costs                                                                2,044                               1,736                              1,736
Federal Securities Interest Expense                                         187,285                             203,026                            203,026
Borrowing and Other Interest                                                  8,746                               8,016                              8,016
Expense
Borrowing Losses                                                                  0                                   0                                  0
Other Expenses (without reciprocals)                                            489                                 485                                485
Total Federal Gross Cost                                                    201,133                             215,932                            215,932
Department Total Gross Cost                                                 185,643                             488,741                            488,741

Earned Revenue
Non-Federal Earned Revenue                                                    (3,822)                           (54,436)                            (54,436)

Federal Earned Revenue
Benefit Program Revenue (exchange)                                                 0                                  0                                   0
Buy/Sell Revenue                                                              (1,083)                            (1,265)                             (1,265)
Federal Securities Interest Revenue                                                0                                  0                                   0
(exchange)




                                                                                              -8-
                                                                       U.S Department of the Treasury                                         11-16-2012 14:58:45
                                                                        Financial Management Service
                                                                   Governmentwide Financial Report System

                                                            GF003F-Closing Package Financial Statement Report

Statement: STATEMENT OF NET COST                                    Fiscal Year:       2012                               Period:   SEPTEMBER

Entity:       2000-Department of the Treasury                       Reported In:       MILLIONS                 Decimal Point:      ZERO

          Amounts presented as debits and credits()
          The accompanying notes are an integral part of these financial statements.
          I = Inactive Line


Closing Line item                         Status               2012-SEPTEMBER                       2011-SEPTEMBER                     Previously Reported
Borrowing and Other Interest                                                (35,511)                            (28,821)                            (28,821)
Revenue (Exchange)
Borrowings Gains                                                                (46)                                (64)                                (64)
Other Revenue (without reciprocals)                                               0                                   0                                   0
Total Federal Earned Revenue                                                (36,640)                            (30,150)                            (30,150)

Department Total Earned Revenue                                             (40,462)                            (84,586)                            (84,586)

Net Cost                                                                    145,181                             404,155                            404,155




                                                                                              -9-
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01            Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:        Notes 16 and 23

  Status: Complete                            The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Federal Reserve Earnings                                                               Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Treasury securities Credit                    1,646,809                  1,665,419                   1,665,419                          0
                including those
                held by the Federal
                Reserve Bank
                (FRB)
 2              FRB earnings on     Credit                       81,957                     82,546                      82,546                          0
                Treasury securities
                that exceed the
                statutory amount.

       Section: B             Section Name: Related Parties, External to the Reporting Entity for       No Data Flag: YES          Line Attributes: Dollars
                                            the Financial Report                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd     Line Item Changes
 1              Related party        Debit
                receivables
 2              Related party        Credit
                payables
 3              Related party        Credit
                operating revenue
 4              Related party net    Debit
                cost of operations
 5              Related party        Debit
                economic
                dependency
                transactions
 6              Investments in       Debit
                related parties




                                                                                                           -1-
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 01         Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                    Fiscal Year: 2012                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      Notes 16 and 23

 Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                         Answer
1                  Describe any significant events or transactions that occurred after the date of the Balance
                   Sheet but before the issuance of agency¿s audited financial statements.                          N/A
2                  Describe any departures from U.S. Generally Accepted Accounting Procedures (GAAP).
                                                                                                                    N/A
3                  When applying the general rule of the Statements of Federal Financial Accounting Standards       In accordance with SFFAS No. 7, Accounting for Revenue and Other Financing
                   (SFFAS) No. 7, par.                                                                              Sources and Concepts for Reconciling Budgetary and Financial Accounting, some
                   48, describe the specific potential accruals that are not made and the practical and inherent    unpaid tax assessments do not meet the criteria for financial statement recognition.
                   limitations affecting the                                                                        Under Internal Revenue Code Section 6201, the Department is authorized and required
                   accrual of taxes and duties.                                                                     to make inquiries, determinations, and assessments of all taxes which have not been
                                                                                                                    duly paid (including interest, additions to the tax, and assessable penalties) under the
                                                                                                                    law. Unpaid assessments result from taxpayers filing returns without sufficient
                                                                                                                    payment, as well as from tax compliance programs such as examination, under-
                                                                                                                    reporter, substitute for return, and combined annual wage reporting. The Department
                                                                                                                    also has authority to abate the paid or unpaid portion of an assessed tax, interest, and
                                                                                                                    penalty. Abatements occur for a number of reasons and are a normal part of the tax
                                                                                                                    administration process. Abatements may result in claims for refunds or a reduction of
                                                                                                                    the unpaid assessed amount.
                                                                                                                    Under federal accounting standards, unpaid assessments require taxpayer or court
                                                                                                                    agreement to be considered federal taxes receivable. Assessments not agreed to by
                                                                                                                    taxpayers or the courts are considered compliance assessments and are not
                                                                                                                    considered federal taxes receivable. Due to the lack of agreement, these compliance
                                                                                                                    assessments are less likely to have future collection potential than those unpaid
                                                                                                                    assessments that are considered federal taxes receivable.

4                  Describe any change in accounting if a collecting entity adopts accounting standards that
                   embody a fuller                                                                                  N/A
                   application of accrual accounting concepts that differ from that prescribed by SFFAS No. 7,
                   par. 48.
5                  List all of the agency's components for which balances and activities are not combined into
                   the agency's financial statements, and, therefore, are represented in the GFRS data.             N/A
6                  List all of the agency's components for which balances and activities are combined into the
                   agency's financial                                                                               See CP Note 31Part 2 A
                   statements, and, therefore, are represented in the GFRS data.
7                  Describe any additional significant accounting policies specific to the agency not included in
                   GFRS Module                                                                                      N/A
                   GF006 - FR Notes.
8                  Provide any other relevant information pertaining to the Federal Reserve Earnings.
                                                                                                                    See CP Note 31 Part 2 AB
9                  Describe the nature of the related party relationship and transactions pertaining to the
                   amount in the ,Other                                                                             See CP Note 31 Part 2 AB
                   Notes Info, tab, Related party receivables' line.
10                 Describe the nature of the related party relationship and transactions pertaining to the
                   amount in the "Other                                                                             N/A



                                                                                                              -2-
                                                                                                                                                                                         11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 01       Federal Reserve Earnings, Subsequent Events, and Other Pertinent Information                                  Fiscal Year: 2012                Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                   Agency Notes:      Notes 16 and 23

 Status: Complete                       The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data
Line             Question                                                                                        Answer
                 Notes Info " tab," Related party payables" line.
11               Describe the "Other Notes Info" tab, "Related party operating revenue" transactions along
                 with the related party                                                                          N/A
                 relationship and include transactions with zero or nominal balances, guarantees, and other
                 terms. Also, describe
                 changes in related party terms.
12               Describe the ''Other Notes Info" tab, "Related party net cost of operations" transactions
                 along with the related party relationship and include transactions with zero or nominal         N/A
                 balances, guarantees, and other terms. Also, describe changes in related party terms.
13               Describe related party economic dependency (that is, major customers, suppliers,                See Note 31Part 2 AB
                 franchisors, franchisees, distributors, general agents, borrowers, and lenders) relationships
                 and transactions included in the "Other Notes Info" tab, "Related party economic
                 dependency transactions" section.
14               Provide details on the investments in related parties.
                                                                                                                 N/A
15               Provide details on related party leases.
                                                                                                                 N/A
16               Describe control relationships with entities under common ownership, management control,
                 and conservatorship if the operating results or financial position could be significantly       The Secretary serves on the FHFA Oversight Board, and consults with the Director of
                 impacted as a result of the relationship. Include control relationships with and without        FHFA on matters involving Fannie Mae and Freddie Mac. This provides the
                 transactions.                                                                                   Department a voice in the FHFA's actions as the conservator for Fannie Mae and
                                                                                                                 Freddie Mac. The Department has no transactions with FHFA.
17               Provide any other useful information on related parties.                                        See Note 31Part 2 AB




                                                                                                          -3-
                                                                                                                                                                                                11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 02           Cash and Other Monetary Assets                                                                                 Fiscal Year: 2012                     Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                    Agency Notes:        1, 5, 6 and 12

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2012 - SEPTEMBER      2011 - SEPTEMBER
                                                                                   Type
Cash and Other Monetary Assets                                             D         A                  178,186                 148,865
                                                                                Variance:                     0                       0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER             2011 - SEPTEMBER              Previously Rptd            Line Item Changes
 1           Operating Cash- not                            79,195                     49,812                      49,812                               0
             restricted
 2           Operating Cash-
             restricted
 3           Other cash - not                                  149                          243                          243                            0
             restricted
 4           Other cash - restricted                           379                        315                         315                               0
 5           International monetary                         76,812                     76,593                      76,593                               0
             assets
 6           Gold                                            11,062                    11,062                      11,062                               0
 7           Foreign currency                                10,589                    10,840                      10,840                               0
             Total                                          178,186                   148,865                     148,865                               0
Threshold

 Line Description                                               Question                                                             Answer
 Line Item Notes - Operating Cash- not restricted (2012 -       Please provide explanations for any amounts that have               The increase in cash, foreign currency and other monetary assets is
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          primarily due to the Treasury's Office of Domestic Finance investment and
                                                                the current fiscal year and prior fiscal year. (Unaudited)          borrowing decisions to manage the balance and timing of the government's
                                                                                                                                    cash position. More specifically, during fiscal year 2012, FMC had an
                                                                                                                                    increase in borrowings from the public of $1.15 trillion. This increase was
                                                                                                                                    offset with outlays of $1.09 during the year. Treasury's regular Operating
                                                                                                                                    Cash balance decreased by $37.0 billion due to Guaranteed and Loan
                                                                                                                                    Financing, and a $1 billion increase was due to other miscellaneous
                                                                                                                                    programs affecting cash.
 Line Item Notes - Other cash - not restricted (2012 -          Please provide explanations for any amounts that have
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          This variance is not material to the Department's financial statements.
                                                                the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Other cash - restricted (2012 -              Please provide explanations for any amounts that have
 SEPTEMBER)                                                     changed by 10% or more and or greater than 500,000 between          This variance is not material to the Department's financial statements.
                                                                the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                       -4-
                                                                                                                                                                                                11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 02             Cash and Other Monetary Assets                                                                                 Fiscal Year: 2012                     Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1, 5, 6 and 12

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                                               Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                            Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              IMF Letter of Credit Debit                       41,328                     42,950                     42,950                             0
                - available balance
 2              Reserve Position in Debit                        23,496                     22,656                     22,656                             0
                the IMF
 3              SDR Holdings-        Debit                       55,240                     55,911                     55,911                             0
                Exchange
                Stabilization Fund
 4              SDR Certificates     Credit                       5,200                      5,200                         5,200                          0
                outstanding with
                the FRB
 5              Interest bearing     Credit                      54,463                     55,150                     55,150                             0
                liability to the IMF
                for SDR Allocations
 6              Gold certificates    Credit                      11,037                     11,037                     11,037                             0
       Section: B              Section Name: Gold                                                                                    Line Attributes: Units


Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Number of fine troy    N/A             261,498,927.0000          261,498,900.0000           261,498,900.0000                         .0000
                ounces of gold
 2              Statutory price of 1   N/A                     42.2222                     42.2222                    42.2222                        .0000
                fine troy ounce of
                gold
 3              Market value of 1      N/A                   1,776.0000                 1,620.0000                 1,620.0000                        .0000
                fine troy ounce of
                gold




                                                                                                         -5-
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 02            Cash and Other Monetary Assets                                                                           Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                               Agency Notes:    1, 5, 6 and 12

  Status: Complete                             The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C             Section Name: Analysis of Cash Held Outside Treasury                     No Data Flag: YES      Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions                        Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER
 1              Total Cash Held       Credit
                Outside Treasury
                (reported to Treas
                central account
                thru the statement
                of Transac/ Stat of
                Accountbilit
 2        I     Agency-entered        Credit
                reconciling item
 3        I     Agency-entered        Credit
                reconciling item
 4        I     Agency-entered        Credit
                reconciling item
 5        I     Agency-entered        Credit
                reconciling item
 6        I     Agency-entered        Credit
                reconciling item
 7        I     Total cash reported   Debit
                in Note 2.
 8                                    Credit
 9                                    Credit
10                                    Credit
11                                    Credit
12                                    Credit
13              Total cash reported    N/A
                in Note 2.




                                                                                                          -6-
                                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 02          Cash and Other Monetary Assets                                                                                    Fiscal Year: 2012                    Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                        Agency Notes:       1, 5, 6 and 12

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                            Answer
1                  Describe the nature of the amount in the line item "other cash - not restricted."
                                                                                                                       This is mainly comprised of cash reported by the FMS as Other listed in Note 5 of the
                                                                                                                       Department's AFR. It is mainly cash expected to be included in Operating Cash in the
                                                                                                                       near future and it fluctuates daily.

2                  Describe the restrictions on the cash reported in the line item "Other cash - restricted" and
                   any statutory authority (law, regulation, or agreement).                                            This is mainly non-entity, includes seized cash reported by the Treasury Forfeiture
                                                                                                                       Fund and international reserve assets created by the International Monetary Fund.

3                  If the cash is restricted because it is non-entity, state the entity for which the cash is being
                   held.                                                                                               Internal Revenue Service that is held for taxpayers. Treasury Forfeiture Fund -
                                                                                                                       individuals or entities who own the seized cash. International Monetary Fund -
                                                                                                                       domestic currency available as needed through non-interest-bearing letter of credit.

4                  Is the reported restricted cash being held in a financial institution? If yes, is it a Treasury
                   designated bank?                                                                                    The Office of International Affairs maintains funds at the Federal Reserve Bank in New
                                                                                                                       York that are restricted for use by the IMF. The articles of agreement with the IMF
                                                                                                                       provide for return of these funds should the U.S. withdraw from the IMF. Other
                                                                                                                       restricted assets are held at Treasury designated financial institutions.

5                  If the agency has restricted cash, is the restricted cash invested? If yes, is it invested in the
                   Bureau of the Public Debt (BPD)security, agency security, and/or non-Federal security?              Invested cash is displayed on the balance sheet as investments rather than cash.
                                                                                                                       Investments in BPD securities are eliminated from the Department's balance sheet.

6                  Describe the nature of the amount in the line item "Foreign currency."
                                                                                                                       Foreign currency is held by the Exchange Stabilization Fund. All operations of the ESF
                                                                                                                       require the explicit authority of the Secretary of the Treasury. FMS Operating Cash
                                                                                                                       also hold foreign currency in a custodial capacity for the use of the entire U.S.
                                                                                                                       Government.

7                  Disclose any restrictions on the use (for example, by law, regulation, or agreement) of the
                   amount in the line item "Foreign Currency."                                                         N/A
8                  Disclose the method of exchange rate used on the financial statement date (Treasury
                   exchange rate or prevailing market rate).                                                           Treasury exchange rate.
9                  Provide additional details describibg the nature and cause of reconciling items reported in
                   Section C, lines 2 through 6.                                                                       N/A
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      See Note 31. Part 2.F
                   the significant accounting policies pertaining to this note.
                                                                                                                       IMF Letter of Credit and the Reserve Position for fiscal years 2011 and 2012, include
                                                                                                                       amounts subject to Federal Credit Reform Act (See FR Note 19 commitments).




                                                                                                                -7-
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                  Fiscal Year: 2012                Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                     Agency Notes:        1 and 13

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account    2012 - SEPTEMBER         2011 - SEPTEMBER
                                                                                    Type
Accounts and Taxes Receivable                                                D        A                    41,463                 36,690
                                                                                 Variance:                      0                      0           Rounding Method: Millions              Decimal: Zero
Line Status Line Description            2012 - SEPTEMBER               2011 - SEPTEMBER               Previously Rptd          Line Item Changes
 1           Accounts receivable,                                162                         82                           82                            0
             gross
 2           Related interest                                  2,287                      1,603                        1,603                            0
             receivable - accounts
             receivable
 3           Penalties, fines, and                                18                          8                            8                            0
             administrative fees
             receivable
 4           Less: allowance for                                  -1                         -2                           -2                            0
             loss on accounts
             receivable
 5           Less: allowance for                                  -5                         -3                           -3                            0
             loss on interest
             receivable
 6           Less: allowance for                                 -12                         -6                           -6                            0
             loss on penalties,
             fines, and admin. fees
             rec.
 7           Taxes receivable,                               152,060                    147,025                      147,025                            0
             gross
 8           Less: allowance for                            -113,046                  -112,017                      -112,017                            0
             loss on taxes
             receivable
             Total                                            41,463                     36,690                       36,690                            0
Threshold

 Line Description                                                 Question                                                          Answer
 Line Item Notes - Accounts receivable, gross (2012 -             Please provide explanations for any amounts that have             This variance is not material to the Department¿s financial statements.
 SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                  the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Related interest receivable - accounts         Please provide explanations for any amounts that have             The variance is related to 200650 (Deposit of Earnings, Federal Reserve
 receivable (2012 - SEPTEMBER)                                    changed by 10% or more and or greater than 500,000 between        System). The receivable balance increased by $684 million. Receivable on
                                                                  the current fiscal year and prior fiscal year. (Unaudited)        Deposit of Earnings, Federal Reserve System represents the earnings due
                                                                                                                                    Treasury as of the month ending date. The increase of $684 million is the
                                                                                                                                    result of an increase in the Federal Reserve weekly deposit of excess
                                                                                                                                    earnings to Treasury due to the better economic conditions and an increase
                                                                                                                                    in tax receipts.


                                                                                                         -8-
                                                                                                                                                                11/16/2012 15:09:14

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                               GF006 - FR Notes Report

 Note: 03          Accounts and Taxes Receivable                                                                    Fiscal Year: 2012           Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                                                       Agency Notes:    1 and 13

Status: Complete                    The accompanying notes are an integral part of these financial statements.   I = Inactive Line




                                                                                               -9-
                                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 03           Accounts and Taxes Receivable                                                                                        Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:        1 and 13

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Taxes (To be completed by the Depts. of Treasury,                                            Line Attributes: Dollars
                                           Labor and Homeland Security)                                                               Rounding Method: Millions                             Decimal: Zero
Line Status Line Description         NB       2012 - SEPTEMBER                2011 - SEPTEMBER                   Previously Rptd         Line Item Changes
 1              Interest on         Debit                             5                             4                           4                             0
                uncollectible
                accounts (SFFAS
                No. 1, par. 55)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the method(s) used to calculate the allowances on accounts receivable.
                                                                                                                           Allowances are calculated differently by each Treasury bureau depending on the nature
                                                                                                                           of the balances.
 2                   Describe the method(s) used to calculate the allowance on taxes receivable.
                                                                                                                           IRS uses a sophisticated model to estimate both taxes receivable and the allowance.
                                                                                                                           TTB uses aging, analysis of individual accounts, analysis of offers in compromise, etc.
 3                   Explain any material difference between the balance of accounts receivable and the
                     amounts reported on the Treasury Report on Receivables.                                               No known material differences.
 4                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertainnig to this note.                                          See Note 31.Part 2.I




                                                                                                            - 10 -
                                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

      Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                           Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                       Agency Notes:      1,11, and 12

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                              NB    Account    2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                      Type
Loans Receivable and mortgage backed securities                                D        A                    30,222                99,068
                                                                                   Variance:                      0                     0          Rounding Method: Millions                 Decimal: Zero
Line Status Line Description              CY Face Value of loans           CY Long-term cost of      CY Net loans receivable     PY Face Value of loans        PY Long-term cost of         PY Net loans receivable
                                               outstanding                            loans                                           outstanding                         loans
 13          GSE Mortgage Backed                               0                               0                            0                    70,586                       -1,831                           72,417
             Securities Purchase
             Program
 14          SBLF Small Business                                 3,980                         50                      3,930                       4,028                            -80                           4,108
             Lending
 15          HFA Initiative                                 13,684                          1,128                     12,556                      15,143                            815                        14,328
 16          IMF Quota                                       1,995                            137                      1,858                       1,995                             64                         1,931
 17          IMF NAB                                         1,490                            -21                      1,511                           0                              0                             0
 18          IMF NAB (Non-Credit                            10,382                            142                     10,240                       6,148                              0                         6,148
             Reform)
 19          All other loans                                      139                          12                        127                         152                             16                             136
             receivable
             Total                                           31,670                         1,448                      30,222                     98,052                         -1,016                           99,068
Threshold

 Line Description                                                   Question                                                           Answer
 Line Item Notes - SBLF Small Business Lending (CY Long-            Please provide explanations for any amounts that have             The 2012 performance assumptions anticipate an increased cost due to
 term cost of loans)                                                changed by 10% or more and or greater than 500,000 between        lower dividend rates, both actual and projected, paid by participating
                                                                    the current fiscal year and prior fiscal year. (Unaudited)        institutions relative to the dividend rates projected as of September 30,
                                                                                                                                      2011. These lower dividend rates are the result of continuing success by
                                                                                                                                      participating banks in increasing small business lending.
 Line Item Notes - HFA Initiative (CY Face Value of loans           Please provide explanations for any amounts that have             The decrease is from the normal course of business reflecting prepayments
 outstanding)                                                       changed by 10% or more and or greater than 500,000 between        during the year.
                                                                    the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - HFA Initiative (CY Long-term cost of loans)      Please provide explanations for any amounts that have             The upward reestimate in fiscal year 2012 was primarily related to NIBP
                                                                    changed by 10% or more and or greater than 500,000 between        driven by lower projected prepayment rates and lower than expected market
                                                                    the current fiscal year and prior fiscal year. (Unaudited)        interest rates which reduced coupon rates for the HFA bonds converted
                                                                                                                                      from escrow in fiscal year 2012. The drop in prepayment rates increases
                                                                                                                                      the cost of the program since the HFA bonds carry a lower weighted
                                                                                                                                      average coupon than the funding cost of the program.
 Line Item Notes - IMF Quota (CY Long-term cost of loans)           Please provide explanations for any amounts that have             The change in reestimate is primarily due to fluctuations in the valuation of
                                                                    changed by 10% or more and or greater than 500,000 between        the SDR rate compare the U.S. dollar since the calculation of the fiscal year
                                                                    the current fiscal year and prior fiscal year. (Unaudited)        2011 reestimate.




                                                                                                          - 11 -
                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                 Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                             Agency Notes:      1,11, and 12

 Status: Complete                         The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                              Question                                                      Answer
Line Item Notes - IMF NAB (CY Face Value of loans             Please provide explanations for any amounts that have        On April 12, 2012, the Department made its initial FCRA disbursement to
outstanding)                                                  changed by 10% or more and or greater than 500,000 between   the NAB.
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - IMF NAB (Non-Credit Reform) (CY Face        Please provide explanations for any amounts that have        During fiscal year 2012 the Department disbursed $4.2 billion in new loans
Value of loans outstanding)                                   changed by 10% or more and or greater than 500,000 between   to the IMF under the U.S. NAB arrangement for other countries.
                                                              the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - IMF NAB (Non-Credit Reform) (CY Long-       Please provide explanations for any amounts that have        The change is primarily due to fluctuations in the valuation of the SDR rate
term cost of loans)                                           changed by 10% or more and or greater than 500,000 between   compare the U.S. dollar. There is and an increase in allowance for
                                                              the current fiscal year and prior fiscal year. (Unaudited)   dobubtful accounts.
Line Item Notes - All other loans receivable (CY Long-term    Please provide explanations for any amounts that have        Variance presented is not material to the Department's consolidated
cost of loans)                                                changed by 10% or more and or greater than 500,000 between   financial statements.
                                                              the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                    - 12 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A         Direct Loans Receivable and Mortgage Backed Securities                                                          Fiscal Year: 2012                    Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                      Agency Notes:         1,11, and 12

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Subsidy Expense/(Income)                                                              Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd      Line Item Changes
13           GSE Mortgage           Debit                       -705                        1,814                        1,814                           0
             Backed Securities
             Purchase Program
14           SBLF Small             Debit                         105                         -80                         -80                            0
             Business Lending
             Fund
15           CDFI                   Debit                                                                                   2                           -2
16           HFA Initiative         Debit                         515                            9                          9                            0
17           IMF Quota              Debit                          67                          62                          62                            0
18           IMF NAB                Debit                         -20                            0                                                       0
19           All other loans        Debit                          -3                            2                                                       2
             receivable
20           Total                 N/A                            -41                       1,807                        1,807                           0
Threshold
 Line Description                                               Question                                                            Answer
 Other Notes Info - SBLF Small Business Lending Fund (2012      Please provide explanations for any amounts that have               The 2012 performance assumptions anticipate an increased cost due to
 - SEPTEMBER)                                                   changed by 10% or more and or greater than 500,000                  lower dividend rates, both actual and projected, paid by participating
                                                                between the current fiscal year and prior fiscal year.              institutions relative to the dividend rates projected as of September 30,
                                                                (Unaudited)                                                         2011. These lower dividend rates are the result of continuing success by
                                                                                                                                    participating banks in increasing small business lending.
 Other Notes Info - HFA Initiative (2012 - SEPTEMBER)           Please provide explanations for any amounts that have               The upward reestimate in fiscal year 2012 was primarily driven by lower
                                                                changed by 10% or more and or greater than 500,000                  projected prepayment rates and lower than expected market interest rates
                                                                between the current fiscal year and prior fiscal year.              which reduced coupon rates for the HFA bonds converted from escrow in
                                                                (Unaudited)                                                         fiscal year 2012. The drop in prepayment rates increases the cost of the
                                                                                                                                    program since the HFA bonds carry a lower weighted average coupon than
                                                                                                                                    the funding cost of the program.




                                                                                                         - 13 -
                                                                                                                                                                                    11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    1,11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: B             Section Name: Foreclosed Assets - Balances (SFFAS No. 3, par.          No Data Flag: YES         Line Attributes: Dollars
                                            91)                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1             Balances for          Debit
               property held Pre-
               1992
 2             Balances for          Debit
               property held Post-
               1991




       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES         Line Attributes: Dollars
                                            Year                                                                             Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service         Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                               Education Loan                        Loans
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit



                                                                                                       - 14 -
                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    1,11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Components of Loans Receivable, Net - Current            No Data Flag: YES          Line Attributes: Dollars
                                            Year                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental               Farm Loans
                                                             Loans                                                                Education Loan                        Loans
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications          GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                 Loans               Securities Purchase
                                                                                  Development                                                                          Program
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penalties and fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy



                                                                                                       - 15 -
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A          Direct Loans Receivable and Mortgage Backed Securities                                                      Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:    1,11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C            Section Name: Components of Loans Receivable, Net - Current             No Data Flag: YES          Line Attributes: Dollars
                                           Year                                                                               Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                    Loans          Securities Purchase
                                                                                  Development                                                                        Program
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year
       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental              Farm Loans
                                                             Loans                                                                Education Loan                        Loans
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit


                                                                                                       - 16 -
                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 04A           Direct Loans Receivable and Mortgage Backed Securities                                                     Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    1,11, and 12

  Status: Complete                           The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: D            Section Name: Components of Loans Receivable, Net - Prior Year          No Data Flag: YES          Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB      Federal Direct Student              Electric Loans     Rural Housing Service          Federal Family      Water and Environmental               Farm Loans
                                                             Loans                                                                Education Loan                        Loans
               subsidy
12        I                          Debit
13        I                          Debit
14        I                          Debit
15        I                          Debit
16        I    Loans receivable,     Debit
               net - end of the
               year
Line Status Line Description          NB        Export-Import Bank                U.S. Agency for         Housing and Urban    Telecommunications          GSE Mortgage Backed All other loans receivable
                                                           Loans                     International           Development                 Loans               Securities Purchase
                                                                                  Development                                                                          Program
 1        I    Loans receivable,     Debit
               net - beginning of
               the year
 2        I    Loans disbursed       Debit
               (loans made)
 3        I    Loan collections      Debit
               (principal and
               interest
               repayments,
               penaltiesand fines
               related to loans)
 4        I                          Debit
 5        I                          Debit
 6        I                          Debit
 7        I                          Debit
 8        I    Interest accrued on   Debit
               loans
 9        I    Foreclosed            Debit
               property acquired
10        I    Allowance for loss    Debit
               (loans, interest,
               and foreclosed
               property)
11        I    Allowance for         Debit
               subsidy



                                                                                                       - 17 -
                                                                                                                                                                                        11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 04A        Direct Loans Receivable and Mortgage Backed Securities                                                            Fiscal Year: 2012               Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                                       Agency Notes:    1,11, and 12

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line


      Section: D            Section Name: Components of Loans Receivable, Net - Prior Year             No Data Flag: YES           Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                      Decimal: Zero
Line Status Line Description        NB        Export-Import Bank                   U.S. Agency for           Housing and Urban    Telecommunications        GSE Mortgage Backed All other loans receivable
                                                         Loans                        International             Development                    Loans          Securities Purchase
                                                                                   Development                                                                          Program
12      I                          Debit
13      I                          Debit
14      I                          Debit
15      I                          Debit
16      I   Loans receivable,      Debit
            net - end of the
            year
Tab: Text Data
 Line              Question                                                                                            Answer
 1                 Provide a broad description of foreclosed property.                                                 N/A
 2                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly      See Note 31.Part 2.H
                   the significant accounting policies pertaining to this note.




                                                                                                          - 18 -
                                                                                                                                                                                 11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

      Note: 04B         Loan Guarantees                                                                                          Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                               Agency Notes:      1 and 7

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                Type
Loan Guarantee Liabilities                                               C        L                          7                  0
                                                                             Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd        Line Item Changes
 9       I   Air Transportation
             Stabilization Board
 13          FHA -Refinance                                    7
             Program
 14
 15
 16
 17
 18          All other loan
             guarantee liabilities
             Total                                             7




                                                                                                    - 19 -
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 04B          Loan Guarantees                                                                                                 Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                     Agency Notes:    1 and 7

  Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                                              Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                  Decimal: Zero
Line Status Line Description         NB          CY Face Value of           CY Amount Guaranteed         CY Subsidy Expense D   PY Face Value of Loans PY Amount Guaranteed by   PY Subsidy Expense D
                                             Loans Outstanding D             by the Government D                                       Outstanding D        the Government D
 9        I    Air Transportation    N/A
               Stabilization Board
13             FHA -Refinance        N/A                           307                            41                        6
               Program
14                                   N/A
15                                   N/A
16                                   N/A
17                                   N/A
18          All other loans          N/A
            guarantee liabilities
19          Total:                   N/A                           307                            41                        6
Tab: Text Data
 Line               Question                                                                                           Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly     See Note 31.Part 2.H
                    the significant accounting policies pertaining to this note.




                                                                                                            - 20 -
                                                                                                                                                                                             11/16/2012 15:09:14

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 05          Inventories and Related Property                                                                             Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                   Agency Notes:        Immaterial to the Dept no separate note disclosure

  Status: Complete                       The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2012 - SEPTEMBER         2011 - SEPTEMBER
                                                                               Type
Inventory and Related Property                                          D        A                          630                  743
                                                                            Variance:                         0                    0            Rounding Method: Millions               Decimal: Zero
Line Status Line Description          2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Gross Inventory -                              757                          707                           707                            0
            balance beginning of
            year
 2          Prior-period
            adjustment (not
            restated)
 3          Capitalized                                    787                          664                           664                            0
            acquisitions from the
            public
 4          Capitalized
            acquisitions from
            Government agencies
 5          Inventory sold or used                        -904                        -614                         -614                              0
 6          Total allowance for                            -10                         -14                          -14                              0
            inventories and related
            property
            Total                                           630                         743                           743                            0




                                                                                                   - 21 -
                                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05             Inventories and Related Property                                                                                Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        Immaterial to the Dept no separate note disclosure

  Status: Complete                               The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Inventory Yearend Balances by Category Type                                             Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                            Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1              Inventory               Debit
                purchased for sale
 2              Inventory held in       Debit
                reserve for future
                sale to the public
 3              Inventory and           Debit
                operating materials
                and supplies held
                for repair
 4              Inventory - excess,     Debit
                obsolete, and
                unserviceable
 5              Operating materials     Debit                           18                         17                          17                          0
                and supplies held
                for use
 6              Operating materials     Debit                           26                         26                          26                          0
                and supplies held
                in reserve for future
                use
 7              Operating materials     Debit
                and supplies
                excess, obsolete,
                and unserviceable
 8              Stockpile materials     Debit
 9              Stockpile materials     Debit
                held for sale
10              Forfeited property      Debit                           89                         63                          63                          0
11              Other related           Debit                          507                        651                         651                          0
                property
12              Total allowance for     Credit                          10                         14                          14                          0
                inventories and
                related property
13              Total inventories        N/A                           630                        743                         743                          0
                and related
                property, net




                                                                                                           - 22 -
                                                                                                                                                                                              11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                            Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                  Agency Notes:        Immaterial to the Dept no separate note disclosure

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: B              Section Name: Capitalized Acquitions From Government Agencies         No Data Flag: YES           Line Attributes: Dollars
                                             by Trading Patrner                                                                Rounding Method: Millions                            Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              General Services     Debit
                Administration
 2              Department of        Debit
                Defense
 3              Department of        Debit
                Justice
 4              National             Debit
                Aeronautics and
                Space
                Administration
 5              All other            Debit
                departments
 6              Total Capitalized     N/A
                Assets from
                Federal Agencies
       Section: C              Section Name: Other Information - Dollar Value                                                    Line Attributes: Dollars
                                                                                                                               Rounding Method: Whole-Dollars                       Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 1              Seized property      Debit                         571               494,000,000                 494,000,000                          0
 2              Forfeited property   Debit                          84                 54,000,000                 54,000,000                          0
 3              Goods held under     Debit
                price support and
                stabilization
                programs




                                                                                                       - 23 -
                                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 05            Inventories and Related Property                                                                                     Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                          Agency Notes:       Immaterial to the Dept no separate note disclosure

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                     I = Inactive Line


       Section: D              Section Name: Other Information - Number of Items/Volume                                                   Line Attributes: Units


Line Status Line Description          NB       2012 - SEPTEMBER                2011 - SEPTEMBER                   Previously Rptd         Line Item Changes
 1              Seized property       N/A                   30,702.0000                   30,900.0000                  30,900.0000                        .0000
 2              Forfeited property    N/A                   16,343.0000                   15,297.0000                  15,297.0000                        .0000
 3              Goods held under      N/A
                price support and
                stabilization
                programs



Tab: Text Data
 Line                Question                                                                                               Answer
 1                   Method used to calculate allowance for each category of inventory.                                     All inventory that is not for sale has an allowance of 100% of the original value.
 2                   Significant accounting principles and methods of applying those principles.                            Inventory and related property includes inventory, operating materials and supplies and
                                                                                                                            forfeited property held by Treasury. Treasury's operating materials and supplies are
                                                                                                                            maintained for the production of bureau products. Treasury maintains inventory
                                                                                                                            accounts or balances for use in manufacturing currency and coins. The cost of these
                                                                                                                            items is included in inventory costs and is recorded as cost of goods sold upon delivery
                                                                                                                            to customers. Inventory for check processing activities is also maintained.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly        The Treasury values inventories at either standard cost, or lower of cost or latest
                      the significant accounting policies pertaining to this note.                                          acquisition cost, except for finished goods inventories, which are valued at weighted-
                                                                                                                            average unit cost. These inventories were categorized based on the Department¿s
                                                                                                                            major activities and the services the Department provides to the Federal Government
                                                                                                                            and the public. All operating materials and supplies are recorded as an expense when
                                                                                                                            consumed in operations.

                                                                                                                            Forfeited property and currency is recorded in the respective seized property and
                                                                                                                            forfeited asset tracking systems at the estimated fair value at the time of seizure.
                                                                                                                            However, based on historical sales experiences for the year, properties are adjusted to
                                                                                                                            reflect the market value at the end of the fiscal year for financial statement reporting
                                                                                                                            purposes. Direct and indirect holding costs are not capitalized for individual forfeited
                                                                                                                            asset. Forfeited currency not deposited into the Fund is included as part of Entity
                                                                                                                            Assets - Cash and Other Monetary Assets.

                                                                                                                            Further, mortgages and claims on forfeited assets are recognized as a valuation
                                                                                                                            allowance and a reduction of deferred revenue from forfeited assets when the asset is
                                                                                                                            forfeited. The allowance includes mortgages and claims on forfeited property held for
                                                                                                                            sale and a minimal amount of claims on forfeited property previously sold. Mortgages
                                                                                                                            and claims expenses are recognized when the related asset is sold and is reflected as
                                                                                                                            a reduction of sales of forfeited property.




                                                                                                             - 24 -
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 06          Property, Plant, and Equipment                                                                           Fiscal Year: 2012                Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                               Agency Notes:        1 and 19

  Status: Complete                       The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                               Type
Property, Plant and Equipment                                           D        A                     2,435                2,266
                                                                            Variance:                      0                    0            Rounding Method: Millions           Decimal: Zero
Line Status Line Description                     CY PP&E            CY Accum. Depr.                CY Net PP& E                    PY PP&E             PY Accum. Depr.                PY Net PP&E
 1          PP&E - balance                               6,334                       4,068                       2,266                    5,986                          3,955                   2,031
            beginning of year
 2          Prior-period
            adjustments (not
            restated)
 3          Capitalized                                     574                                                       574                     665                                                   665
            acquisitions from the
            public
 4          Capitalized                                     114                          20                            94                      83                          12                        71
            acquisitions from
            Government agencies
 5          Deletions from the                             -838                       -783                            -55                    -400                        -381                       -19
            Balance Sheet
 6          Revaluations
 7          Stewardship
            reclassifications
 8          Depreciation/amortizati                                                     444                       -444                                                    482                     -482
            on
            Total                                          6,184                      3,749                       2,435                      6,334                       4,068                    2,266




                                                                                                   - 25 -
                                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 06              Property, Plant, and Equipment                                                                                  Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                      Agency Notes:        1 and 19

  Status: Complete                              The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Cost of PP&E for each category                                                          Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB       2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1              Buildings,              Debit                         739                         703                         703                           0
                structures, and
                facilities (including
                improvement to
                land)
 2              Furniture, fixtures,    Debit                       3,012                       3,097                        3,097                          0
                and equipmen
                (including
                aircraf,ships,
                vessels, small
                boats, and
                vehicles)
 3              Construction in         Debit                         172                         153                         153                           0
                progress
 4              Land and Land           Debit                          17                          15                          15                           0
                Rights
 5              Internal use            Debit                       1,824                       1,849                        1,849                          0
                software
 6              Assets under            Debit                           9                            7                          7                           0
                capital lease
 7              Leasehold               Debit                         411                         510                         510                           0
                improvements
 8              Other property,         Debit
                plant and
                equipment
 9              Total property,         N/A                         6,184                       6,334                        6,334                          0
                plant and
                equipment
Threshold
 Line Description                                                   Question                                                            Answer
 Other Notes Info - Construction in progress (2012 -                Please provide explanations for any amounts that have
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                  The variance is not material to the Department's financial statements.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)
 Other Notes Info - Land and Land Rights (2012 -                    Please provide explanations for any amounts that have
 SEPTEMBER)                                                         changed by 10% or more and or greater than 500,000                  The variance is not material to the Department's financial statements.
                                                                    between the current fiscal year and prior fiscal year.
                                                                    (Unaudited)



                                                                                                             - 26 -
                                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

     Note: 06             Property, Plant, and Equipment                                                                                     Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                         Agency Notes:        1 and 19

  Status: Complete                               The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: A               Section Name: Cost of PP&E for each category                                                             Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                           Decimal: Zero
Threshold
 Line Description                                                    Question                                                             Answer
 Other Notes Info - Assets under capital lease (2012 -               Please provide explanations for any amounts that have
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000                   The variance is not material to the Department's financial statements.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (Unaudited)
 Other Notes Info - Leasehold improvements (2012 -                   Please provide explanations for any amounts that have
 SEPTEMBER)                                                          changed by 10% or more and or greater than 500,000                   The variance is not material to the Department's financial statements.
                                                                     between the current fiscal year and prior fiscal year.
                                                                     (Unaudited)

       Section: B               Section Name: Accumulated Depreciation/Amortization                                                      Line Attributes: Dollars
                                                                                                                                       Rounding Method: Millions                           Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd       Line Item Changes
 1              Buildings,              Credit                         382                         360                          360                           0
                structures, and
                facilities (including
                improvements to
                land)
 2              Furniture, fixtures,    Credit                       2,164                       2,259                         2,259                          0
                and equipment
                (including aircraft,
                ships, vessels,
                small boats, and
                vehicles)
 3              Internal use            Credit                       1,002                       1,151                         1,151                          0
                software
 4              Assets under            Credit                           2                            1                            1                          0
                capital lease
 5              Leasehold               Credit                         199                         297                          297                           0
                improvements
 6              Other property,         Credit
                plant, and
                equipment
 7              Total accumulated        N/A                        -3,749                      -4,068                        -4,068                          0
                depreciation/amorti
                zation




                                                                                                              - 27 -
                                                                                                                                                                                                11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 06            Property, Plant, and Equipment                                                                                   Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1 and 19

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C              Section Name: Intragovernmental Capitalized acquisition amounts                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1              General Services      Debit                           47                          50                         50                            0
                Administration
 2              Department of         Debit                            1                           1                          1                            0
                Defense
 3              Department of the     Debit                           16                          13                         13                            0
                Interior
 4              Department of         Debit
                Justice
 5              National              Debit
                Aeronautics and
                Space
                Administration
 6              All other             Debit                           50                          19                         19                            0
                departments
 7              Total capitalized      N/A                           114                          83                         83                            0
                assets from
                Federal agencies
       Section: D              Section Name: Gain/Loss on Sale/Disposition                                                            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd        Line Item Changes
 1              Gain/loss on          Credit                         -31                        -17                         -17                            0
                sale/disposition of
                property, plant and
                equipment




Tab: Text Data
 Line                Question                                                                                            Answer
 1                   Provide the physical quantity information by category for multiuse heritage assets that are
                     included in the "Line Item Notes" tab of this note (SFFAS No. 29, par 25).                          Treasury complex (Main Treasury Building and Annex) and Mint has 4 buildings.
 2                   Provide any other relevant information pertaining to this note and any material changes from
                     the prior years' depreciation methods and capitalization thresholds. In addition, describe          CP Note 31Part 2 J
                     briefly the significant accounting policies pertaining to this note.




                                                                                                           - 28 -
                                                                                                                                                                                        11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                  Agency Notes:        Notes 1,10 and 26

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                  Type
Debt and Equity Securities                                                 D        A                    18,047                  26,660
                                                                               Variance:                      0                       0           Rounding Method: Millions         Decimal: Zero
Line Status Line Description              2012 - SEPTEMBER           2011 - SEPTEMBER               Previously Rptd           Line Item Changes
 1              Fixed/Debt Securities                      15,415                      15,777                      15,777                              0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Non-U.S.
                Government Securities
 2              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Commercial
                Securities
 3              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Mortgage/asset
                backed Securities
 4              Fixed/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9):Corporate and other
                bonds
 5              All other Fixed                                  4                          4                             4                            0
                Income/Debt Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9) All:Other fixed/debt
                securities
 6              Equity Securities                            2,625                     10,876                            14                    10,862
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Common Stocks
 7              Equity Securities
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): Unit Trusts
 8              Equity Securities                                3                          3                             3                            0
                (FASB ASC 320-10-
                50-1 and 320-10-50-
                9): All Other Equity



                                                                                                      - 29 -
                                                                                                                                                                                           11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                 Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000           Department of the Treasury                                                                                 Agency Notes:     Notes 1,10 and 26

  Status: Complete                          The accompanying notes are an integral part of these financial statements.            I = Inactive Line


Line Status Line Description             2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd          Line Item Changes
             Securities
 9           Other
             Total                                          18,047                     26,660                      15,798                     10,862
Threshold

 Line Description                                               Question                                                          Answer
 Line Item Notes - Equity Securities (FASB ASC 320-10-50-       Please provide explanations for any amounts that have             Non-TARP Investment in AIG that was reported in CP Note 21 in fiscal year
 1 and 320-10-50-9): Common Stocks (2012 -                      changed by 10% or more and or greater than 500,000 between        2011.
 SEPTEMBER)                                                     the current fiscal year and prior fiscal year. (Unaudited)




                                                                                                      - 30 -
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                  Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:         Notes 1,10 and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Investment Category - Held-to-Maturity Securities                                   Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D              CY Unamortized           CY Net Investment       PY Basis (Costs) D                PY Unamortized       PY Net Investment
                                                                             Premium/Discount D                                                                 Premium/Discount D
 1              Fixed/Debt              N/A
                Securities: Non-
                U.S. Government
                securities
 2              Fixed/Debt              N/A
                Securities: Non-
                U.S. Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A                           6                           -2                        4                           6                        -2                          4
                Securities: All other
                fixed income/debt
                securiteis
 6              Equity Securities:      N/A                          19                           -5                       14                          19                        -5                       14
                Common stocks
 7              Equity Securities:      N/A                           6                           -3                        3                           6                        -3                          3
                Unit trusts
 8              Equity Securities:      N/A
                All Other equity
                securities
 9              Other                   N/A
10              Total Held-to-          N/A                          31                        -10                         21                          31                       -10                       21
                Maturity Securities




                                                                                                        - 31 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                     Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                     Agency Notes:       Notes 1,10 and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B               Section Name: Investment Category - Available-for-Sale Securities                                    Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value          PY Basis (Costs) D        PY Unrealized Gain/Loss          PY Market Value
                                                                                               D                                                                                    D
 1              Fixed/Debt              N/A                      15,151                        264                     15,415                       15,499                           278                   15,777
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                secruties
 6              Equity Securities:      N/A                       3,603                       -992                         2,611                    22,387                       -11,525                   10,862
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Available-        N/A                      18,754                       -728                     18,026                       37,886                       -11,247                   26,639
                for-Sale Securities




                                                                                                        - 32 -
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                Agency Notes:    Notes 1,10 and 26

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C               Section Name: Investment Category - Trading Securities                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                      Decimal: Zero
Line Status Line Description            NB       CY Basis (Costs) D       CY Unrealized Gain/Loss           CY Market Value     PY Basis (Costs) D      PY Unrealized Gain/Loss       PY Market Value
                                                                                               D                                                                             D
 1              Fixed/Debt              N/A
                Securities: Non-US
                Government
                securities
 2              Fixed/Debt              N/A
                Securities:
                Commercial
                securities
 3              Fixed/Debt              N/A
                Securities:
                Mortgage/asset
                backed securities
 4              Fixed/Debt              N/A
                Securities:
                Corporate and
                other bonds
 5              Fixed/Debt              N/A
                Securities: All other
                fixed income/debt
                securities
 6              Equity Securities:      N/A
                Common stocks
 7              Equity Securities:      N/A
                Unit trusts
 8              Equity Securities:      N/A
                All other equity
                securities
 9              Other                   N/A
10              Total Trading           N/A
                Securities




                                                                                                        - 33 -
                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                    Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    Notes 1,10 and 26

  Status: Complete                             The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: D              Section Name: Other Information                                                                      Line Attributes: Dollars
                                                                                                                                  Rounding Method: Millions                    Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Change
 1              Proceeds from         Debit
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 2              Gross realized        Debit
                gains (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 3              Gross realized        Credit
                losses (included in
                earnings) from
                sales of available-
                for-sale securities
                (FASB ASC 320-
                10-50-9)
 4              Gross gains           Debit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 5              Gross losses          Credit
                included in
                earnings from s
                from transfers of
                securities from
                available-for-sale
                into trading
 6              Net unrealized        Debit                          264                        278                         278
                holding gain on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income



                                                                                                         - 34 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 07             Debt and Equity Securities                                                                                   Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    Notes 1,10 and 26

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: D               Section Name: Other Information                                                                    Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                    Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Change
 7              Net unrealized          Credit
                holding loss on
                available-for-sale
                securities included
                in accumulated
                other
                comprehensive
                income
 8              Amount of               Debit
                gains/losses
                reclassified out of
                accumulated other
                comprehensive
                income into
                earnings for the
                period
 9              Portion of trading      Debit
                gains/losses that
                relates to trading
                securities still held
                at the reporting
                date
10              Net carrying            Debit
                amount of
                sold/transferred
                held-to-maturity
                securities (FASB
                ASC 320-10-50-
                10)
11              Net gain/loss in        Debit
                accum. other
                comp. income for
                any derivative that
                hedged the
                forecasted
                acquisition of HTM
                security




                                                                                                           - 35 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

    Note: 07          Debt and Equity Securities                                                                                       Fiscal Year: 2012                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                      Agency Notes:      Notes 1,10 and 26

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Provide a description of the amounts reported on the "Line Item Notes" tab for lines 5, 8 and     CDF - Line 5 represents $.5M in convertible subordinated debt securities and $3.5M in
                   9.                                                                                                secondary capital investments in federal credit unions. Line 8 represents $3M of other
                                                                                                                     equity securities with limited partnership interests.
2                  Provide a description of the amounts reported on the "Other Notes Infor" tab for lines 5, 8       CDF - Line 5 represents $2M in convertible subordinated debt securities (and the
                   and 9 in Sections A through C.                                                                    related $1.5M discount on imputed interest) and $3.5M in secondary capital
                                                                                                                     investments in federal credit unions. Line 8 represents $6M of other equity securities
                                                                                                                     with limited partnership interests. All of CDFI securities are "Held to Maturity."
3                  Provide the basis on which the cost of a security sold or the amount reclassified out of
                   accumulated other comprehensive income into earnings was determined (FASB ASC 320-                N/A
                   10-50-9).
4                  Provide the circumstances leading to the decision to sell or transfer the security for held-to-
                   maturity securities (FASB ASC 320-10-50-10).                                                      N/A
5                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.                                      See Note 31 Part 2G - "Non-TARP Investment in American International Group, Inc."
                                                                                                                     and "Other Investments and Related Interest"




                                                                                                           - 36 -
                                                                                                                                                                                                         11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 08           Other Assets                                                                                                           Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                             Agency Notes:        Note 1 and 9

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                       Type
Other Assets                                                                   D         A                        6,050                   5,715
                                                                                    Variance:                         0                       0           Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER               2011 - SEPTEMBER                   Previously Rptd            Line Item Changes
 1             Advances and                                        7                              6                             6                               0
               prepayments
 4             Regulatory Assets
 5             Other assets                                    6,043                          5,709                       5,709                                 0
               Total                                           6,050                          5,715                       5,715                                 0
Threshold

 Line Description                                                  Question                                                                  Answer
 Line Item Notes - Advances and prepayments (2011 -                Please provide explanations for any amounts that have
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               Most of this balance relates to the Internal Revenue Service (IRS) and
                                                                   the current fiscal year and prior fiscal year. (Unaudited)               fluctuation of this amount is not significant.
 Line Item Notes - Advances and prepayments (2012 -                Please provide explanations for any amounts that have
 SEPTEMBER)                                                        changed by 10% or more and or greater than 500,000 between               This amount is not significant to the Department.
                                                                   the current fiscal year and prior fiscal year. (Unaudited)
Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a description of advances and prepayments on the "Line Item Notes" tab for line 1.
                                                                                                                             Advances to the public consist of cash outlays for criminal investigations (IRS) and
                                                                                                                             employee travel.
 2                   Provide a description and related amounts for balances that exceed $1 billion in the line titled
                     "Other Assets" on the "Line Item Notes" tab.                                                            $6.043 billion relates to Treasury participation in Multilateral Development Banks
                                                                                                                             (MDB). See AFR Note 9.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.                                            See Note 31 Part 2 G "Investments in International Financial Instituions"




                                                                                                              - 37 -
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 09          Accounts Payable                                                                                           Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                 Agency Notes:        Note 19 and Note 31 Part 2 N

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                        NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                Type
Accounts Payable                                                         C        L                     4,922                 4,787
                                                                             Variance:                      0                     0           Rounding Method: Millions               Decimal: Zero
Line Status Line Description         2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd         Line Item Changes
 1          Accounts Payable                              4,922                       4,787                       4,787                            0
            Total                                         4,922                       4,787                       4,787                            0




                                                                                                    - 38 -
                                                                                                                                                                                             11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 09            Accounts Payable                                                                                                  Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                        Agency Notes:    Note 19 and Note 31 Part 2 N

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Interest                                                      No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER C                 Previously Rptd C    Line Item Changes D
                                                               C
 1              Interest accrued      N/A
                and owed to others




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.                                         See Note 31 Part 2.N.




                                                                                                             - 39 -
                                                                                                                                                                                                 11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

      Note: 10A        Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                      Agency Notes:        1 and 16

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2012 - SEPTEMBER         2011 - SEPTEMBER
                                                                                   Type
Federal Debt Securities Held by the Public                                  C        L                11,307,583               10,148,963
                                                                                Variance:                      0                        0          Rounding Method: Millions                Decimal: Zero
Line Status Line Description           2012 - SEPTEMBER               2011 - SEPTEMBER               Previously Rptd           Line Item Changes
 1            Marketable Securities                      1,613,026                   1,475,557                     1,475,557                             0
             - Treasury bills
 2            Marketable Securities                      7,114,961                   6,406,983                     6,406,983                             0
             - Treasury notes
 3            Marketable Securities                      1,194,715                   1,016,407                     1,016,407                             0
             - Treasury bonds
 4            Marketable Securities                         807,469                    705,352                      705,352                              0
             - Treasury inflation
             protected securities
 5            Non-marketable                                539,415                    522,732                      522,732                              0
             securities
 6            Unamortized premium                            32,381                     20,423                       20,423                              0
             on Treasury securities
 7            Unamortized discount                          -51,606                    -49,961                      -49,961                              0
             on Treasury securities
 8           Accrued interest                                57,222                     51,470                       51,470                              0
             payable on debt
             issued by Treasury
  9          Securities at par
 10           Unamortized premium
             on securities
 11           Unamortized discount
             on securities
 12           Accrued interest
             payable on agency
             securities
             Total                                       11,307,583                 10,148,963                  10,148,963                               0
Threshold

 Line Description                                                Question                                                             Answer
 Line Item Notes - Marketable Securities - Treasury bonds        Please provide explanations for any amounts that have               Treasury primarily used the existing suite of securities to meet the borrowing
 (2012 - SEPTEMBER)                                              changed by 10% or more and or greater than 500,000 between          needs of the Federal Government while increasing its offerings of longer
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          term securities to extend the average length of maturity. As a result,
                                                                                                                                     Treasury bonds increased by $178 billion.




                                                                                                       - 40 -
                                                                                                                                                                                           11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 10A           Federal Debt Securities Held by the Public                                                                       Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                       Agency Notes:        1 and 16

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Federal Debt Held By the Public: Other Related                                           Line Attributes: Dollars
                                             Information                                                                            Rounding Method: Millions                      Decimal: Zero
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Debt subject to        Credit                  16,027,021                 14,746,553                 14,746,553                             0
               statutory limit
 2             Statutory debt limit   Credit                  16,394,000                 15,194,000                 15,194,000                             0
 3             Loss or gain for       Credit
               difference between
               the reacquisition
               price and the net
               carrying value of
               the extinguished
               debt
       Section: B              Section Name: Federal Debt Held By The Public: Average Interest                                        Line Attributes: Percent
                                             Rate
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Changes
 1             Marketable              N/A                         .1000                      .1000                         .1000                     .0000
               securities -
               Treasury bills
 2             Marketable              N/A                        2.0000                     2.3000                     2.3000                        .0000
               securities - Tresury
               notes
 3             Marketable              N/A                        5.4000                     5.8000                     5.8000                        .0000
               securities -
               Treasury bonds
 4             Marketable              N/A                        1.4000                     1.9000                     1.9000                        .0000
               securities -
               Treasury inflation
               protected securities
 5             Non-marketable          N/A                        2.1000                     2.8000                     2.8000                        .0000
               securities




                                                                                                         - 41 -
                                                                                                                                                                                                    11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

    Note: 10A         Federal Debt Securities Held by the Public                                                                        Fiscal Year: 2012                   Period: SEPTEMBER
    Entity: 2000      Department of the Treasury                                                                                        Agency Notes:       1 and 16

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                          Answer
1                  Pursuant to Federal law, are old currencies issued by the Federal Government and not yet          BPD does not write off debt. The Matured Unredeemed (old) debt is recorded at par
                   redeemed or written off                                                                           value and is also fully amortized; therefore, yes, it is recorded at face value in the debt
                   identified as a Federal debt liabitlity at face value?                                            liability.

2                  Provide the losses or gains for the difference between the reacquistion price and the net         Currently Marketable Treasury Securities and most non-marketable Treasury securities
                   carrying value of the extinguished                                                                are not early redeemable; therefore, there are no gains or losses to record. These
                   debt recognized currently in the period of the extinguishment for those securities that are       securities are redeemed at par value.
                   retired before the maturity date
                   because of a call feature of the security, or because they are eligible for redemption by the     The only Treasury securities that are early redeemable are Government Account Series
                   holder on demand.                                                                                 securities (GAS), which are non-marketable. However, the intent of the GAS program
                                                                                                                     is to hold to maturity, and because of this intent and the information found in SFFAS 1
                                                                                                                     and 5, BPD records these securities at amortized cost not the market value. Gains and
                                                                                                                     losses are not broken out and reported separately because they are not material;
                                                                                                                     therefore they are captured in interest expense.
3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly    See Note 31 Part 2.K.
                   the significant accounting policies pertaining to this note.




                                                                                                            - 42 -
                                                                                                                                                                                           11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                              Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                  Agency Notes:          27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Investments in Federal Debt securities                                              Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB        CY Par value of the                 CY Unamortized CY Unamortized premium        CY Net Investment                PY Par Value of the PY Unamortized discount
                                                   investment D                       Discount C                       D                                             investment D                         C
19             Department of         N/A                       22,680                                                                          22,680                       22,721
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                           493                                                                               493                         493
24                                   N/A
25                                   N/A
26             All other programs    N/A                         8,344                          220                     283                     8,407                        7,340                        111
               and funds
27             Total                 N/A                       31,517                          -220                     283                    31,580                       30,554                      -111

Line Status Line Description         NB            PY Unamortized             PY Net Investment
                                                      premium D
19             Department of         N/A                                                     22,721
               Treasury,
               Exchange
               Stabilization Fund
23             Hope Bond             N/A                                                        493
24                                   N/A
25                                   N/A
26             All other programs    N/A                           240                        7,469
               and funds
27             Total                 N/A                           240                       30,683
       Section: B             Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                                Line Attributes: Dollars
                                            Funds (or Held by Non-Federal Custodians) with                                    Rounding Method: Millions                            Decimal: Zero
                                            Fiduciary Activity
Line Status Line Description         NB        CY Par value of the       CY Unamortized discount CY Unamortized premium         CY Net Investment                PY Par value of the PY Unamortized discount
                                                   investment D                               C                       D                                              investment D                         C
 1             Fiduciary             N/A                            16                                                    1                           17                          75
               Investments
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A



                                                                                                         - 43 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                            Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                Agency Notes:         27 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: B            Section Name: Fiduciary Funds - Tresury Securities Held by Deposit                              Line Attributes: Dollars
                                           Funds (or Held by Non-Federal Custodians) with                                  Rounding Method: Millions                          Decimal: Zero
                                           Fiduciary Activity
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium       CY Net Investment               PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                           investment D                         C
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                            16                                                  1                          17                         75

Line Status Line Description        NB            PY Unamortized             PY Net Investment
                                                     premium D
 1             Fiduciary            N/A                             2                           77
               Investments
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11                                  N/A
12                                  N/A
13                                  N/A
14                                  N/A
15                                  N/A
16             Total                N/A                             2                           77




                                                                                                        - 44 -
                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 10B         Treasury securities held by the Government trust, revolving, and special funds                             Fiscal Year: 2012            Period: SEPTEMBER
     Entity: 2000      Department of the Treasury                                                                                 Agency Notes:    27 and BPD Schedule

  Status: Complete                        The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: C           Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES     Line Attributes: Dollars
                                          Other Agency Funds with Fiduciary Activity                                        Rounding Method: Millions                    Decimal: Zero
Line Status Line Description        NB        CY Par value of the       CY Unamortized discount CY Unamortized premium        CY Net Investment          PY Par value of the PY Unamortized discount
                                                  investment D                               C                       D                                       investment D                         C
 1                                 N/A
 2                                 N/A
 3                                 N/A
 4                                 N/A
 5                                 N/A
 6                                 N/A
 7                                 N/A
 8                                 N/A
 9                                 N/A
10                                 N/A
11                                 N/A
12                                 N/A
13                                 N/A
14                                 N/A
15                                 N/A
16             Total               N/A




                                                                                                          - 45 -
                                                                                                                                                                                           11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                  Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                      Agency Notes:        27 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C            Section Name: Fiducuiary Funds-Treasury Securities Held by All              No Data Flag: YES          Line Attributes: Dollars
                                           Other Agency Funds with Fiduciary Activity                                             Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB            PY Unamortized            PY Net Investment
                                                       premium C
 1                                   N/A
 2                                   N/A
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A
 8                                   N/A
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
13                                   N/A
14                                   N/A
15                                   N/A
16             Total                 N/A
       Section: D            Section Name: Programs and Funds (to be completed only by                                              Line Attributes: Dollars
                                           Treasury)                                                                              Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER              2011 - SEPTEMBER                  Previously Rptd     Line Item Changes
 1             Social Security       Debit                   2,586,697                    2,492,531                   2,492,531                          0
               Administration,
               Federal Old-Age
               and Survivors
               Insurance
 2             Office of Personnel   Debit                     819,444                      795,371                     795,371                          0
               Management, Civil
               Service Retirement
               and Disability
 3             Office of Personnel   Debit                      21,259                       19,191                      19,191                          0
               Management,
               Employees¿ Health
               Benefits
 4             Department of         Debit                     228,292                      245,939                     245,939                          0
               Health and Human
               Services, Federal


                                                                                                           - 46 -
                                                                                                                                                                                        11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                               Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                   Agency Notes:        27 and BPD Schedule

  Status: Complete                           The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: D            Section Name: Programs and Funds (to be completed only by                                           Line Attributes: Dollars
                                           Treasury)                                                                           Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER              2011 - SEPTEMBER                Previously Rptd    Line Item Changes
               Hospital Insurance
 5             Department of         Debit                     376,439                      326,040                  326,040                          0
               Defense, Military
               Retirement Fund
 6             Department of         Debit                     176,113                      161,741                  161,741                          0
               Defense,
               Medicare-Eligible
               Retiree Health
               Care Fund
 7             Social Security       Debit                     132,345                      161,965                  161,965                          0
               Administration,
               Federal Disability
               Insurance
 8             Department of         Debit                      20,673                       16,030                   16,030                          0
               Labor,
               Unemployment
 9             Federal Deposit       Debit                      36,498                       34,926                   34,926                          0
               Insurance
               Corporation Funds
10             Office of Personnel   Debit                      41,250                       39,678                   39,678                          0
               Management,
               Employees¿ Life
               Insurance
11             Department of         Debit                      49,552                       48,611                   48,611                          0
               Energy, Nuclear
               Waste Disposal
12             Department of         Debit                      69,324                       70,446                   70,446                          0
               Health and Human
               Services, Federal
               Supplementary
13             Housing and Urban     Debit
               Development,
               Federal Housing
               Administration
14             Department of         Debit
               Veterans Affairs,
               National Service
               Life Insurance
               Fund
15             Department of         Debit                       9,970                       16,302                   16,302                          0


                                                                                                         - 47 -
                                                                                                                                                                                         11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 10B        Treasury securities held by the Government trust, revolving, and special funds                                Fiscal Year: 2012                  Period: SEPTEMBER
  Entity: 2000        Department of the Treasury                                                                                    Agency Notes:          27 and BPD Schedule

  Status: Complete                         The accompanying notes are an integral part of these financial statements.            I = Inactive Line


      Section: D           Section Name: Programs and Funds (to be completed only by                                            Line Attributes: Dollars
                                         Treasury)                                                                            Rounding Method: Millions                          Decimal: Zero
Line Status Line Description        NB       2012 - SEPTEMBER              2011 - SEPTEMBER                Previously Rptd     Line Item Changes
             Transportation,
             Highway Trust
             Fund
16           Department of         Debit                      10,425                        8,641                                               8,641
             Transportation,
             Airport and Airway
             Trust Fund
17           Pension Benefit       Debit                      21,114                       20,974                   20,974                             0
             Guaranty
             Corporation Fund
18           Department of         Debit                      16,893                       16,397                   16,397                             0
             State, Foreign
             Services
             Retirement and
             Disability Fund
19           Department of the     Debit                      22,680                       22,721                   22,721                             0
             Treasury,
             Exchange
             Stabilization Fund
20           Railroad              Debit
             Retirement Board
21           Office of Personnel   Debit                      45,347                       43,708                   43,708                             0
             Management,
             Postal Service
             Retiree Health
22           Housing and Urban     Debit
             Development,
             Ginnie Mae
23           Federal Financing     Debit                         493                          493                       493                            0
             Bank - Hope Bond
24           National Credit       Debit                      10,297                       10,733                   10,733                             0
             Union Share
             Insurance Fund
25                                 Debit
26           All other programs    Debit                      94,439                      102,429                  110,577                     -8,148
             and funds
27           Subtotal              N/A                     4,789,544                    4,654,867                 4,654,374                          493
             Intragovernmental
             Debt Holdings



                                                                                                       - 48 -
                                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 10B          Treasury securities held by the Government trust, revolving, and special funds                                      Fiscal Year: 2012                   Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                          Agency Notes:           27 and BPD Schedule

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


      Section: D             Section Name: Programs and Funds (to be completed only by                                                  Line Attributes: Dollars
                                           Treasury)                                                                                  Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB       2012 - SEPTEMBER                2011 - SEPTEMBER                  Previously Rptd         Line Item Changes
28            Total Net             Debit                       56,250                        47,624                     47,624                                 0
              Unamortized
              Premiums/Discount
              s for
              Intragovernmental
29            Total                  N/A                      4,845,794                    4,702,491                   4,701,998                              493
              Intragovernmental
              Debt Holdings
Threshold
 Line Description                                                Question                                                                Answer
 Other Notes Info - Department of Defense, Military              Please provide explanations for any amounts that have                   Direct further variance analysis back to the agency referenced in the line
 Retirement Fund (2012 - SEPTEMBER)                              changed by 10% or more and or greater than $500,000                     description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Social Security Administration, Federal      Please provide explanations for any amounts that have                   Direct further variance analysis back to the agency referenced in the line
 Disability Insurance (2012 - SEPTEMBER)                         changed by 10% or more and or greater than $500,000                     description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Labor, Unemployment            Please provide explanations for any amounts that have                   Direct further variance analysis back to the agency referenced in the line
 (2012 - SEPTEMBER)                                              changed by 10% or more and or greater than $500,000                     description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Transportation, Highway        Please provide explanations for any amounts that have                   Direct further variance analysis back to the agency referenced in the line
 Trust Fund (2012 - SEPTEMBER)                                   changed by 10% or more and or greater than $500,000                     description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Department of Transportation, Airport and    Please provide explanations for any amounts that have                   Direct further variance analysis back to the agency referenced in the line
 Airway Trust Fund (2012 - SEPTEMBER)                            changed by 10% or more and or greater than $500,000                     description.
                                                                 between the current fiscal year and prior fiscal year
                                                                 (unaudited).
 Other Notes Info - Total Net Unamortized                        Please provide explanations for any amounts that have                   Variance is spread throughout variance agency activity. Direct further
 Premiums/Discounts for Intragovernmental (2012 -                changed by 10% or more and or greater than $500,000                     variance analysis back to the agency referenced in the line descriptions
 SEPTEMBER)                                                      between the current fiscal year and prior fiscal year                   above.
                                                                 (unaudited).
Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        For further information please see GAO report GAO-13-114 Schedule of Federal Debt.
                    the significant accounting policies pertaining to this note.
                                                                                                                          No significant accounting policy.



                                                                                                            - 49 -
                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                    GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                  Agency Notes:        1

  Status: Complete                      The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                       NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                               Type
Federal Employee and Veteran Benefits Payable                          C         L                         655                  641
                                                                            Variance:                        0                    0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description         2012 - SEPTEMBER            2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1          Pension and accrued
            benefits
 2          Post-retirement health
            and accrued benefits
 3          Veteran's
            compensation and
            burial benefits
 4          Life Insurance and
            accrued benefits
 5          FECA Benefits                                  577                          559                          559                            0
 6          Liability for other                             78                           82                           82                            0
            retirement and
            postemployment
            benefits
            Total                                          655                          641                          641                            0




                                                                                                  - 50 -
                                                                                                                                                                               11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Pension and Accrued Benefits Liability-To be                No Data Flag: YES         Line Attributes: Dollars
                                             completed for the amount entered for pension and                                    Rounding Method: Millions             Decimal: Zero
                                             accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Pension and             Credit
                accrued benefits
                liability- beginning
                of period
 2              Prior-period            Credit
                adjustments(not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of
                a new plan) during
                the period
 4              Normal Costs            Credit
                (SFFAS No. 5, par.
                72)
 5              Interest on pension     Credit
                liability during the
                period
 6              Prior (and past)        Credit
                service cost (from
                the initiation of a
                new plan)
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 9              Other                   Credit
10              Total pension            N/A
                expense (SFFAS
                No. 5, par.72)
11              Less Benefits Paid      Debit



                                                                                                           - 51 -
                                                                                                                                                                               11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                   Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: A               Section Name: Pension and Accrued Benefits Liability-To be               No Data Flag: YES         Line Attributes: Dollars
                                              completed for the amount entered for pension and                                   Rounding Method: Millions             Decimal: Zero
                                              accrued benefits in the "Line Item Notes" tab
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
12              Pension and              N/A
                Accrued Benefits
                Liability-end of
                period




       Section: B               Section Name: Pension Liability Long-Term Significant Assumptions        No Data Flag: YES         Line Attributes: Percent
                                              Used in 2012 and 2011 Valuation
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
                (except OPM)
 2              Rate of inflation        N/A
                (except OPM)
 3              Projected salary         N/A
                increases (except
                OPM)



       Section: C               Section Name: Postretirement Health and Accrued Benefits                 No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Postretirement          Credit
                health and accrued
                benefits liability-
                beginning of period
                (SFFAS No. 5,
                par.88)
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Prior (and past)        Credit
                service costs from
                plan amendments
                (or the initiation of



                                                                                                           - 52 -
                                                                                                                                                                               11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                               Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                  Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: C                Section Name: Postretirement Health and Accrued Benefits                No Data Flag: YES         Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
                a new plan) during
                the period
 4              Normal costs            Credit
 5              Interest on liability   Credit
 6        I     Change in medical       Credit
                cost trend rate
                assumption
                (gains)/losses
 7              Actuarial               Credit
                (gains)/losses (from
                experience)
 8              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 9              Other                   Credit
10              Total                    N/A
                postretirement
                health benefits
                expense
11              Less claims paid        Debit
12              Postretirement           N/A
                health and accrued
                benefits liability-
                end of period
       Section: D                Section Name: Postretirement Health Liability Significant               No Data Flag: YES         Line Attributes: Percent
                                               Assumptions Used in Determining the 2012 and 2011
                                               Valuation
Line Status Line Description             NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Rate of Interest         N/A
 2              Ultimate rate of         N/A
                health care cost
                trend
 3              Single equivalent        N/A
                rate of health care
                cost trend




                                                                                                           - 53 -
                                                                                                                                                                                11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 11            Federal Employee and Veteran Benefits Payable                                                             Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:     1

  Status: Complete                            The accompanying notes are an integral part of these financial statements.        I = Inactive Line


       Section: F             Section Name: Other                                                     No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Non-marketable        Debit
                Treasury securities
                held by Thrift
                Savings Plan (TSP)
                Fund
 2              Total assets of       Debit
                pension (SFFAS
                No.5, par. 68)
 3              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 2
 4              Total assets of       Debit
                other retirement
                benefit plans
                (SFFAS No. 5, par.
                85)
 5              Market value of       Debit
                investments in
                market-based and
                marketable
                securities included
                in line 4 (SFFAS
                no. 5, par.85)
       Section: K             Section Name: Workers' Compensation Benefits (to be completed by        No Data Flag: YES         Line Attributes: Percent
                                            DOL)
Line Status Line Description           NB                     COLA                          CPIM
 4              2015                  N/A
 5        I     2016+                 N/A
 6              2016                  N/A
 7              2017+                 N/A




                                                                                                        - 54 -
                                                                                                                                                                                11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                                 Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    1

  Status: Complete                               The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: N              Section Name: Veteran's Compensation and Burial Benefits (to be           No Data Flag: YES          Line Attributes: Dollars
                                             completed by the Department of Veterans Affairs)                                     Rounding Method: Millions             Decimal: Zero
Line Status Line Description             NB          CY Compensation                      CY Burial                    CY Total     PY Compensation             PY Burial               PY Total
 1              Veterans                Credit
                compensation and
                burial benefits
                liability - beginning
                of period
 2              Prior-period            Credit
                adjustments (not
                restated)
 3              Interest on the         Credit
                liability
 4              Prior (and past)        Credit
                service costs from
                program
                amendments (or
                the initiation of a
                new program)
                during the period
 5              Actuarial               Credit
                (gains)/losses (from
                experience)
 6              Actuarial               Credit
                (gains)/losses (from
                assumption
                changes)
 7              Other                   Credit
 8              Total current year       N/A
                expenses
 9              Less benefits paid      Debit
10              Veterans                 N/A
                compensation and
                burial benefits
                liability - end of
                period




                                                                                                           - 55 -
                                                                                                                                                                              11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11              Federal Employee and Veteran Benefits Payable                                                              Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    1

  Status: Complete                              The accompanying notes are an integral part of these financial statements.         I = Inactive Line


       Section: O                Section Name: Civilian Life Insurance and Accrued Benefits (to be      No Data Flag: YES         Line Attributes: Dollars
                                               completed only by OPM)                                                           Rounding Method: Millions             Decimal: Zero
Line Status Line Description            NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd    Line Item Changes
 1              Actuarial accrued      Credit
                life insurance
                benefits liability-
                beginning of period
 2              Prior-period           Credit
                adjustments (not
                restated)
 3              New entrant            Credit
                expense
 4              Interest on life       Credit
                insurance liability
                during the period
 5              Actuarial              Credit
                (gains)/losses (from
                experience)
                (SFFAS No. 33,
                par. 22)
 6              Actuarial              Credit
                (gains)/losses (from
                assumption
                changes) (SFFAS
                No. 33, par. 22)
 7              Other                  Credit
 8              Total life insurance    N/A
                expense
 9              Less costs paid        Debit
10              Actuarial accrued       N/A
                life insurance
                benefits liability -
                end of period




                                                                                                          - 56 -
                                                                                                                                                                       11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 11             Federal Employee and Veteran Benefits Payable                                                         Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                            Agency Notes:    1

  Status: Complete                          The accompanying notes are an integral part of these financial statements.       I = Inactive Line


       Section: P              Section Name: Civilian Actuarial Life Insurance Liability (to be     No Data Flag: YES       Line Attributes: Percent
                                             completed only by OPM)
Line Status Line Description          NB       2012 - SEPTEMBER                2011 - SEPTEMBER           Previously Rptd   Line Item Changes
 1              Rate of interest      N/A
 2              Rate of increases     N/A
                in salary




                                                                                                      - 57 -
                                                                                                                                                                             11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 11          Federal Employee and Veteran Benefits Payable                                                                    Fiscal Year: 2012    Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                       Agency Notes:    1

 Status: Complete                         The accompanying notes are an integral part of these financial statements.                 I = Inactive Line

Tab: Text Data
Line               Question                                                                                           Answer
1                  Provide the following information as it relates to the future policy benefits for noncancelable    N/A
                   and renewable life insurance (other than whole life) (SFFAS No. 5, par. 110, table 9): a
                   description of each component of the liability for future policy benefits, an explanation of its
                   projected use, and any other potential uses.
2                  For pension plans that differ from the Civil Service Retirement System (CSRS), the Federal         N/A
                   Employee Retirement System (FERS), and the Military Retirement System (MRS), describe
                   how and why the assumptions differ from one of those plans (SFFAS No. 5, par. 67).
3                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining pension liability and
                   the related expense (example of assumptions: actuarial, economic, interest rate, and trend).
4                  Provide a description of the changes in the significant assumptions used in determining            N/A
                   pension liability and the
                   related expense (SFFAS No. 33, par.19).
5                  Provide the long-term projection of the significant economic assumptions used in                   N/A
                   determining the postretirement
                   health benefits liability and the related expense (example of assumptions: actuarial,
                   economic, interest rate, and
                   trend).
6                  Provide a description of the changes in the significant assumptions used in determining the        N/A
                   postretirement health
                   benefits liability and the related expense (SFFAS No. 33, par. 19).
10                 Provide the source(s) of the information entered for Line Item Notes tab lines 4, 5, and 6.        Bureau's trial balance
11                 Provide the source(s) for the components of pension expense entered in Section A.                  N/A
12                 Provide the source(s) for the interest rate for pension expense entered in Section B.              N/A
13                 Provide the source(s) for the components of postretirement expense entered in Section C.           N/A
14                 Provide the source(s) for the interest rate for pension expense entered in Section D.              N/A
17                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly     See Note 31 Part 2.O.
                   the significant
                   accounting policies pertaining to this note.




                                                                                                             - 58 -
                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                  U.S. Department of the Treasury
                                                                                   Financial Management Service
                                                                              Governmentwide Financial Report System
                                                                                      GF006 - FR Notes Report

      Note: 12          Environmental and Disposal Liabilities                                                                    Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                Agency Notes:      N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                         NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                 Type
Environmental and Disposal Liabilities                                    C        L                          0                  0
                                                                              Variance:                       0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER          2011 - SEPTEMBER                Previously Rptd        Line Item Changes
  9
 10
 11
 12
 13
 14          Other Environmental
             and Disposal Liabilities
             Total




                                                                                                     - 59 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 12            Environmental and Disposal Liabilities                                                                          Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Other Related Information                                   No Data Flag: YES            Line Attributes: Dollars
                                                                                                                                    Rounding Method: User-Defined            Decimal: User-Defined
Line Status Line Description          NB       2012 - SEPTEMBER               2011 - SEPTEMBER                   Previously Rptd     Line Item Changes
 1              Unrecognized         Debit
                portion of
                estimated total
                cleanup costs
                associated with
                general property,
                plant, and
                equipment


Tab: Text Data                          No Data Flag: YES
 Line                Question                                                                                              Answer
 1                   List the applicable laws and regulations covering cleanup requirements
 2                   Provide a description of the type of environmental and disposal liabilties identified.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                     the significant accounting policies pertaining to this note.




                                                                                                            - 60 -
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 13          Benefits Due and Payable                                                                                           Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      N/A

  Status: Complete                       The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                           NB    Account     2012 - SEPTEMBER          2011 - SEPTEMBER
                                                                                   Type
Benefits Due and Payable                                                   C         L                             0                     0
                                                                                Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description          2012 - SEPTEMBER              2011 - SEPTEMBER                   Previously Rptd            Line Item Changes
 9          Other Entitlement
            BenefitsDue and
            Payable
            Total

Tab: Text Data                       No Data Flag: YES
 Line             Question                                                                                               Answer
 1                Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                  the significant accounting policies pertaining to this note.




                                                                                                         - 61 -
                                                                                                                                                                                              11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 14            Insurance and Guarantee Program Liabilities                                                                          Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                          Agency Notes:      N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                               NB    Account      2012 - SEPTEMBER         2011 - SEPTEMBER
                                                                                       Type
Insurance and Guarantee Program Liabilities                                     C        L                             0                     0
                                                                                    Variance:                          0                     0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2012 - SEPTEMBER              2011 - SEPTEMBER                   Previously Rptd            Line Item Changes
 7              Other Insurance
                Programs
 8
 9
              Total

Tab: Text Data                           No Data Flag: YES
 Line                 Question                                                                                               Answer
 1                    Provide a description for the type of insurance or guarantee programs identified in the "Line
                      Item Notes" tab.
 2                    Provide the name, description, and the related amounts of the insurance or guarantee
                      programs entered on the line titled, "Other insurance programs" in the "Line Item Notes" tab.
 3                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                      the significant
                      accounting policies pertaining to this note.




                                                                                                              - 62 -
                                                                                                                                                                                                11/16/2012 15:09:14

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                             GF006 - FR Notes Report

      Note: 15              Other Liabilities                                                                                                Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 2000             Department of the Treasury                                                                                       Agency Notes:        1, 6, 18 and 19

  Status: Complete                                The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                                NB    Account     2012 - SEPTEMBER       2011 - SEPTEMBER
                                                                                        Type
Other Liabilities                                                                C        L                    83,804                   83,835
                                                                                     Variance:                      0                        0           Rounding Method: Millions          Decimal: Zero
Line Status Line Description                    2012 - SEPTEMBER           2011 - SEPTEMBER               Previously Rptd            Line Item Changes
 1               Deferred revenue                                   326                          290                           290                            0
 2               Accrued wages and                                  558                          558                           558                            0
                 benefits
 3               Gold certificates                               11,037                      11,037                      11,037                               0
 4               Other debt
 5               Exchange Stabilization                          54,463                      55,150                      55,150                               0
                 Fund
 6               Legal and other
                 contingencies
 7               Grant payments due to
                 State and local
                 governments and
                 others
 8               Other employee and
                 actuarial liabilities
 10              D.C. pension liability                          10,059                       9,671                       9,671                               0
 11              Custodial liabilities
 12              Accrued annual leave                               582                          593                           593                            0
 14              Advances and                                         2                           19                            19                            0
                 prepayments
 15              Farm and other
                 subsidies
 16              Deposit funds                                     1,317                         861                           861                            0
 17              Bonneville Power
                 Administration Non-
                 Federal power projects
                 and capital lease
                 liabilities and disposal
                 liabilities
 18
 19              Ceritificates Issued to                           5,200                      5,200                       5,200                               0
                 FRB - ESF
 20
 21           Other Liabilities                                     260                        456                         456                                0
              Total                                               83,804                     83,835                      83,835                               0


                                                                                                            - 63 -
                                                                                                                                                                                                        11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 15          Other Liabilities                                                                                                     Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                           Agency Notes:       1, 6, 18 and 19

 Status: Complete                          The accompanying notes are an integral part of these financial statements.                     I = Inactive Line



Threshold

Line Description                                                 Question                                                                 Answer
Line Item Notes - Deferred revenue (2012 - SEPTEMBER)            Please provide explanations for any amounts that have                    The variance is not material to the Department's financial statements.
                                                                 changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Advances and prepayments (2012 -               Please provide explanations for any amounts that have                    The variance is not material to the Department¿s financial statements.
SEPTEMBER)                                                       changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Deposit funds (2012 - SEPTEMBER)               Please provide explanations for any amounts that have                    The variance is not material to the Department¿s financial statements.
                                                                 changed by 10% or more and or greater than 500,000 between
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
Line Item Notes - Other Liabilities (2012 - SEPTEMBER)           Please enter a description for any amounts over $50 million.             The variance is not material to the Department¿s financial statements.

Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide more details on the liabilities reported on the "Line Item Notes" tab for each line 1         Line 3 - Note 6, Line 5 - Note 5, Line 10 - Note 18 and Line 19 - Note 5 of the
                    through 21 by including a description of the significant related amounts and providing the            Department's AFR
                    page number of the agency's financial report where the amount is identified.
 2                  Provide a description and related amounts for balances that exceed $50 million on the Line            Associated with liabilities without related budgetary obligations with the majority tied to
                    Item Notes tab, line 21, "Other liabilities," and provide the page number of the agency's             seized cash - Note 19
                    financial report where the amount is identified.
 3                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31 Part 2.M. paragraph 1-3 and Part 2.P.
                    the significant
                    accounting policies pertaining to this note.




                                                                                                            - 64 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1, 23, and OAI

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Collections of Federal Revenue                                                           Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB                       2012                         2011                       2010                 Prior Years
 1              Individual income     Credit                   1,415,326                    699,498                     20,718                       24,448
                and tax
                withholdings
 2              Corporation income    Credit                     197,244                     73,126                          739                     10,353
                taxes
 3              Unemployment          Credit                       3,886                      3,162                           28                            83
                taxes
 4              Excise taxes          Credit                      59,105                     20,244                           42                           163
 5              Estate and gift       Credit                            77                    6,753                          167                      7,453
                taxes
 6              Railroad retirement   Credit                       3,609                      1,163                            0                             1
                taxes
 7              Fines, penalties,     Credit                           351                          0
                interest, and other
                revenue
 8              Custom duties         Credit
 9              Subtotal               N/A                    -1,679,598                  -803,946                     -21,694                     -42,501
10              Amounts collected     Credit                       -386
                for Non-Federal
                entities
11              Total                  N/A                    -1,679,212                  -803,946                     -21,694                     -42,501
       Section: B              Section Name: PP Collections of Federal Revenue                                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB                       2011                         2010                       2009                 Prior Years
 1              Individual income     Credit                   1,357,129                    703,856                     18,980                       22,065
                and tax
                withholdings
 2              Corporation income    Credit                     165,768                     62,650                         1,855                    12,575
                taxes
 3              Unemployment          Credit                       4,806                      1,961                           39                            87
                taxes
 4              Excise taxes          Credit                      53,429                     19,023                           87                           255
 5              Estate and gift       Credit                            23                    6,367                          691                      1,998
                taxes
 6              Railroad retirement   Credit                       3,523                      1,164                            1                             4



                                                                                                         - 65 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 16              Collections and Refunds of Federal Revenue                                                                     Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                     Agency Notes:          1, 23, and OAI

  Status: Complete                             The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: B              Section Name: PP Collections of Federal Revenue                                                        Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB                       2011                         2010                       2009                 Prior Years
                taxes
 7              Fines, penalties,     Credit                           284                          9
                interest, and other
                revenue
 8              Customs duties        Credit
 9              Subtotal               N/A                    -1,584,962                  -795,030                     -21,653                     -36,984
10              Amounts collected     Credit                       -462
                for non-Federal
                entities
11              Total                  N/A                    -1,584,500                  -795,030                     -21,653                     -36,984
       Section: C              Section Name: Federal Tax Refunds Disbursed                                                            Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB                       2012                         2011                       2010                 Prior Years
 1              Individual income     Debit                            514                  293,434                     23,719                       10,008
                and tax
                withholdings
 2              Corporation income    Debit                        5,093                     10,567                         7,356                    20,954
                taxes
 3              Unemployment          Debit                              1                       78                           11                            16
                taxes
 4              Excise taxes          Debit                            433                      839                           79                           136
 5              Estate and gift       Debit                                                     180                           80                           245
                taxes
 6              Railroad retirement   Debit                                                         4                                                        4
                taxes
 7              Fines, penalties,     Debit                              1
                interest, and other
                revenue
 8              Customs Duties        Debit
 9              Total                  N/A                         6,042                    305,102                     31,245                       31,363




                                                                                                         - 66 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                      Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:          1, 23, and OAI

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D             Section Name: PP Fed Tax Refunds Disbursed for the FY                                                  Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                          Decimal: Zero
Line Status Line Description           NB                      2011                         2010                       2009                 Prior Years
 1              Individual income     Debit                       1,140                    302,832                     26,455                       13,957
                and tax
                withholdings
 2              Corporation income    Debit                       6,342                     16,623                         6,451                    38,361
                taxes
 3              Unemployment          Debit                             3                       54                           15                            18
                taxes
 4              Excise taxes          Debit                           799                    1,047                          159                           184
 5              Estate and gift       Debit                                                     11                          401                      1,366
                taxes
 6              Railroad retirement   Debit                                                        2                                                        1
                taxes
 7              Fines, penalties,     Debit
                interest, and other
                revenue
 8              Customs duties        Debit
 9              Total                 N/A                         8,284                    320,569                     33,481                       53,887
       Section: E             Section Name: Miscellaneous                                              No Data Flag: YES             Line Attributes: Dollars
                                                                                                                                   Rounding Method: User-Defined                      Decimal: User-Defined
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd        Line Item Changes
 1              Portion due from      Debit
                identified non-
                compliance
                assessments
 2              Portion due from      Debit
                pre-assessment
                work in process




                                                                                                         - 67 -
                                                                                                                                                                                                 11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 16            Collections and Refunds of Federal Revenue                                                                        Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      1, 23, and OAI

  Status: Complete                           The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: F             Section Name: Tax Gap                                                                                    Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                           Decimal: Zero
Line Status Line Description          NB      CY Low end of range            CY High end of range           PY Low end of range     PY High end of range
 1              Tax gap estimate     Debit                            0                      450,000                           0                     345,000




Tab: Text Data
 Line                Question                                                                                             Answer
 1                   Disclose the basis of accounting related to Collections and Disbursements of Non-Federal             See Note 31 Part 2.S.
                     nonexchange revenue.
 2                   Are all trust fund revenues recorded in accordance with applicable law (SFFAS No. 7, par.            Trust fund revenues are recorded in accordance with applicable law.
                     66). If "no", provide the reasons.
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly       See Note 31 Part 2.S.
                     the significant accounting policies pertaining to this note.




                                                                                                            - 68 -
                                                                                                                                                                     11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Non-Federal Prior-Period Adjustments - Restated        No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: B            Section Name: Federal Prior-Period Adjustments - Restated            No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 69 -
                                                                                                                                                                     11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: C            Section Name: Non-Federal Correction of Errors- Years Preceding      No Data Flag: YES      Line Attributes: Dollars
                                           2011                                                                        Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: D            Section Name: Federal Correction of Errors - Years Preceding 2011    No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 70 -
                                                                                                                                                                     11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

     Note: 17           Prior-Period Adjustments                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                           Agency Notes:    N/A

  Status: Complete                        The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E            Section Name: Non-Federal Immaterial Errors                          No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A
       Section: F            Section Name: Federal Immaterial Errors                              No Data Flag: YES      Line Attributes: Dollars
                                                                                                                       Rounding Method: Millions             Decimal: Zero
Line Status Line Description        NB                Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11              Total               N/A




                                                                                                    - 71 -
                                                                                                                                                                               11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 17          Prior-Period Adjustments                                                                                        Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:    N/A

  Status: Complete                         The accompanying notes are an integral part of these financial statements.               I = Inactive Line


       Section: G            Section Name: Closing Package Adjustments                                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description         NB                  Amount C
 1                                  N/A
 2                                  N/A
 3                                  N/A
 4                                  N/A
 5                                  N/A
 6                                  N/A
 7                                  N/A
 8                                  N/A
 9                                  N/A
10                                  N/A
11          Total                   N/A
Tab: Text Data                        No Data Flag: YES
 Line               Question                                                                                            Answer
 1                  Describe the restatements to the prior year that resulted from correcting errors that occurred
                    in the prior year (data reported in Sections A and B).
 2                  Describe any errors that occurred in years preceding the prior year that adjusted the prior-
                    year beginning net position (data reported in Sections C and D).
 3                  Describe any immaterial errors that occurred in the prior period(s) that were corrected
                    against the current-year operations (data reported in Sections E and F).
 4                  Describe any adjustments of the previous year (2011) reclassification in this year's (2012)
                    Closing Package prior-year (2011) reporting (data reported in Section G), excluding
                    amounts reported as restatements in Section A and B.
 5                  Describe the adjustments to the current-year or prior-year beginning net position that
                    resulted from changes in accounting principles as reported on the Reclassified Statement of
                    Changes in Net Position, line 2.1 and/or line 3.1.
 6                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                    the significant accounting policies pertaining to this note.




                                                                                                           - 72 -
                                                                                                                                                                                       11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                        Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                 Agency Notes:    28

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Other Notes Info.

       Section: A              Section Name: Insurance Contingencies (Reasonably Possible Only)        No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8                                   Credit
 9              Other insurance      Credit
                contingencies
10              Total                  N/A
       Section: B              Section Name: Insurance in force (Sum of Policy Face Value and          No Data Flag: YES          Line Attributes: Dollars
                                             Dividends Paid)                                                                    Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd      Line Item Changes
 3                                   Credit
 4                                   Credit
 5                                   Credit
 6                                   Credit
 7                                   Credit
 8              Other insurance in   Credit
                force
 9              Total                  N/A
       Section: C              Section Name: Civil Litigation, Claims and Assessments                  No Data Flag: YES          Line Attributes: Dollars
                                                                                                                                Rounding Method: User-Defined                 Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated      CY Estimated Range(Low           CY Estimated Range CY Claim amount(Unable         PYAccrued/Estimated PY Estimated Range(Low
                                                           amount                          end)                   (High end)      to determine loss)        amount rued/Estimated                 end)
                                                                                                                                                                        amount
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range        PY Claim amunt (unable
                                                          (High end)                to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible


                                                                                                         - 73 -
                                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 18              Contingencies (SFFAS Nos. 5 and 12)                                                                                  Fiscal Year: 2012                  Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                           Agency Notes:       28

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: D              Section Name: Environmental Litigation, Claims, and Assessments             No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                         Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB        CYAccrued/Estimated             CY Estimated Range            CY Estimated Range      CY Claim amunt(unable             PY Accrued/Estimated           PY Estimated Range
                                                           amount                        (Low end)                    (High end)               to determine)                        amount                      (Low end)
 1              Probable             Credit
 2              Reasonably           Credit
                Possible
Line Status Line Description           NB         PY Estimated Range       PY Claim amount (unable
                                                       (High Range)                  to determine)
 1              Probable              Credit
 2              Reasonably            Credit
                Possible
       Section: E              Section Name: Other Contingencies                                           No Data Flag: YES               Line Attributes: Dollars
                                                                                                                                         Rounding Method: User-Defined                         Decimal: User-Defined
Line Status Line Description           NB               CY Probable         CY Reasonably Possible                     PY Probable     PY Reasonably Possible

 3                                   Credit
 4                                   Credit
 5                                   Credit




Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Describe the risk insurance programs that are in force.                                                 See Note 31 Part 3A
 2                   Provide the nature of the isurance contingencies.                                                       See Note 31 Part 3A
 3                   Provide the nature of the litigation contingencies, including the range of loss for probable            See Note 31 Part 3A
                     liabilities.
 4                   Provide the nature of the litigation contingencies including the range of loss for reasonably           There is no range of losses to report due to there are no litigation contingencies that are
                     possible contingencies.                                                                                 reasonably possible.
 5                   Provide the total claim amount for cases assessed as "unable to determine" if significant.              See Note 31 Part 3A
                     Also, provide a statement on whether this materiality affects the financial statements.
 6                   Describe the other claims that may derive from treaties or international agreements.                    The Department does not have any treaties or international agreements to report for
                                                                                                                             fiscal year 2012.
 7                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly          N/A
                     the significant accounting policies pertaining to this note.




                                                                                                              - 74 -
                                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 19              Commitments                                                                                                   Fiscal Year: 2012                   Period: SEPTEMBER
     Entity: 2000          Department of the Treasury                                                                                    Agency Notes:         1, 19, 22 and 28

  Status: Complete                              The accompanying notes are an integral part of these financial statements.            I = Inactive Line

Tab: Other Notes Info.

       Section: A               Section Name: Capital leases-Asset                                                                   Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                CY Federal               CY Non-Federal                     PY Federal       PY Non-Federal
 1              Building               Debit
 2              Land                   Debit
 3              Equipment              Debit                                                         8                                                     7
 4              Software license       Debit
 5              Other                  Debit
 6              Accumulated            Credit                                                        2                                                     0
                depreciation/amorti
                zation
 7              Net assets under        N/A                                                          6                                                     7
                capital leases
Threshold
 Line Description                                                   Question                                                          Answer
 Other Notes Info - Equipment (CY Non-Federal)                      Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
                                                                    changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Net assets under capital leases (CY             Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 Non-Federal)                                                       changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
 Other Notes Info - Accumulated depreciation/amortization           Please provide explanations for any amounts that have             This variance is not material to the Department's financial statements.
 (CY Non-Federal)                                                   changed by 10 percent or more between the
                                                                    current fiscal year and prior fiscal year. (unaudited)
       Section: B               Section Name: Capital leases - Liability                                                             Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                           Decimal: Zero
Line Status Line Description            NB                 CY Federal              CY Non-Federal                     PY Federal       PY Non-Federal
 1              Future minimum         Credit                                                        0                                                     1
                lease programs
 2              Imputed interest       Debit
 3              Executory costs        Debit
                including any profit
 4              Total capital lease     N/A                                                          0                                                    -1
                liability




                                                                                                             - 75 -
                                                                                                                                                                                                11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                   Fiscal Year: 2012                    Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:          1, 19, 22 and 28

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: C             Section Name: Commitments: Operating leases and undelivered                                          Line Attributes: Dollars
                                            orders                                                                               Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB               CY Federal               CY Non-Federal                     PY Federal        PY Non-Federal
 1              Operating leases   Credit                          310                        690                         247                           714
 2            Undelivered orders Credit                         3,393                     186,859                        1,739                  207,129
Threshold
 Line Description                                               Question                                                            Answer
 Other Notes Info - Operating leases (CY Federal)               Please provide explanations for any amounts that have               Variance presented is not material to the Department's consolidated
                                                                changed by 10% or more and or greater than $500,000                 financial statements.
                                                                between the current fiscal year and prior fiscal year.
                                                                (unaudited)
 Other Notes Info - Undelivered orders (CY Federal)             Please provide explanations for any amounts that have               The Office of Financial Stability reclassified the negative subsidy portion of
                                                                changed by 10% or more and or greater than $500,000                 the General Fund - Unpaid Direct Loan Obligations from Non-Federal to
                                                                between the current fiscal year and prior fiscal year.              Federal in FY 2012. In addition, budget object classes and vendor
                                                                (unaudited)                                                         identification values were used to split the Unpaid Obligation balance
                                                                                                                                    between the face or loan value and negative subsidy portion to crosswalk
                                                                                                                                    and prepare an accurate Statement of Spending in FY 2012. In prior years,
                                                                                                                                    the entire unpaid obligation balance, which included the face or loan value
                                                                                                                                    and the negative subsidy portion, was classified as Non-Federal.
 Other Notes Info - Undelivered orders (CY Non-Federal)         Please provide explanations for any amounts that have               The variance is not material to the Department's financial statements.
                                                                changed by 10% or more and or greater than $500,000
                                                                between the current fiscal year and prior fiscal year.
                                                                (unaudited)
       Section: D             Section Name: Other Commitments                                                                      Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                            Decimal: Zero
Line Status Line Description         NB               CY Federal               CY Non-Federal                     PY Federal        PY Non-Federal
 1              Callable capital  Credit                                                   82,316                                                 72,038
                subscriptions for
                multilateral
                development banks
 8              Senior GSE        Credit                                                  273,248
                Preferred Stock
                Purchase
                Agreement
 9                                Credit
10                                 Credit
11                                 Credit
12                                 Credit
13                                 Credit
14              Total                N/A                                                 -355,564                                               -72,038


                                                                                                         - 76 -
                                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 19            Commitments                                                                                                        Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                         Agency Notes:      1, 19, 22 and 28

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                   I = Inactive Line


       Section: D             Section Name: Other Commitments                                                                           Line Attributes: Dollars
                                                                                                                                      Rounding Method: Millions                          Decimal: Zero
Threshold
 Line Description                                                 Question                                                                Answer
 Other Notes Info - Callable capital subscriptions for            Please provide explanations for any amounts that have                   The increase was a result of new FY 2012 legislation which provided
 multilateral development banks (CY Non-Federal)                  changed by 10% or more and or greater than $500,000                     additional subscription authority.
                                                                  between the current fiscal year and prior fiscal year.
                                                                  (unaudited)




Tab: Text Data
 Line                Question                                                                                              Answer
 1                   Describe the lessee's leasing arrangements including the basis on which contingent rental             The Department's leases are operating leases with GSA for office space which can be
                     payments are determined, the existence and terms of renewal or purchase options,                      cancelled upon notice.
                     escalation clauses and restrictions imposed by lease agreements.
 2                   Explain any amounts listed in Section D in detail and reference the note, and/or location, in         See Note 31.Part 3.B
                     the agency¿s Performance and Accountability Report (PAR).
 3                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31.Part 2.L
                     the significant accounting policies pertaining to this note.




                                                                                                             - 77 -
                                                                                                                                                                                             11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

      Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                    Fiscal Year: 2012                Period: SEPTEMBER
   Entity: 2000            Department of the Treasury                                                                                  Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2012 - SEPTEMBER      2011 - SEPTEMBER
                                                                                    Type
TARP Direct Loans and Equity Investments                                     D        A                   40,231                 80,104
                                                                                 Variance:                     0                      0          Rounding Method: Millions              Decimal: Zero
Line Status Line Description                 CY Direct Loans and              CY Subsidy Cost CY Net Dir Loans & Equity          PY Direct Loans and               PY Subsidy Cost PY Net Dir Loans & Equity
                                          Equity Investments                   Allowance                      Invs            Equity Investments                    Allowance                      Invs
 1               Capital Purchase                           8,664                        2,930                    5,734                        17,299                         4,857                   12,442
                 Program
 2               American International                       6,727                       1,658                     5,069                       51,087                       20,717                       30,370
                 Group, Inc.,
                 Investment Program
 3               Targeted Investment
                 Program
 4               Automotive Industry                         37,252                      19,706                    17,546                       37,278                       19,440                       17,838
                 Financing Program
 5               Consumer and
                 Business Lending
                 Initiative
 6               Public-private                               9,763                      -1,015                    10,778                       15,943                       -2,434                       18,377
                 investment Program
 7               Asset Guarantee
                 Program
  8
  9
 10
 11          All other TARP                                     667                        -437                     1,104                          798                        -279                         1,077
             programs
             Total                                           63,073                      22,842                     40,231                     122,405                       42,301                       80,104
Threshold

 Line Description                                                Question                                                           Answer
 Line Item Notes - Capital Purchase Program (CY Direct           Please provide explanations for any amounts that have              The variance is primary due to repayments and sales of investments of $8.2
 Loans and Equity Investments)                                   changed by 10% or more and or greater than 500,000 between         billion.
                                                                 the current fiscal year and prior fiscal year. (Unaudited)
 Line Item Notes - Capital Purchase Program (CY Subsidy          Please provide explanations for any amounts that have              The $2.9 billion downward reestimate for CPP for the year ended
 Cost Allowance)                                                 changed by 10% or more and or greater than 500,000 between         September 30, 2012 was the result of improved market values of the
                                                                 the current fiscal year and prior fiscal year. (Unaudited)         outstanding investments and the effect of receiving $8.2 billion in
                                                                                                                                    repayments, which reduced the remaining investment by about one-half, in
                                                                                                                                    fiscal year 2012.




                                                                                                       - 78 -
                                                                                                                                                                                        11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                               Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000         Department of the Treasury                                                                             Agency Notes:      1 and 7

 Status: Complete                         The accompanying notes are an integral part of these financial statements.       I = Inactive Line



Threshold

Line Description                                              Question                                                      Answer
Line Item Notes - American International Group, Inc.,         Please provide explanations for any amounts that have        During fiscal year 2012, the Department sold 806 million shares of AIG
Investment Program (CY Direct Loans and Equity                changed by 10% or more and or greater than 500,000 between   common stock for $25.2 billion. Also, in fiscal year 2012, the Department
Investments)                                                  the current fiscal year and prior fiscal year. (Unaudited)   received $9.6 billion in distributions from the AIG SPVs, which fully repaid
                                                                                                                           the remaining investment balance of $9.3 billion.
Line Item Notes - American International Group, Inc.,         Please provide explanations for any amounts that have        The $9.2 billion downward reestimate for the year ended September 30,
Investment Program (CY Subsidy Cost Allowance)                changed by 10% or more and or greater than 500,000 between   2012 was due primarily to sales of 806 million shares of common stock at
                                                              the current fiscal year and prior fiscal year. (Unaudited)   prices higher than the September 30, 2011 price of $21.95 per share and
                                                                                                                           the effect of valuing the remaining 155 million shares at the September 30,
                                                                                                                           2012 price of $32.79 per share.




                                                                                                                           155 million shares at the September 30, 2012 price of $32.79 per share.

Line Item Notes - Public-private investment Program (CY       Please provide explanations for any amounts that have        During fiscal year 2012, the Department disbursed $245 million as an equity
Direct Loans and Equity Investments)                          changed by 10% or more and or greater than 500,000 between   investment and $803 million as loans to PPIFs. In addition, the Department
                                                              the current fiscal year and prior fiscal year. (Unaudited)   received $5.7 billion in loan principal and interest repayments from the
                                                                                                                           PPIFs in fiscal years 2012. Also during fiscal year 2012, the Department
                                                                                                                           received $3.2 billion in equity distributions, comprised of $1.3 billion of
                                                                                                                           investment income, $223 million of proceeds in excess of cost, and a $1.7
                                                                                                                           billion reduction of the gross investment outstanding.
Line Item Notes - All other TARP programs (CY Direct Loans    Please provide explanations for any amounts that have        In the SBA 7(a) Securities Purchase Program now reported in "All other
and Equity Investments)                                       changed by 10% or more and or greater than 500,000 between   TARP programs" compare to fiscal year 2011, where it was reported in
                                                              the current fiscal year and prior fiscal year. (Unaudited)   "Consumer and Business Lending Initiative," during fiscal year 2012, the
                                                                                                                           Department received $127 million in sales proceeds, and in principal and
                                                                                                                           interest payments on the securities.




                                                                                                    - 79 -
                                                                                                                                                                                           11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                        Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                      Agency Notes:          1 and 7

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A                Section Name: Subsidy Expense/(Income)                                                              Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd         Line Item Changes
 1              Capital Purchase      Debit                      -1,924                     -1,826                     -1,826                               0
                Program
 2              American              Debit                      -9,166                      1,553                         1,553                            0
                International
                Group, Inc.,
                Investment
                Program
 3              Targeted              Debit                                                                                -192                           192
                Investment
                Program
 4              Automotive            Debit                         230                      9,741                         9,741                            0
                Industry Financing
                Program
 5              Consumer and          Debit                                                                                -209                           209
                Business Lending
                Initiative
 6              Public-private        Debit                         209                     -1,859                     -1,859                               0
                investment
                Program
 7              Asset Guarantee       Debit
                Program
 8              Asset Guarantee       Debit                                                     30                           30                             0
                Program
 9                                    Debit
10                                    Debit
11              All other TARP        Debit                       -127                       -401                                                    -401
                programs
12              Total                  N/A                      -10,778                      7,238                         7,238                            0




                                                                                                        - 80 -
                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                     Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                                  Agency Notes:    1 and 7

  Status: Complete                           The accompanying notes are an integral part of these financial statements.            I = Inactive Line


       Section: B              Section Name: Interests for TARP Programs                                                          Line Attributes: Percent


Line Status Line Description           NB      2012 - SEPTEMBER             2011 - SEPTEMBER               Previously Rptd
 1        I     Senior preferred       N/A                                                                            5.0000
                stock stated
                dividend rate- CPP
 2        I     Increasing senior      N/A                                                                            9.0000
                preferred stock
                stated dividend rate
                through 5 years -
                CPP
 3        I     Subordinate            N/A                                                                            7.7000
                debentures interest
                rate of 30 years
                (first 5 years) -
                CPP
 4        I      Subordinate           N/A                                                                           13.8000
                debentures interest
                rate after 30 years
                (after 5 years) -
                CPP
 5        I     Dividend rate          N/A
                compounded
                annually - AIGs
                Series D
 6        I     Rate of Series E       N/A
                stock - AIG
 7        I     Dividend rate          N/A
                funded - TIP
                program
       Section: C              Section Name: Repayments, Dividends, Interest Collections, and                                     Line Attributes: Dollars
                                             Payments                                                                           Rounding Method: Millions                 Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER          2011 - SEPTEMBER D              Previously Rptd D
                                                               D
 1              Repayments -           N/A                       8,200                     30,200                     30,200
                CPP
 2              Common stock           N/A                         191                          246                       246
                dividend payments
                - AIG
 3              Payments -             N/A                       3,100                      1,900
                Housing




                                                                                                       - 81 -
                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                      Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                    Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: D             Section Name: Investments                                                                            Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB       2012 - SEPTEMBER          2011 - SEPTEMBER D              Previously Rptd D
                                                              D
 1        I     Amount of             N/A
                investment- AIGs
                Series D perpetual
                cumulative
                preferred stock
 2        I     Amount of AIGs        N/A
                exchange of Series
                D to Series E
 3        I     Agreed amount         N/A
                made available for
                capital facility of
                AIGs Series F
 4        I     Amount funded to      N/A                                                                            27,800
                AIG for additional
                capital facility
 5        I     Amount invested -     N/A
                TIP program for
                preferred stock
 6        I     Amount for            N/A
                Treasury, FDIC
                and FRBNY asset
                pool for AGP
 7        I     Amount for            N/A
                Treasury's
                guarantee limit
                under AGP
 8        I     Amount of             N/A                                                                            45,600
                commitment under
                the Housing
                Program
 9        I     Amount of             N/A                                                                                1,900
                disbursement
                under the Housing
                Program




                                                                                                      - 82 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: E               Section Name: Components of TARP Net Direct Loans and Equity        No Data Flag: YES           Line Attributes: Dollars
                                              Investments - Current Year                                                      Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB          Capital Purchase          AIG, Inc., Investment       Targeted Investment     Automotive Industry     Consumer and Business             Public-Private
                                                       Program D                      Program D                 Program D     Financing Program D          Lending Initiative D   Investment Program D
 1        I     Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2        I     Disbursements         N/A
                (loans
                made/securities
                purchased)
 3        I     Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4        I                           N/A
 5        I                           N/A
 6        I                           N/A
 7        I                           N/A
 8        I     Interest accrued on   N/A
                loans
 9        I     Allowance for loss    N/A
10        I     Allowance for         N/A
                subsidy
11        I                           N/A
12        I                           N/A
13        I                           N/A
14        I                           N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 83 -
                                                                                                                                                                           11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                            Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: E              Section Name: Components of TARP Net Direct Loans and Equity         No Data Flag: YES      Line Attributes: Dollars
                                             Investments - Current Year                                                  Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB              All other TARP                    Total D
                                                       programs D
 1        I     Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2        I     Disbursements         N/A
                (loans
                made/securities
                purchased)
 3        I     Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4        I                           N/A
 5        I                           N/A
 6        I                           N/A
 7        I                           N/A
 8        I     Interest accrued on   N/A
                loans
 9        I     Allowance for loss    N/A
10        I     Allowance for         N/A
                subsidy
11        I                           N/A
12        I                           N/A
13        I                           N/A
14        I                           N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 84 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                   Fiscal Year: 2012             Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:     1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line


       Section: F               Section Name: Components of TARP Net Direct Loans and Equity        No Data Flag: YES           Line Attributes: Dollars
                                              Investments - Prior Year                                                        Rounding Method: Millions                      Decimal: Zero
Line Status Line Description          NB          Capital Purchase      AIG, Investment Program         Targeted Investment     Automotive Industry     Consumer and Business             Public-Private
                                                       Program D                              D                 Program D     Financing Program D          Lending Initiative D   Investment Program D
 1        I     Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2        I     Disbursements         N/A
                (loans
                made/securities
                purchased)
 3        I     Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4        I                           N/A
 5        I                           N/A
 6        I                           N/A
 7        I                           N/A
 8        I     Interest accrued on   N/A
                loans
 9        I     Allowance for loss    N/A
10        I     Allowance for         N/A
                subsidy
11        I                           N/A
12        I                           N/A
13        I                           N/A
14        I                           N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 85 -
                                                                                                                                                                           11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 20            Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                              Fiscal Year: 2012          Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                            Agency Notes:    1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.      I = Inactive Line


       Section: F              Section Name: Components of TARP Net Direct Loans and Equity         No Data Flag: YES      Line Attributes: Dollars
                                             Investments - Prior Year                                                    Rounding Method: Millions                 Decimal: Zero
Line Status Line Description          NB              All other TARP                    Total D
                                                       programs D
 1        I     Loans and equity      N/A
                investments
                receivable, net -
                beginning of the
                year
 2        I     Disbursements         N/A
                (loans
                made/securities
                purchased)
 3        I     Collections (loan     N/A
                principal and
                interest
                repayments,
                penalties and fines
                collected,
                sale/maturity of
                securities)
 4        I                           N/A
 5        I                           N/A
 6        I                           N/A
 7        I                           N/A
 8        I     Interest accrued on   N/A
                loans
 9        I     Allowance for loss    N/A
10        I     Allowance for         N/A
                subsidy
11        I                           N/A
12        I                           N/A
13        I                           N/A
14        I                           N/A
15              Loans and equity      N/A
                investments
                receivable, net -
                end of the year




                                                                                                      - 86 -
                                                                                                                                                                          11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 20             Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                            Fiscal Year: 2012           Period: SEPTEMBER
     Entity: 2000         Department of the Treasury                                                                          Agency Notes:     1 and 7

  Status: Complete                            The accompanying notes are an integral part of these financial statements.   I = Inactive Line


       Section: G               Section Name: Interests for TARP Programs                                                  Line Attributes: Percent


Line Status Line Description            NB         % of interest rates
                                                       TARP stock
 1               Senior preferred       N/A                      5.0000
                stock stated
                dividend rate - first
                5 years - CPP
 2              Increasing senior       N/A                      9.0000
                preferred stock
                stated dividend rate
                subsequent years -
                CPP
 3              30 years of             N/A                      7.7000
                subordinate
                debentures interest
                rate of 30 years
                (first 5 years) -
                CPP
 4              30 years of             N/A                    13.8000
                subordinate
                debentures interest
                rate for the
                remaining years -
                CPP
 5              Dividend rate           N/A                    10.0000
                compounded
                annually - AIGs
                Series D
 6              Rate of Series E        N/A                    10.0000
                stock - AIG




                                                                                                        - 87 -
                                                                                                                                                                                              11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 20          Troubled Asset Relief Program (TARP) Direct Loans and Equity Investments                                        Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      1 and 7

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: H            Section Name: Investments                                                                            Line Attributes: Dollars
                                                                                                                                Rounding Method: Millions                           Decimal: Zero
Line Status Line Description         NB          Amounts for TARP
                                                       Program
 1           Amount of              Debit                       40,000
            investment AIGs
            Series
 2          Amount of AIGs          Debit                       41,600
            exchange of Series
            D to Series E
 3          Agreed amount           Debit                       29,800
            made available for
            capital facility
 4          Amount funded to        Debit                       27,800
            AIG for additional
            capital facility
 5           Amount invested        Debit                       20,000
            TIP program for
            preferred stock
 6          Amount for              Debit                      301,000
            Treasury, FDIC
            and FRBNY asset
            pool for AGP
 7          Amount for              Debit                        5,000
            Treasury's
            guarantee limit
            under AGP
 8          Amount for the          Debit                       45,600
            commitment for the
            Housing Program
Tab: Text Data
 Line               Question                                                                                         Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly   There was a change in presentation in fiscal year 2012 to the programs displayed in the
                    the significant accounting policies pertaining to this note.                                     tables. In fiscal year 2012, amounts from Targeted Investment Program (TIP) and three
                                                                                                                     programs under the Consumer and Business Lending Initiative (CBLI) which included
                                                                                                                     Term Asset-Backed Securities Loan Facility (TALF), Small Business Administration
                                                                                                                     (SBA) 7(a) Security Purchase Program, and Community Development Capital Initiative
                                                                                                                     (CDCI), were combined into "All other TARP programs."

                                                                                                                     See Note 31.Part 2.H
                                                                                                                     See Note 31.Part 3.G




                                                                                                            - 88 -
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

      Section: A               Section Name: Assets - Current Year                                                                 Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with           Inv in U. S. Treas.    Interest Receivable D Other Federal assets (with        Other Federal assets
                                                monetary assets D                  Treasury D       Sec.(net of prem. & disc)                               earmarked funds) D          (with non-earmarked
                                                                                                                           D                                                                       funds) D
13              Exchange              N/A                      65,764                                                22,680                              90
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          18                      1,842                         7,056                           39                                               65
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      65,782                      1,842                     29,736                             129                                               65

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      15,326                    103,860
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,435                     10,455
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      16,761                    114,315




                                                                                                       - 89 -
                                                                                                                                                                                          11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: B               Section Name: Assets - Prior Year                                                                   Line Attributes: Dollars
                                                                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB           Cash and other             Fund balance with       Inv. in U.S. Treas. Sec.   Interest Receivable D Other Federal assets (with        Other Federal assets
                                                monetary assets D                  Treasury D       (net of prem. & disc.) D                                earmarked funds) D          (with non-earmarked
                                                                                                                                                                                                   funds) D
13              Exchange              N/A                      66,678                                                 22,721                            105
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                          21                      1,623                         6,787                           35                                               12
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      66,699                      1,623                      29,508                            140                                               12

Line Status Line Description          NB         Other non-Federal                 Total assets
                                                         assets D
13              Exchange              N/A                      15,671                    105,175
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       1,523                     10,001
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                      17,194                    115,176




                                                                                                      - 90 -
                                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                  Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                       Agency Notes:       1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


      Section: C               Section Name: Liabilities and Net Position - Current Year                                              Line Attributes: Dollars
                                                                                                                                    Rounding Method: Millions                                Decimal: Zero
Line Status Line Description          NB           Benefits due and        Other Federal liabilities Other Fed. liabilities (with      Other non-Federal                 Total liabilities        Ending net position C
                                                        payable C          (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                   C
13              Exchange              N/A                                                                                                            59,670                       -59,670                        44,189
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                        9                          423                      10,990                       -11,422                         -966
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                       -9                         -423                    -70,660                        -71,092                      -43,223

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -103,859
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -10,456
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -114,315




                                                                                                          - 91 -
                                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                   Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                        Agency Notes:       1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line


      Section: D               Section Name: Liabilities and Net Position - Prior Year                                                 Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                                Decimal: Zero
Line Status Line Description          NB           Benefits due and         Other Federal liabilities Other Fed. liabilities (with      Other non-Federal                 Total liabilities        Ending net position C
                                                        payable C           (with earmarked funds) non-earmarked funds) C                     liabilities C
                                                                                                    C
13              Exchange              N/A                                                                                                             60,385                       -60,385                        44,790
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                         4                          414                      10,562                       -10,980                         -979
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                        -4                         -414                    -70,947                        -71,365                      -43,811

Line Status Line Description          NB     Total liabilities and net
                                                            position
13              Exchange              N/A                     -105,175
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -10,001
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -115,176




                                                                                                           - 92 -
                                                                                                                                                                                             11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                     Agency Notes:          1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line


      Section: E               Section Name: Revenue, Financing, Expenses, and Other - Current                                      Line Attributes: Dollars
                                             Year                                                                                 Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment    Investment revenue from       Individual income taxes Unemployment and excise        Other taxes and receipts
                                             beginning of period C                            C      Treasury Securities C       and payroll tax withhold               taxes C                               C
                                                                                                                                                       C
13              Exchange              N/A                      44,791                                                      11
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                       -980                                                      119                                                                             1,275
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -43,811                                                    -130                                                                            -1,275

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public           Program net cost -         Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D        Intragovernmental D                              D                   period
13              Exchange              N/A                                                                                 612                                                                           -44,190
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                    -36                          917                            428                                                967
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                     36                         1,529                           428                                            -43,223




                                                                                                      - 93 -
                                                                                                                                                                                            11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                               Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000           Department of the Treasury                                                                                    Agency Notes:          1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.              I = Inactive Line


      Section: F               Section Name: Revenue, Financing, Expenses, and Other - Prior                                       Line Attributes: Dollars
                                             Year                                                                                Rounding Method: Millions                        Decimal: Zero
Line Status Line Description          NB              Net position,     Prior-period adjustment      Investment revenue from    Individual income taxes Unemployment and excise        Other taxes and receipts
                                             beginning of period C                            C        Treasury Securities C    and payroll tax withhold               taxes C                               C
                                                                                                                                                      C
13              Exchange              N/A                      43,745                                                      14
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                      -2,119                                                     141                                                                            1,517
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                     -41,626                                                    -155                                                                           -1,517

Line Status Line Description          NB        Royalties and other           All other financing Program net cost - public          Program net cost -         Non-program expenses       Net position, end of
                                                special revenue C                    sources C                            D       Intragovernmental D                              D                   period
13              Exchange              N/A                                                                            -1,032                                                                            -44,791
                Stabilization Fund
26                                    N/A
27                                    N/A
28                                    N/A
29                                    N/A
30                                    N/A
31              All other earmarked   N/A                                                      177                        267                           429                                                980
                funds
32              Intra-agency          N/A
                earmarked funds
                elimination
                amounts
33              Total                 N/A                                                   -177                         -765                           429                                            -43,811




                                                                                                        - 94 -
                                                                                                                                                                                              11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 22            Earmarked Funds                                                                                                       Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                            Agency Notes:       1 and 24

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                      I = Inactive Line


       Section: G             Section Name: Number of Agency Earmarked Funds                                                               Line Attributes: Units


Line Status Line Description          NB       2012 - SEPTEMBER                2011 - SEPTEMBER                    Previously Rptd         Line Item Changes
 1              Total number of       N/A                       29.0000                        29.0000                     29.0000                         .0000
                earmarked funds




Tab: Text Data
 Line                Question                                                                                                Answer
 1                   Provide a general description of the individual earmarked funds reported in the Other Notes
                     Info tab (SFFAS No. 27, par. 33). Also describe how the entity accounts for and reports the             See Note 31 Part 3.C.
                     fund (SFFAS No. 27, par. 23.1).
 2                   State the legal authority for the administrative entity of each fund to use the revenues and
                     other financing sources based on SFFAS No. 27, par. 23.1                                                See Note 31 Part 3.C.
 3                   Explain any change in legislation during or subsequent to the reporting period and before the           N/A
                     issuance of the financial statements that significantly change the purpose of the fund or that
                     redirect a material portion of the accumulated balance (SFFAS No. 27, par. 23.3).
 4                   Provide the sources of revenue and other financing for amounts reported in columns 3                    See 2 above
                     through 8 of Sections E and F in the Other Notes Info tab (SFFAS No. 27, par. 23.2).
 5                   Provide any other relevant information pertaining to this note, including explanation for prior-        See Note 31 Part 2.Y.
                     period adjustments, if any. At a minimum, describe briefly the significant accounting policies
                     pertaining to this note.




                                                                                                              - 95 -
                                                                                                                                                                            11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

    Note: 23           Statement of Social Insurance (a Principal Financial Statement)                                               Fiscal Year: 2012      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                    Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line

Tab: Text Data                         No Data Flag: YES
Line               Question                                                                                              Answer
7                  Provide relevant information (per SFFAS No. 17, par. 26) about any policy changes enacted
                   after the valuation date, but prior to the end of the fiscal year, that could materially affect the
                   basic statement.
8                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                   the significant accounting policies pertaining to this note.




                                                                                                               - 96 -
                                                                                                                                                             11/16/2012 15:09:14

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                 GF006 - FR Notes Report

 Note: 24          Social Insurance                                                                                   Fiscal Year: 2012      Period: SEPTEMBER
Entity: 2000       Department of the Treasury                                                                         Agency Notes:    N/A

Status: Complete                      The accompanying notes are an integral part of these financial statements.   I = Inactive Line




                                                                                                - 97 -
                                                                                                                                                                             11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 25            Stewardship Land                                                                                             Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:    N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.             I = Inactive Line


       Section: A             Section Name: Stewardship Land (SFFAS No. 29, par. 40d)                   No Data Flag: YES         Line Attributes: Units


Line Status Line Description         NB       2012 - SEPTEMBER               2011 - SEPTEMBER                  Previously Rptd    Line Item Changes
 1              Public Land          N/A
 2              National Forest      N/A
                System
 3              National Wildlife    N/A
                Refuge System
 4              National Park        N/A
                System
 5              Withdrawn public     N/A
                land
 6              Mission Land         N/A
 7              Water, power,and     N/A
                recreation
 8              Geographic           N/A
                management areas
 9              National fish        N/A
                hatcheries
10              Conservation areas   N/A
11          National marine          N/A
            monuments
12          All other                N/A
Tab: Text Data                         No Data Flag: YES
 Line                Question                                                                                            Answer
 1                   Describe the predominant uses of the stewardship land (SFFAS 29, par. 40c).
 2                   Provide the condition of the stewardship land (SFFAS 29, par. 41).
 3                   Provide a brief statement explainng how the stewardship land relates to the mission of the
                     agency (SFFAS No. 29, par. 40a).
 4                   Provide a brief description of the agency's stewardship policies for stewardsip land (SFFAS
                     No. 29, par. 40b).
 5                   Provide any other information relevant information pertaining to this note. At a minimum,
                     describe briefly the significant accounting policies pertaining to this note.




                                                                                                           - 98 -
                                                                                                                                                                                            11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 26               Heritage Assets                                                                                              Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000           Department of the Treasury                                                                                   Agency Notes:      1 and 14

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line


       Section: A               Section Name: Collection Type Heritage Assets (SFFAS No. 29, par.                                    Line Attributes: Units
                                              25d)
Line Status Line Description            NB        Physical units at the      Physical units at the end
                                                 end of the fiscal year       of the fiscal year 2011
                                                                2012
 1              Gold Certificates       N/A                      10.0000                       10.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A


       Section: B               Section Name: Non-Collection Type Heritage Assets (SFFAS No.                                         Line Attributes: Units
                                              29, par. 25d)
Line Status Line Description            NB        Physical units at the      Physical units at the end
                                                 end of the fiscal year       of the fiscal year 2011
                                                                2012
 1              Buildings               N/A                       5.0000                        5.0000
 2                                      N/A
 3                                      N/A
 4                                      N/A
 5                                      N/A

Tab: Text Data
 Line                 Question                                                                                         Answer
 1                    Provide a brief statement explaining how heritage assets relate to the mission of the agency
                      (SFFAS No. 29, par. 25a).                                                                        The buildings are multi-use assets and house administrative staff.
 2                    Provide a brief description of the agency's stewardship policies for each major category of
                      the heritage assets (SFFAS No. 29, par. 25b).                                                    N/A
 3                    Provide a brief description of the condition of each category of the heritage assets (SFFAS
                      29, par. 26).                                                                                    Good
 4                    Provide any other relevant information pertaining to this note. At a minimum, describe briefly   See Note 31.Part 3.D
                      the significant accounting policies pertaining to this note.




                                                                                                              - 99 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Current Year                                                                              Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                  0                     509
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              17                        328
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                          0                         509
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                          2                         343
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 6              The Department of    N/A                                  0                     451
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                              77                        336
 9                                   N/A
10                                   N/A



                                                                                                          - 100 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 27           Fiduciary Activities                                                                                                Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                          Agency Notes:        1 and 27

  Status: Complete                             The accompanying notes are an integral part of these financial statements.                I = Inactive Line


       Section: B            Section Name: Schedule of Fiduciary Net Assets - Deposit Funds -                                          Line Attributes: Dollars
                                           Prior Year                                                                                Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
11                                   N/A
12                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 6              The Department of    N/A                                                                                    451
                the Treasury,
                Unclaimed Monies
                Deposit Funds
 8              All Other Funds      N/A                                                                                    413
 9                                   N/A
10                                   N/A
11                                   N/A
12                                   N/A
       Section: C            Section Name: Schedule of Fiduciary Net Assets - All Other Agency         No Data Flag: YES               Line Attributes: Dollars
                                           Funds- Current Year                                                                       Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL         Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                 net of unam. prems &         account 1010 only) D       Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                              discs. D                                                                                      D
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A

Line Status Line Description          NB        Liability due & payable          Other liabilities C   Total fiduciary net assets
                                                    to beneficiaries C
 3                                   N/A
 4                                   N/A
 5                                   N/A
 6                                   N/A
 7                                   N/A




                                                                                                          - 101 -
                                                                                                                                                                                                 11/16/2012 15:09:14

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                            GF006 - FR Notes Report

     Note: 27            Fiduciary Activities                                                                                                 Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                           Agency Notes:        1 and 27

  Status: Complete                              The accompanying notes are an integral part of these financial statements.                 I = Inactive Line


       Section: D             Section Name: Schedule of Fiduciary Net Assets - All Other Agency          No Data Flag: YES               Line Attributes: Dollars
                                            Funds - Prior Year                                                                         Rounding Method: Millions                         Decimal: Zero
Line Status Line Description           NB        Inv. in Fed. debt secs-          Fid. FBWT (USSGL          Interest Receivable on    Invest. in non-Fed. debt      Cash & cash equivalents         Other assets D
                                                  net of unam. prems &         account 1010 only) D        Fed. debt securities D      secs.(& relaed int. rec.)                          D
                                                               discs. D                                                                                       D
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A

Line Status Line Description           NB        Liability due & payable           Other liabilities C   Total fiduciary net assets
                                                     to beneficiaries C
 3                                    N/A
 4                                    N/A
 5                                    N/A
 6                                    N/A
 7                                    N/A
       Section: E             Section Name: Number of Agency Fiduciary Activities                                                         Line Attributes: Units


Line Status Line Description           NB           CY Total number of             PY Total number of
                                                    fiduciary funds- all    fiduciary funds- all funds
                                                                funds
 1              Number of             N/A                         24.0000                    24.0000
                Treasury Fiduciary
                Activities
 2                                    N/A
 3                                    N/A
 4                                    N/A




                                                                                                            - 102 -
                                                                                                                                                                                            11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 27          Fiduciary Activities                                                                                               Fiscal Year: 2012                 Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                         Agency Notes:          1 and 27

 Status: Complete                             The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Text Data
Line               Question                                                                                             Answer
1                  Describe the fiduciary relationship, for example, the applicable legal authority, the objectives     See Note 31 Part 3.E
                   of the fiduciary activity, and a general description of the beneficial owners or class of owners
                   of each fiduciary fund (SFFAS No. 31, par. 18(a)).
2                  Provide information on any significant changes in fiduciary net assets from the prior period         N/A
                   (SFFAS No. 31, par. 18(c)).
3                  Provide the TAS for all funds with fiduciary activities.                                             See 1
4                  For any cash included in the Schedules of Fiduciary Net Assets, indicate if the cash is              N/A
                   represented by balances on deposit with either the U.S. Treasury or with a commercial
                   banking institution (SSFAS No. 31, par. 12).
5                  Provide a description of any cash equivalents included in the Schedules of Fiduciary Net             Withholding for the U.S. Virgin Island
                   Assets.
6                  If separate audited financial statements are issued for an individual fiduciary activity with a      N/A
                   fiscal yearend other than September 30, indicate the fiduciary activity's fiscal year (SFFAS
                   No. 31, par. 18(e)).
7                  If separate audited financial statements are issued for an individual fiduciary activity, disclose   N/A
                   the basis of accounting used and the auditor's opinion on the current or most recent financial
                   statements. If the auditor's opinion was not unqualified, disclose the reason(s) stated by the
                   auditors and refer the reader to the audit opinion for further information (SFFAS No. 31, par.
                   22(a)).
8                  If separate audited financial statements are issued for an individual fiduciary activity, provide    N/A
                   information on how the reader can obtain a copy of the financial statements and the audit
                   opinion thereon (SFFAS No. 31, par. 22(b)).
9                  If more than one agency is responsible for administering a fiduciary activity, and the separate      N/A
                   portions of the activity can be clearly identified with another responsible agency, identify the
                   other agency(ies) involved in managing the activity (SFFAS No.31.par.19).
10                 Provide any other relevant information pertaining to this note. At a minimum, describe briefly       See Note 31 Part 2.AA
                   the significant accounting policies pertaining to this note.




                                                                                                             - 103 -
                                                                                                                                                                                                    11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                   Fiscal Year: 2012                 Period: SEPTEMBER
   Entity: 2000        Department of the Treasury                                                                                          Agency Notes:      1 and 8

  Status: Complete                        The accompanying notes are an integral part of these financial statements.                    I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2012 - SEPTEMBER          2011 - SEPTEMBER
                                                                                    Type
Investment in Government sponsored enterprises (GSEs)                       D         A                      109,342                 133,043
                                                                                 Variance:                         0                       0         Rounding Method: Millions                Decimal: Zero
Line Status Line Description         CY Gross investment as of        CY Cumulative valuation           CY September 30 fair PY Gross investment as of        PY Cumulative valuation PY September 30 fair value
                                            September 30                     (gain/loss)                         value              September 30                     (gain/loss)
 1           Fannie Mae senior                        116,989                         -51,331                        65,658                   104,627                         -26,718                    77,909
             preferred stock
 2           Freddie Mac senior                             72,160                      -30,224                          41,936                     66,004                       -12,380                         53,624
             preferred stock
 3           Fannie Mae warrants                             3,104                        -1,956                          1,148                      3,104                        -2,137                               967
             common stock
 4           Freddie Mac warrants                            2,264                        -1,664                            600                      2,264                        -1,721                               543
             common stock
 5
 6
 7
 8           Total GSE investment
             Total                                          194,517                      -85,175                        109,342                    175,999                        -42,956                       133,043
Threshold

 Line Description                                               Question                                                                Answer
 Line Item Notes - Fannie Mae senior preferred stock (CY        Please provide explanations for any amounts that have                   Most of the decrease in fiscal year 2012, is due to the investment in Fannie
 Gross investment as of September 30)                           changed by 10% or more and or greater than $500,000                     Mae in which there was a $12.4 billion increase in the liquidity preference
                                                                between the current fiscal year and prior fiscal year (unaudited).      under the Senior Preferred Stock Purchase Agreement (SPSPA). This was
                                                                                                                                        offset by $24.6 billion decrease in valuation from September 2011 to 2012,
                                                                                                                                        due to the third amendment to the SPSPA that changed the quarterly
                                                                                                                                        dividend payment from 10.0 percent per annum fixed rate dividend to an
                                                                                                                                        amount equivalent to the GSE's positive net worth above a capital reserve
                                                                                                                                        amount.
 Line Item Notes - Fannie Mae senior preferred stock (CY        Please provide explanations for any amounts that have                   See explanation above for Fannie Mae.
 September 30 fair value)                                       changed by 10% or more and or greater than $500,000
                                                                between the current fiscal year and prior fiscal year (unaudited).
 Line Item Notes - Freddie Mac senior preferred stock (CY       Please provide explanations for any amounts that have                   Most of the decrease in fiscal year 2012, is due to the investment in Freddie
 September 30 fair value)                                       changed by 10% or more and or greater than $500,000                     Mac in which there was a $6.2 billion increase in the liquidity preference
                                                                between the current fiscal year and prior fiscal year (unaudited).      under the Senior Preferred Stock Purchase Agreement (SPSPA). This was
                                                                                                                                        offset by $17.8 billion decrease in valuation from September 2011 to 2012,
                                                                                                                                        due to the third amendment to the SPSPA that changed the quarterly
                                                                                                                                        dividend payment from 10.0 percent per annum fixed rate dividend to an
                                                                                                                                        amount equivalent to the GSE's positive net worth above a capital reserve
                                                                                                                                        amount.



                                                                                                          - 104 -
                                                                                                                                                                                             11/16/2012 15:09:14

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                     GF006 - FR Notes Report

   Note: 28A         Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)              Fiscal Year: 2012                 Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                     Agency Notes:      1 and 8

 Status: Complete                      The accompanying notes are an integral part of these financial statements.                I = Inactive Line



Threshold

Line Description                                            Question                                                             Answer
Line Item Notes - Fannie Mae warrants common stock (CY      Please provide explanations for any amounts that have                The slight increase in value is primary due to a $0.03 increase in the value
September 30 fair value)                                    changed by 10% or more and or greater than $500,000                  of the common stock at the end of fiscal year 2012 compare to 2011.
                                                            between the current fiscal year and prior fiscal year (unaudited).




                                                                                                      - 105 -
                                                                                                                                                                                               11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28A          Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                Fiscal Year: 2012               Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                       Agency Notes:        1 and 8

  Status: Complete                            The accompanying notes are an integral part of these financial statements.              I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Other Related Information                                                                Line Attributes: Dollars
                                                                                                                                   Rounding Method: Millions                         Decimal: Zero
Line Status Line Description          NB        2012 - SEPTEMBER             2011 - SEPTEMBER                 Previously Rptd       Line Item Changes
 1             Revenue               Credit                     -23,701                      23,827                       23,827                          0
               recognized from
               acquisition of
               preferred stocks
               and warrants and
               valuation
               (gain)/loss on GSE
               preferred stocks
 2             Revenue               Credit                      18,379                      15,588                       15,588                          0
               recognized from
               dividends and
               periodic
               commitment fees
 3        I    The dollar amount     Debit
               of liquidation
               preference value
               per share of senior
               preferred stock
 4        I    Amount of agency      Debit
               MBS purchase for
               Fannie Mae and
               Freddie Mac
 5        I    Amount of agency      Debit
               debt purchased for
               Fannie Mae and
               Freddie Mac
Threshold
 Line Description                                                 Question                                                            Answer
 Other Notes Info - Revenue recognized from dividends and         Please provide explanations for any amounts that have               GSEs Preferred Stock Dividends increased by $2.8 billion due to the
 periodic commitment fees (2012 - SEPTEMBER)                      changed by 10% or more and or greater than $500,000                 increase in gross investments in the GSEs under the Senior Preferred Stock
                                                                  between the current fiscal year and prior fiscal year               Purchase Agreement (SPSPA). The senior preferred stock accrues
                                                                  (unaudited).                                                        dividends at 10.0 percent per year, payable quarterly through December 31,
                                                                                                                                      2012.




                                                                                                         - 106 -
                                                                                                                                                                                                         11/16/2012 15:09:14

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                           GF006 - FR Notes Report

     Note: 28A           Financial and Housing Market Stabilization - Investment in Government Sponsored Enterprises (GSE)                      Fiscal Year: 2012                 Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                             Agency Notes:       1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                       I = Inactive Line


       Section: B             Section Name: Other Related Information (in Percentages)                                                      Line Attributes: Percent


Line Status Line Description          NB      2012 - SEPTEMBER                 2011 - SEPTEMBER                  Previously Rptd           Line Item Changes
 1             Nominal cost           N/A                       79.9000                       79.9000                       79.9000                         .0000
               percentage of
               common stock on a
               fully diluted basis
 2             Rate of dividends      N/A                       10.0000                       10.0000                       10.0000                         .0000




       Section: C             Section Name: Other Related Information in Units                                                              Line Attributes: Units


Line Status Line Description          NB      2012 - SEPTEMBER                 2011 - SEPTEMBER                  Previously Rptd           Line Item Changes
 1             Number of non-         N/A               2,000,000.0000                2,000,000.0000                  2,000,000.0000                        .0000
               voting senior
               preferred stock -
               shares




Tab: Text Data
 Line                Question                                                                                                 Answer
 1                   Provide any other relevant information pertaining to this note. At a minimum, describe briefly           FMS Services - PLEASE record JV to eliminate amount reported in Other Notes Info -
                     the significant                                                                                          Section A, Line 1 of $(23,701) million due to this is a net revenue at the government-
                     accounting policies pertaining to this note.                                                             wide level.

                                                                                                                              See Note 31.Part2.G




                                                                                                            - 107 -
                                                                                                                                                                                                  11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 28B           Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)             Fiscal Year: 2012                  Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                     Agency Notes:        1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.               I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account      2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                    Type
Liabilities to Government Sponsored Enterprises                              C        L                       9,003              316,230
                                                                                 Variance:                        0                    0            Rounding Method: Millions                Decimal: Zero
Line Status Line Description             2012 - SEPTEMBER             2011 - SEPTEMBER                  Previously Rptd         Line Item Changes
 1            GSE accrued liability
 2            GSE contingent                                 9,003                      316,230                       316,230                            0
              liability
 3      I     Private entities entered
              liability
 4
 5
 6
 7           All other liabilities
             Total                                            9,003                      316,230                      316,230                            0
Threshold

 Line Description                                                Question                                                             Answer
 Line Item Notes - GSE contingent liability (2012 -              Please provide explanations for any amounts that have               This accrued contingent liability is based on the projected draws under the
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000 between          Senior Preferred Stock Purchase Agreement (SPSPA) with Fannie Mae and
                                                                 the current fiscal year and prior fiscal year. (Unaudited)          Freddie Mac. It is undiscounted and does not take into account any of the
                                                                                                                                     offsetting dividends which may be received as a result of those draws. The
                                                                                                                                     reduction in this liability is a result of payments made to the GSEs that
                                                                                                                                     totaled $18.5 billion in fiscal year 2012, coupled with the effect of annual
                                                                                                                                     valuations. The reduction in the projected contingent liability is due to lower
                                                                                                                                     delinquencies reported by the GSEs on additions to their credit books since
                                                                                                                                     2008 and the third amendment to the SPSPAs. The third amendment to the
                                                                                                                                     SPSPAs changed the quarterly dividend payment from 10.0 percent per
                                                                                                                                     annum fixed rate dividend to an amount equivalent to the GSE's positive net
                                                                                                                                     worth above a capital reserve amount.




                                                                                                          - 108 -
                                                                                                                                                                                                   11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 28B         Financial and housing Market Stabilization - Liabilities to Government Sponsored Enterprises (GSE)                  Fiscal Year: 2012                Period: SEPTEMBER
     Entity: 2000       Department of the Treasury                                                                                         Agency Notes:        1 and 8

  Status: Complete                          The accompanying notes are an integral part of these financial statements.                  I = Inactive Line

Tab: Other Notes Info.

       Section: A            Section Name: Other Related Information                                                                   Line Attributes: Dollars
                                                                                                                                     Rounding Method: Millions                          Decimal: Zero
Line Status Line Description         NB       2012 - SEPTEMBER                2011 - SEPTEMBER                  Previously Rptd        Line Item Changes
 1             Actual payment       Debit                       18,519                        20,766                      20,766                            0
               made to the GSE
Threshold
 Line Description                                                Question                                                               Answer
 Other Notes Info - Actual payment made to the GSE (2012 -       Please provide explanations for any amounts that have                  Both GSEs reported significantly lower early delinquencies on additions to
 SEPTEMBER)                                                      changed by 10% or more and or greater than 500,000                     their credit books on loans originated after 2008. This favorable early
                                                                 between the current fiscal year and prior fiscal year.                 delinquency experience is an improvement compared with the loans
                                                                 (Unaudited)                                                            originated in 2005 through 2008.

Tab: Text Data
 Line               Question                                                                                              Answer
 1                  Provide any other relevant information pertaining to this note. At a minimum, describe briefly        See Note 31.Part 2.V
                    the significant accounting policies pertaining to this note.                                          See Note 31.Part 3.F




                                                                                                           - 109 -
                                                                                                                                                                                    11/16/2012 15:09:14

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                       GF006 - FR Notes Report

     Note: 29A          Derivative Assets                                                                                           Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000         Department of the Treasury                                                                                  Agency Notes:      N/A

  Status: Complete                          The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                          NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                  Type
Derivative Assets                                                          D        A                           0                  0
                                                                               Variance:                        0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description           2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd         Line Item Changes
 1           Interest rate contracts
 2           Foreign exchange
             contracts
 3           Equity contracts
 4           Commodity contracts
 5           Credit contracts
 6           All other contracts
             Total




                                                                                                      - 110 -
                                                                                                                                                                                     11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                         Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                Agency Notes:    N/A

  Status: Complete                           The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Assets                                  No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total hedge            N/A
               derivative contracts
       Section: B             Section Name: Non-Hedge Derivative Assets                              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                             Rounding Method: Millions                       Decimal: Zero
Line Status Line Description          NB           CY Cost Basis D      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis D       PY Fair Value Adjustment   PY Fair Market Value
                                                                                              D                                                                              D
 1             Interest rate          N/A
               contracts
 2             Foreign exchange       N/A
               contracts
 3             Equity contracts       N/A
 4             Commodity              N/A
               contracts
 5             Credit contracts       N/A
 6             All other contracts    N/A
 7             Total non-hedge        N/A
               derivative contracts




                                                                                                       - 111 -
                                                                                                                                                                             11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29A           Derivative Assets                                                                                           Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                  Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Assets Designated as              No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total reclassified     N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Assets Not Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB       2012 - SEPTEMBER             2011 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Debit
               contracts
 2             Foreign exchange       Debit
               contracts
 3             Equity contracts       Debit
 4             Commodity              Debit
               contracts
 5             Credit contracts       Debit
 6             All other contracts    Debit
 7             Total recognized       N/A
               derivative gain/loss




                                                                                                        - 112 -
                                                                                                                                                                         11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29A         Derivative Assets                                                                                          Fiscal Year: 2012      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                           Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   815-
                   10-50-4A)
5                  Provide of the effective portion of gains and losses, by contract type, on derivative
                   instruments classified as either cashflow or net investment hedges that are being reclassified
                   into earnings during the current period (FASB ASC 815-
                   10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are recognized in other
                   comprehensive
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified
                   as
                   either cashflow or net investment hedges that represent the amount of the hedges
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for no-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks. Explain the use
                   of
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).
9                  Provide a description on the existence and nature of credit-risk related contingent features
                   and
                   the circumstances in which the features could be triggered in derivative instruments that are
                   in a
                   net liability position at the end of the reporting period. Include disclosures related to posted
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H).
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset
                   and



                                                                                                            - 113 -
                                                                                                                                                                       11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29A       Derivative Assets                                                                                          Fiscal Year: 2012      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                        The accompanying notes are an integral part of these financial statements.          I = Inactive Line

Tab: Text Data
Line             Question                                                                                           Answer
                 liability positions on the Balance Sheet under a master netting agreement. Describe the
                 accounting
                 policy to offset cash collateral positions arising from derivative instrument(s) under a master
                 netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11               Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return
                 cash collateral under master netting arrangements (FASB ASC 815-10-50-8).
12               Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the significant accounting policies pertaining to this note.




                                                                                                         - 114 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                       Fiscal Year: 2012               Period: SEPTEMBER
   Entity: 2000          Department of the Treasury                                                                                   Agency Notes:      N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.           I = Inactive Line

Tab: Line Item Notes
Closing Package Line Description                                            NB    Account     2012 - SEPTEMBER        2011 - SEPTEMBER
                                                                                    Type
Derivative Liabilities                                                       C        L                           0                  0
                                                                                 Variance:                        0                  0            Rounding Method: Millions       Decimal: Zero
Line Status Line Description              2012 - SEPTEMBER            2011 - SEPTEMBER                Previously Rptd         Line Item Changes
 1            Interest rate contracts
 2            Foreign exchange
              contracts
 3            Equity contracts
 4            Commodity contracts
 5            Credit contracts
 6            All other contracts
              Total




                                                                                                        - 115 -
                                                                                                                                                                                      11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                     Fiscal Year: 2012              Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                 Agency Notes:    N/A

  Status: Complete                            The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Other Notes Info.

       Section: A             Section Name: Hedge Derivative Liabilities                              No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment          PY Fair Value
                                                                                               C                                                                              C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total hedge             N/A
               derivative amounts
       Section: B             Section Name: Non-Hedge Derivative Liabilities                          No Data Flag: YES         Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                       Decimal: Zero
Line Status Line Description           NB           CY Cost Basis C      CY Fair Value Adjustment      CY Fair Market Value       PY Cost Basis C       PY Fair Value Adjustment   PY Fair Market Value
                                                                                               C                                                                              C
 1             Interest rate           N/A
               contracts
 2             Foreign exchange        N/A
               contracts
 3             Equity contracts        N/A
 4             Commodity               N/A
               contracts
 5             Credit contracts        N/A
 6             All other contracts     N/A
 7             Total non-hedge         N/A
               derivative amounts




                                                                                                        - 116 -
                                                                                                                                                                              11/16/2012 15:09:14

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                          GF006 - FR Notes Report

     Note: 29B           Derivative Liabilities                                                                                       Fiscal Year: 2012      Period: SEPTEMBER
     Entity: 2000        Department of the Treasury                                                                                   Agency Notes:    N/A

  Status: Complete                             The accompanying notes are an integral part of these financial statements.          I = Inactive Line


       Section: C             Section Name: Gain/Loss on Derivative Liabilities Designated as          No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB         2012 - SEPTEMBER            2011 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All Other contracts    Credit
 7             Total reclassified      N/A
               derivative gain/loss
       Section: D             Section Name: Gain/Loss on Derivative Liabilities Not Designated as      No Data Flag: YES          Line Attributes: Dollars
                                            Hedging Instruments                                                                 Rounding Method: Millions             Decimal: Zero
Line Status Line Description           NB         2012 - SEPTEMBER            2011 - SEPTEMBER                Previously Rptd    Line Item Changes
 1             Interest rate          Credit
               contracts
 2             Foreign exchange       Credit
               contracts
 3             Equity contracts       Credit
 4             Commodity              Credit
               contracts
 5             Credit contracts       Credit
 6             All other contracts    Credit
 7             Total recognized        N/A
               derivative gain/loss




                                                                                                         - 117 -
                                                                                                                                                                        11/16/2012 15:09:14

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                         GF006 - FR Notes Report

     Note: 29B        Derivative Liabilities                                                                                     Fiscal Year: 2012      Period: SEPTEMBER
    Entity: 2000       Department of the Treasury                                                                                Agency Notes:    N/A

 Status: Complete                          The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data                        No Data Flag: YES
Line               Question                                                                                          Answer
1                  Provide disclosures for the objectives for holding or issuing derivatives, the context needed
                   to
                   understand these objectives, as well as strategies for achieving these objectives (FASB ASC
                   815-
                   10-50-1A).
2                  Provide disclosures for the volume of derivative activity (FASB ASC 815-10-50-1B).
3                  Provide disclosures on the location of fair value amounts of derivate instruments (both
                   assets and
                   liabilities, respectively) on the Balance Sheet (FASB ASC Topic 815-10-50-4A).
4                  Provide disclosures on the location of gains or losses recognized into earnings (FASB ASC
                   815-10-50-4A).
5                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are being reclassified into
                   earnings
                   during the current period (FASB ASC 815-10-50-4C).
6                  Provide the effective portion of gains and losses, by contract type, on derivative instruments
                   classified as either cashflow or net investment hedges that are recognized in other
                   comprehensive
                   income during the current period (FASB ASC 815-10-50-4C).
7                  Provide the portion of gains and losses, by contract type, on derivative instruments classified
                   as
                   either cashflow or net investment hedges that represent the amount of the hedges'
                   ineffectiveness
                   or the amount, if any, excluded from the assessment of the hedge effectiveness (FASB ASC
                   815-
                   10-50-4C).
8                  Provide a description of the nature of trading activities for non-hedge designated derivative
                   instruments and related risks, including how the entity manages those risks. Explain the use
                   of
                   any alternative disclosures for trading activities, if applicable (FASB ASC 815-10-50-4F).
9                  Provide a description on the existence and nature of credit-risk related contingent features
                   and the
                   circumstances in which the features could be triggered in derivative instruments that are in a
                   net
                   liability position at the end of the reporting period. Include disclosures related to posted
                   collateral, as well as additional collateral required and fair value of assets needed to settle
                   the
                   instrument immediately if the credit-risk contingent features were triggered (FASB ASC
                   815-10-
                   50-4H)
10                 Provide disclosures of the entity's accounting policy to offset or not offset derivative asset
                   and
                   liability positions on the Balance Sheet under a master netting agreement. Describe the



                                                                                                           - 118 -
                                                                                                                                                                       11/16/2012 15:09:14

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                        GF006 - FR Notes Report

     Note: 29B       Derivative Liabilities                                                                                     Fiscal Year: 2012      Period: SEPTEMBER
  Entity: 2000       Department of the Treasury                                                                                 Agency Notes:    N/A

 Status: Complete                         The accompanying notes are an integral part of these financial statements.         I = Inactive Line

Tab: Text Data
Line             Question                                                                                           Answer
                 accounting
                 policy to offset cash collateral positions arising from derivative instrument(s) under a master
                 netting agreement against net derivative positions (FASB ASC 815-10-50-7).
11               Disclose amounts recognized for the right to reclaim cash collateral or the obligation to return
                 cash collateral under master netting arrangements (FASB ASC 815-10-50-8).
12               Provide any other relevant information pertaining to this note. At a minimum, describe briefly
                 the
                 significant accounting policies pertaining to this note.




                                                                                                         - 119 -
NOTE 31 - SIGNIFICANT ACCOUNTING INFORMATION
PART 1. BASIS OF PRESENTATION
The Government Management Reform Act of 1994 (GMRA) (Pub. L. No. 103-356), which requires the Secretary of
the Treasury (Secretary) to prepare and submit annual audited financial statement of the executive branch, amended
the Budget and Accounting Procedures Act of 1950, which allows the Secretary to stipulate the format and
requirements of executive agencies to furnish financial and operational information to the President and Congress.
The Secretary developed guidance in the U.S. Department of the Treasury’s Treasury Financial Manual (TFM)
Volume 1, Part 2, Chapter 4700 to provide agencies with instructions to meet the requirements of GMRA. The TFM
Chapter 4700 requires agencies to:

    1.   Reclassify all items and amounts on the audited consolidated, department-level balance sheet, statements of
         net cost, changes in net position/income statement, and the statement or note on custodial activity, if
         applicable to the special-purpose financial statements (SPFS).
    2.   Disclose SPFS line item amounts identified as Federal by trading partner and amount (amounts should be
         the net of intra-bureau and intra-departmental eliminations).
    3.   Disclose notes required by the SPFS line items and other notes required in the Financial Report of the U.S.
         Government (FR); and
    4.   Disclose other data not contained in the primary FR financial statements and notes required to meet
         requirements of the U.S. generally accepted accounting principles.

The TFM Chapter 4700 requires agencies to use the Governmentwide Financial Report System (GFRS) to input the
above information. For purposes of the SPFS, the Closing Package is comprised of the following GFRS Modules:

    1.   Closing Package Financial Statement Report (GF003F)
    2.   Trading Partner Summary Note Report (GF004F)
    3.   Closing Package Line Reclassification Summary Report (GF003G)
    4.   FR Notes Report (GF006)
    5.   Other Data Report (GF007)

The generic format for the SPFS is based on the U.S. Standard General Ledger (USSGL) crosswalk to the FR financial
statements and notes. In May 2012, Treasury issued TFM Transmittal Letter No. 684, effective for fiscal year 2012,
that revised the mapping of certain USSGL accounts to the SPFS and resulted in Treasury reclassifying the
accompanying fiscal year 2011 SPFS to conform with the fiscal year 2012 presentation. Therefore, certain amounts in
the fiscal year 2011 columns on the accompanying SPFS differ from the amounts in the columns labeled “previously
reported”.

PART 2. SUMMARY OF SIGNIFICANT ACCOUNTING POLICIES
A. REPORTING ENTITY
The accompanying financial statements include the operations of the United States (U.S.) Department of the Treasury
(Department), one of 24 CFO Act agencies of the Executive Branch of the U.S. Government, and certain custodial
activities managed on behalf of the entire U.S. Government. The following paragraphs describe the activities of the
reporting entity.
The Department was created by an Act (1 Stat.65) on September 2, 1789. Many subsequent acts affected the
development of the Department, delegating new duties to its charge and establishing the numerous bureaus and
divisions that now comprise the Department. As a major policy advisor to the President, the Secretary of the Treasury
(Secretary) has primary responsibility for formulating and managing the domestic and international tax and financial
policies of the U.S. Government.

Further, the Secretary is responsible for recommending and implementing United States domestic and international
economic and fiscal policy; governing the fiscal operations of the government; maintaining foreign assets control;
managing the federal debt; collecting income and excise taxes; representing the United States on international
monetary, trade, and investment issues; overseeing Departmental overseas operations; and directing the manufacture
of coins, currency, and other products for customer agencies and the public.

The Department’s reporting entities include Departmental Offices (DO) and eight operating bureaus. For financial
reporting purposes, DO is composed of: International Assistance Programs (IAP), Office of Inspector General (OIG),
Special Office of Inspector General for the Troubled Asset Relief Program (SIGTARP), Treasury Forfeiture Fund
(TFF), Exchange Stabilization Fund (ESF), Community Development Financial Institutions (CDFI) Fund, Office of
D.C. Pensions (DCP), Treasury Inspector General for Tax Administration (TIGTA), Federal Financing Bank (FFB),
Office of Financial Stability (OFS), Government Sponsored Enterprise (GSE) Program, Small Business Lending Fund
(SBLF), Office of Financial Research (OFR), and the DO policy offices.

As of September 30, 2012, the Department’s eight operating bureaus were: Bureau of Engraving and Printing (BEP);
Bureau of the Public Debt (BPD); Financial Crimes Enforcement Network (FinCEN); Financial Management Service
(FMS); Internal Revenue Service (IRS); United States Mint (Mint); Office of the Comptroller of the Currency (OCC);
and the Alcohol and, Tobacco Tax and Trade Bureau (TTB). Effective in October 2012, the BPD and FMS operating
bureaus merged to form one new operating bureau, Bureau of the Fiscal Service, thereby reducing the Department’s
total number of operating bureaus to seven. The President’s Budget for fiscal year 2013 requests Congressional
enactment of a single appropriation to fund the new bureau.

The Department’s financial statements reflect the reporting of its own entity activities comprising both the
Department’s operating bureaus and DO that are consolidated with the Department, which include appropriations it
receives to conduct its operations and revenue generated from those operations. They also reflect the reporting of
certain non-entity (custodial) functions it performs on behalf of the U.S. Government and others. Non-entity
activities include collecting federal revenue, servicing the federal debt, disbursing certain federal funds, and
maintaining certain assets and liabilities for the U.S. Government, as well as for other federal entities. The
Department’s reporting entity does not include the General Fund of the U.S. Government (General Fund), which
maintains receipt, disbursement, and appropriation accounts for all federal agencies.

Following generally accepted accounting principles (GAAP) for federal entities, the Department has not consolidated
into its financial statements the assets, liabilities, or results of operations of any financial organization or commercial
entity in which it holds either a direct, indirect, or beneficial majority equity investment. Even though some of the
equity investments are significant, these entities meet the criteria of “bailed out” entities under paragraph 50 of the
Statement of Federal Financial Accounting Concepts (SFFAC) No. 2, Entity and Display which directs that such
“bailout” investments should not be consolidated into the Financial Reports of the U.S. Government, either in part or
as a whole.
In addition, the Department has made loans and investments in certain Special Purpose Vehicles (SPV) under the
American International Group, Inc. Investment Program, Public-Private Investment Program, and the Term Asset-
Backed Securities Loan Facility. SFFAC No. 2, paragraphs 43 and 44, reference indicative criteria such as ownership
and control over an SPV to carry out government powers and missions as criteria in the determination about whether
the SPV should be classified as a federal entity. The Department has concluded that the lack of control over the SPVs
is the primary basis for determining that none of the SPVs meet the criteria to be classified as a federal entity. As a
result, the assets, liabilities, and results of operations of the SPVs are not included in the Department’s financial
statements. The Department has recorded the loans and investments in private entities and investments in SPVs in
accordance with credit reform accounting, as discussed below. Additional disclosures regarding these SPV
investments are included in the Departments’ Agency Financial Report (AFR) Note 7.

B. BASIS OF ACCOUNTING AND PRESENTATION
The financial statements have been prepared from the accounting records of the Department in conformity with
accounting principles generally accepted in the United States for federal entities, and the Office of Management and
Budget (OMB) Circular No. A-136, Financial Reporting Requirements, as revised. Accounting principles generally
accepted for federal entities are the standards prescribed by the Federal Accounting Standards Advisory Board
(FASAB). FASAB is recognized by the American Institute of Certified Public Accountants as the official accounting
standards-setting body for the U.S. Government.

Transactions and balances among the Department’s entities have been eliminated from the Balance Sheets, the
Statements of Net Cost, and the Changes in Net Position.

While these financial statements have been prepared from the accounting records of the Department in accordance
with the formats prescribed by Treasury, these financial statements are in addition to the financial reports used to
monitor and control budgetary resources which are prepared from the same accounting records.

Federal assets and liabilities are those due from or to other federal entities. Federal earned revenues are collections
or accruals of revenue from other federal entities, and federal costs are payments or accruals of expenditures to other
federal entities.

The financial statements should be read with the realization that the Department is a component of the U.S.
Government, a sovereign entity and, accordingly, its liabilities not covered by budgetary resources cannot be
liquidated without the legislative enactment of an appropriation, and that the payment of all liabilities other than for
contracts can be abrogated by the sovereign entity. Liabilities represent the probable and measurable future outflow
or other sacrifice of resources as a result of past transactions or events. Liabilities represent the probable and
measurable future outflow or other sacrifice of resources as a result of past transactions or events. Liabilities covered
by budgetary resources are those liabilities for which Congress has appropriated funds or funding is otherwise
available to pay amounts due. Liabilities not covered by budgetary or other resources represent amounts owed in
excess of available, congressionally appropriated funds or other amounts, and there is no certainty that the
appropriations will be enacted.

Certain fiscal year 2011 activity and balances on the financial statements and related notes to the financial statements
have been reclassified to conform to the presentation in the current year. Specifically, certain fiscal year 2011 activity
on the Statements of Net Cost and related notes to the financial statements is reclassified to conform to the
presentation in the current fiscal year, the effects of which are immaterial. There are numerous acronyms used
throughout the notes herein as well as other sections of this Agency Financial Report (AFR). Refer to the “Glossary of
Acronyms” located in Appendix E of this report for a complete listing of these acronyms and their related definitions.

C. FUND BALANCE
The Fund Balance with Treasury is the aggregate amount of the Department’s accounts with the U.S. Government’s
central accounts from which the Department is authorized to make expenditures and pay liabilities. It is an asset
because it represents the Department’s claim to the U.S. Government’s resources. Fund balance with Treasury is not
equivalent to unexpended appropriations because it also includes non-appropriated revolving and enterprise funds,
suspense accounts, and custodial funds such as deposit funds, special funds, and trust funds.

D. LOANS AND INTEREST RECEIVABLE, INTRA-GOVERNMENTAL
Federal loans and interest receivable from other federal agencies represent loans and interest receivable held by the
Department, through FFB. No credit reform subsidy costs are recorded for loans purchased from federal agencies or
for guaranteed loans made to non-federal borrowers because the outstanding balances are guaranteed (interest and
principal) by those agencies. Federal loans and interest receivable from other federal agencies represent loans issued
by the Department, through BPD, to federal agencies on behalf of the U.S. Government. The Department acts as an
intermediary issuing these loans because the agencies receiving these loans will lend these funds to third parties to
carry out various programs of the U.S. Government. Because of the Department’s intermediary role in issuing these
loans, the Department does not record an allowance related to these federal loans. Instead, loan loss allowances and
subsidy costs are recognized by the ultimate lender, the federal agency that issued the loans to the public. Loans and
Interest Receivable, Intra-Governmental are reported as part of Federal Loans Receivable and Federal Interest
Receivable in the Balance Sheet.

E. ADVANCES TO THE UNEMPLOYMENT TRUST FUND
Advances are issued to the Department of Labor’s (DOL) Unemployment Trust Fund from the General Fund for states
to pay unemployment benefits. BPD accounts for the advances on behalf of the General Fund. As outlined in the
United States Code (USC) 42 USC §1323, these advances bear an interest rate that is computed as the average interest
rate as of the end of the calendar month preceding the issuance date of the advance for all interest-bearing obligations
of the United States that form the public debt, to the nearest lower one-eighth of one percent. Interest on the
advances is due on September 30th of each year. Advances are repaid by transfers from the Unemployment Trust
Fund to the General Fund when the Secretary, in consultation with the Secretary of Labor, determines that the
balance in the Unemployment Trust Fund is adequate to allow repayment. Advances to the Unemployment Trust
Fund are reported as part of Federal Loans Receivable in the Balance Sheet.

F. CASH, FOREIGN CURRENCY, AND OTHER MONETARY ASSETS
Substantially all of the Department’s operating cash is non-entity government-wide cash held in depository
institutions and FRB accounts. Agencies can deposit funds that are submitted to them directly into either a Federal
Reserve Treasury General Account (TGA) or a local TGA depositary. The balances in these TGA accounts are
transferred to the Federal Reserve Bank of New York (FRBNY)’s TGA at the end of each day.

Operating cash of the U.S. Government represents balances from tax collections, customs duties, other revenue,
federal debt receipts, and other various receipts net of cash outflows for budget outlays and other payments held in
the FRBs and in foreign and domestic financial institutions. Outstanding checks are netted against operating cash
until they are cleared by the Federal Reserve System.
The FRBNY maintains the TGA which functions as the government’s checking account for deposits and
disbursements of public funds. Cash in the TGA is restricted for government-wide operations.

The Department’s foreign currency investments having original maturities of three months or less are classified as
cash equivalents. Special Drawing Rights (SDRs) holdings comprise most of the other monetary assets (refer below to
“Special Drawing Rights” accounting policy).

Cash, Foreign Currency, and Other Monetary Assets are reported as part of Cash and Other Monetary Assets in the
Balance Sheet.

G. INVESTMENTS

Investments in Government Sponsored Enterprises (GSEs)

The Department holds senior preferred stock and warrants for the purchase of common stock of two GSEs, the
Federal National Mortgage Association (Fannie Mae) and the Federal Home Loan Mortgage Corporation (Freddie
Mac). These non-federal investment holdings are presented at their fair value as permitted by OMB Circular No. A-
136. This circular includes language that generally requires agencies to value non-federal investments at acquisition
cost, but permits the use of other measurement basis, such as fair value, in certain situations. Changes in the
valuation of these investments are recorded as non-entity exchange transactions on the Statements of Net Cost.
Dividends are also recorded as non-entity exchange transactions and accrued when declared; therefore, no accrual is
made for future dividends.

The GSE Senior Preferred Stock Purchase Agreements (SPSPAs) requires the Department to increase its investment
in the GSEs’ senior preferred stock if, at the end of any quarter, the Federal Housing Finance Agency (FHFA), acting
as the conservator, determines that the liabilities of either GSE exceed its respective assets. As funding to the GSEs to
pay their excess liabilities is appropriated directly to the Department, such payments are treated as entity expenses
and reflected as such on the Statements of Net Cost and Cumulative Results of Operations. These payments also
result in an increase to the non-entity investment in the GSEs’ senior preferred stock, with a corresponding increase
in Due to the General Fund, as the Department holds the investment on behalf of the General Fund.

Investments in International Financial Institutions

The Department, on behalf of the United States, invests in Multilateral Development Banks (MDBs) to support
poverty reduction, private sector development, transitions to market economies and sustainable economic growth and
development, thereby advancing the United States’ economic, political, and commercial interests abroad. As a
participating member country, the Department, on behalf of the United States, provides a portion of the capital base
of the MDBs, through subscriptions to capital, which allows the MDBs to issue loans at market-based rates to middle
income developing countries. These paid-in capital investments are considered non-marketable equity investments
valued at cost on the Department’s Balance Sheets.

In addition, the Department, on behalf of the United States, contributes funding to MDBs to finance grants and
extend credit to poor countries at below market-based interest rates. These U.S. contributions, also referred to as
“concessional window” contributions, are reported as an expense on the Department’s Statements of Net Cost.
Investments in International Financial Institutions are reported as part of Debt and Equity Securities in the Balance
Sheet.
Non-TARP Investment in American International Group, Inc.

The Department holds American International Group, Inc. (AIG) common stock, a non-federal investment, on behalf
of the General Fund which are considered “available-for-sale” securities and recorded at fair value. Changes in the
valuation of these investments held are non-entity, non-exchange transactions reported on the Statements of Changes
in Net Postion. The revenue or loss associated with sales of these investments are non-entity, exchange transactions
reported on the Statements of Changes in Net Position rather than on the Statements of Net Cost as the Department
does not incur costs related to these investments. The Non-TARP Investment in American International Group, Inc. is
reported as part of the Debt and Equity Securities in the Balance Sheet.

Other Investments and Related Interest

ESF holds most of the Department’s foreign currency investments. Other foreign currency denominated assets and
investment securities are considered available-for-sale securities and recorded at fair value. These holdings are
normally invested in interest-bearing securities issued or held through foreign governments or monetary authorities.
Interest on investments, amortization of premiums, and accretion of discounts are recognized on an accrual basis.
Premiums and discounts are amortized or accreted over the life of the related investment security as an adjustment to
yield using the effective interest method. Other Investments and Related Interest are reported as part of the Debt and
Equity Securities in the Balance Sheet.

H. CREDIT PROGRAM RECEIVABLES
The Department accounts for all of its TARP credit program receivables, including investments in common and
preferred stock and warrants of public companies, loans, and loan guarantees or guaranty-like insurance activities,
under the provisions of credit reform accounting. All TARP credit program receivables are reported as TARP Direct
Loans and Equity Investments in the Balance Sheet. In addition to its TARP programs, the Department accounts for
all other of its credit program receivables under the provisions of credit reform accounting, including the loans or
equity securities associated with the Department’s: GSE mortgage-backed securities (MBS) purchase program, state
and local Housing Finance Agency (HFA) Initiative programs, SBLF program, CDFI program, and certain portions of
the Department’s participation in the IMF are reported as part of Direct Loans Receivable and Mortgage Backed
Securities in the Balance Sheet. To account for the Department’s TARP and other credit program receivables, the
Department applies the accounting provisions of SFFAS No. 2, Accounting for Direct Loans and Loan Guarantees, as
amended by SFFAS No. 18, Amendments to Accounting Standards for Direct Loans and Loan Guarantees, and
SFFAS No. 19, Technical Amendments to Accounting Standards for Direct Loans and Loan Guarantees. SFFAS No.
2, as amended, requires measurement of the asset or liability at the net present value of the estimated future cash
flows. The cash flow estimates for each credit program transaction reflect the actual structure of the instruments. For
each of these instruments, the Department estimates cash inflows and outflows related to the program over the
estimated term of the instrument. Further, each cash-flow estimate reflects the specific terms and conditions of the
program, technical assumptions regarding the underlying assets, risk of default or other losses, and other factors as
appropriate. The measurement of assets within these programs is primarily derived from inputs which generally
represent market data and, when such data is not available, management’s best estimate of how a market participant
would assess the risk inherent in the asset.

SFFAS No. 2, as amended, was promulgated as a result of the Federal Credit Reform Act of 1990 (FCRA). The
primary purpose of the FCRA is to more accurately measure the cost of federal credit programs, and to place the cost
of such credit programs on a basis equivalent with other federal spending. The FCRA requires that the ultimate costs
of a credit program be calculated and the budgetary resources obtained before the direct loan obligations are
incurred. To accomplish this, the Department first predicts or estimates the future performance of direct and
guaranteed loans when preparing its annual budget. The data used for these budgetary estimates are reestimated at
the fiscal year-end to reflect changes in actual loan performance and actual interest rates in effect when the loans
were issued. The reestimated data reflect adjustments for market risks, asset performance, and other key variables
and economic factors. The reestimated data are then used to report the cost of the loans disbursed under the direct or
guaranteed loan program as a “Program Cost” in the Department’s Statements of Net Cost.

Cash flows associated with the Department’s credit programs generally include disbursements, repayments,
repurchases, fees, recoveries, interest, dividends, proceeds from sales of instruments, borrowings from Treasury,
negative subsidy, and the subsidy cost received from the program accounts. Security-level data and assumptions used
as the basis for cash flow model forecasts and program performance are drawn from widely available market sources,
as well as information published by investees. Key inputs to the cash flow forecasts include:

•   Security characteristics such as unpaid principal balance, coupon rate, weighted-average loan age, issued bond
    balance, credit rating, maturity date, principal and interest payment schedules, priority of payments, and
    performance of underlying collateral
•   Department actions as well as changes in legislation
•   Forecast prepayment rates and default rates
•   Forecast dividend payments
•   Expected escrow conversion and return rates
•   Default and recovery reports published by Moody’s and Standard and Poor’s
•   Other third-party market sources

The recorded subsidy cost associated with each of the Department’s credit programs represents the difference
between the Department’s projected costs of the program and the future cash flows anticipated to be received by the
Department. The subsidy allowance specifically takes into consideration projected repayments and defaults and the
projected cost of borrowings. The allowance is amortized to reflect the difference between projected and actual
financing costs.

The Department’s actions, as well as changes in legislation, may impact estimated future cash flows and related
subsidy costs. The cost or cost savings of a modification is recognized in subsidy costs when the terms of a program
are modified. Workouts are actions taken to maximize repayments of existing credit programs, and the expected
effects on cash flows are included in the original estimate and reestimates of the subsidy cost. Subsidy costs are also
impacted by reestimates which may occur as a result of updates to the original program subsidy cost estimates to
reflect actual cash flows experience, as well as changes in forecasts of estimated future cash flows associated with the
credit program.

I. TAXES, INTEREST, AND OTHER RECEIVABLES, NET
Federal taxes receivable, net, and the corresponding liability due to the General Fund, are not accrued until related
tax returns are filed or assessments are made by the IRS and agreed to by either the taxpayer or the court.
Additionally, the prepayments are netted against liabilities. Accruals are made to reflect penalties and interest on
taxes receivable through the balance sheet date.
Taxes receivable consist of unpaid assessments (taxes and associated penalties and interest) due from taxpayers. The
existence of a receivable is supported by a taxpayer agreement, such as filing of a tax return without sufficient
payment, or a court ruling in favor of the IRS. The allowance reflects an estimate of the portion of total taxes
receivable deemed to be uncollectible.

Compliance assessments are unpaid assessments which neither the taxpayer nor a court has affirmed the taxpayer
owes to the U.S. Government. Examples include assessments resulting from an IRS audit or examination in which
the taxpayer does not agree with the results. Compliance assessment write-offs consist of unpaid assessments for
which the IRS does not expect further collections due to factors such as taxpayers’ bankruptcy, insolvency, or death.
Compliance assessment and related write-offs are not reported on the balance sheet. Statutory provisions require the
accounts to be maintained until the statute for collection expires.

J. PROPERTY, PLANT, AND EQUIPMENT

General

Property, plant, and equipment (PP&E) is composed of capital assets used in providing goods or services. It also
includes assets acquired through capital leases, which are initially recorded at the amount recognized as a liability for
the capital lease at its inception. PP&E is stated at full cost, including costs related to acquisition, delivery, and
installation, less accumulated depreciation. Major alterations and renovations, including leasehold and land
improvements, are capitalized, while maintenance and repair costs are charged to expense as incurred. Costs for
construction projects are recorded as construction-in-progress until completed, and are valued at actual (direct) cost,
plus applied overhead and other indirect costs.

Internal-use software encompasses software design, development, and testing of projects adding significant new
functionality and long-term benefits. Costs for developing internal-use software are accumulated in work in
development until a project is placed into service, and testing and final acceptance are successfully completed. Once
completed, the costs are transferred to depreciable property.

The Department leases land and buildings from the General Services Administration (GSA) to conduct most of its
operations. Such leases do not meet capital lease requirements for financial reporting purposes. GSA charges a
standard level user fee which approximates commercial rental rates for similar properties.

The Department’s bureaus are diverse both in size and in operating environment. Accordingly, the Department’s
capitalization policy provides minimum capitalization thresholds which range from $25,000 to $50,000 for all
property categories except for internal-use software thresholds which range from $50,000 to $250,000. The
Department also uses a capitalization threshold range for bulk purchases: $250,000 to $500,000 for non-
manufacturing bureaus and $25,000 to $50,000 for manufacturing bureaus. Bureaus determine the individual items
that comprise bulk purchases based on Departmental guidance. In addition, the Department’s bureaus may expense
bulk purchases if they conclude that total period costs would not be materially distorted and the cost of capitalization
is not economically feasible.

Depreciation is expensed on a straight-line basis over the estimated useful life of the asset with the exception of
leasehold improvements and capital leases. Leasehold improvements are depreciated over the term of the lease or the
useful life of the improvement, whichever is shorter. Capital leases are depreciated over the estimated life of the asset
or term of the lease, whichever is shorter. Service life ranges (2 to 50 years) are wide due to the Department’s
diversity of PP&E. Land and land improvements, construction in progress, and internal-use software in development
are not depreciated.

Heritage Assets

Multi-use heritage assets are assets of historical significance for which the predominant use is general government
operations. All acquisition, reconstruction, and betterment costs for the Treasury buildings are capitalized as general
PP&E and depreciated over their service life.

K. FEDERAL DEBT AND INTEREST PAYABLE
Debt and associated interest are reported on the accrual basis of accounting. Interest costs are recorded as expenses
when incurred, instead of when paid. Certain Treasury securities are issued at a discount or premium. These
discounts and premiums are amortized over the term of the security using an interest method for all long-term
securities and the straight-line method for short-term securities. The Department also issues Treasury Inflation-
Protected Securities (TIPS). The principal for TIPS is adjusted daily over the life of the security based on the
Consumer Price Index for all Urban Consumers, a widely used measurement of inflation.

L. COMMITMENTS AND CONTINGENCIES
The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose
loans are guaranteed by federal agencies, to extend credit for their own use (refer to the accounting policy above
entitled “Loans and Interest Receivable, Intra-governmental.”) The Department establishes loan commitments
when the Department and other parties fully execute promissory notes in which the Department becomes obligated to
issue such loans immediately or at some future date. The Department reduces loan commitments when the
Department issues the loans or when the commitments expire. Most obligations of the Department give a borrower
the contractual right to a loan or loans immediately or at some point in the future within an agreed upon timeframe.

In accordance with SFFAS No. 5, Accounting for Liabilities of the Federal Government, the Department recognizes
material contingent liabilities when the following criteria are met:


    •    A past event or exchange transaction has occurred
    •    A future cash outflow is probable
    •    A future cash outflow is measurable


The estimated liability recorded by the Department is either a specific amount or a range of amounts. If some amount
within the range is a better estimate than any other amount within the range, that amount is recognized. If no
amount within the range is a better estimate than any other amount, the minimum amount in the range is recognized,
and the range and a description of the nature of the contingency is disclosed. The Department records a contingent
liability related to the GSE SPSPA program, and also follows this policy for loss contingencies that may arise from
claims, assessments, litigations, fines, penalties, and other sources.


If one or more, but not all, of the above criteria for recognition are met, and there is a reasonable possibility of loss,
the Department will disclose, if material, the nature of the contingent liability, along with a range of possible loss, if
estimable, and a description of the nature of the contingency.
M. SPECIAL DRAWING RIGHTS
The SDR is an international reserve asset created by the IMF to supplement its member countries’ official reserves.
Under its Articles of Agreement, the IMF may allocate SDRs to member countries in proportion to their IMF quotas.
Pursuant to the Special Drawing Rights Act of 1968, as amended, the ESF holds all SDRs allocated to or otherwise
acquired by the United States.

Allocations and Holdings

The Department records the SDR holdings as part of “Cash, Foreign Currency, and Other Monetary Assets,” and the
SDR allocations as the “Allocation of Special Drawing Rights” liability when the IMF allocates SDRs to the
Department. The liabilities represent the amount that is payable in the event of liquidation of, or withdrawal by the
United States from, the SDR department of the IMF or cancellation of the SDRs.

SDR holdings increase primarily as a result of IMF SDR allocations. SDR transactions are recorded as incurred. They
include acquisitions and sales of SDRs, interest received on SDR holdings, interest charges on SDRs allocations, and
valuation adjustments. The U.S. Government receives remuneration in SDRs from the IMF based on claims on the
IMF as represented by the U.S. Reserve Position. The remuneration is credited to the ESF which transfers to either
the TGA account or a specified financing account an equivalent amount of dollars plus nominal interest. The
allocations and holdings are revalued monthly based on the SDR valuation rate as calculated by the IMF. The
liabilities are reported as part of Other Liabilities in the balance sheet.

Certificates Issued to the Federal Reserve

The Special Drawing Rights Act of 1968 authorizes the Secretary to issue certificates, not to exceed the value of SDR
holdings, to the FRB in return for dollar amounts equal to the face value of certificates issued. The certificates may be
issued to finance the acquisition of SDRs from other countries or to provide U.S. dollar resources to finance other ESF
operations. Certificates issued are to be redeemed by the Department at such times and in such amounts as the
Secretary may determine, and do not bear interest. Certificates issued to the FRB are reported at their face value
which approximates their carrying value since, under the terms of the agreement, there is no set repayment date and
no interest accrued while certificates remain outstanding.

N. REFUNDS PAYABLE
Refunds payable arise in the normal course of tax administration when it is determined that taxpayers have paid more
than the actual taxes that they owe. Amounts that the Department has concluded to be valid refunds owed to
taxpayers are recorded as a liability entitled “Refunds Payable” on the Balance Sheets, with a corresponding
receivable from the General Fund. This receivable is included as part of Accounts Payable in the Balance Sheets.

O. FEDERAL EMPLOYEE BENEFITS PAYABLE – FECA ACTUARIAL LIABILITY
The Federal Employees’ Compensation Act (FECA) provides income and medical cost protection to covered federal
civilian employees injured on the job, and employees who have incurred a work-related injury or occupational
disease. The FECA program is administered by the DOL which pays valid claims and subsequently seeks
reimbursements from the Department for these paid claims. Generally, the Department reimburses the DOL within
two to three years once funds are appropriated. The FECA liability consists of two components. The first component
is based on actual claims paid by the DOL but not yet reimbursed by the Department. The second component is the
estimated liability for future workers compensation as a result of past events. Both components are reported in
“Other Liabilities” on the Balance Sheets. These future workers’ compensation estimates are generated by applying
actuarial procedures developed to estimate the liability for FECA benefits. The actuarial liability estimates for FECA
benefits include the expected liability for death, disability, medical, and miscellaneous costs for approved
compensation cases. This payable is reported as part of Federal Employee and Veteran Benefits Payable in the
Balance Sheet.

P. ANNUAL, SICK, AND OTHER LEAVE
Annual and compensatory leave earned by the Department’s employees, but not yet used, is reported as an accrued
liability. The accrued balance is adjusted annually to reflect current pay rates. Any portion of the accrued leave for
which funding is not available is recorded as an unfunded liability as reported in “Other Liabilities” on the Balance
Sheets. Sick and other leave are expensed as taken, and the Department does not record a liability for such amounts
because employees do not vest in sick and other leave benefits.

Q. PENSION COSTS, OTHER RETIREMENT BENEFITS, AND OTHER POST-EMPLOYMENT BENEFITS
The Department recognizes the full costs of its employees’ pension benefits, including recognizing imputed costs for
the difference between the estimated service cost and the contributions made by the Department. However, the
assets and liabilities associated with these benefits are recognized by the Office of Personnel Management (OPM)
rather than the Department.

Most employees of the Department hired prior to January 1, 1984, participate in the Civil Service Retirement System
(CSRS), to which the Department contributes seven percent of pay. On January 1, 1987, the Federal Employees’
Retirement System (FERS) went into effect pursuant to Public Law (P.L.) 99-335. Employees hired after December
31, 1983, are automatically covered by FERS and Social Security. A primary feature of FERS is that it offers a savings
plan to which the Department automatically contributes one percent of base pay and matches any employee
contributions up to an additional four percent of base pay. For most employees hired after December 31, 1983, the
Department also contributes the employer’s matching share for Social Security. For the FERS basic benefit, the
Department contributes 11.2 percent for regular FERS employees.

Similar to federal retirement plans, OPM, rather than the Department, reports the assets and liability for future
payments to retired employees who participate in the Federal Employees Health Benefits Program (FEHBP) and
Federal Employees Group Life Insurance (FEGLI) Program. The Department reports the full cost of providing other
retirement benefits (ORB). The Department also recognizes an expense and a liability for other post-employment
benefits (OPEB), which includes all types of benefits, provided to former or inactive (but not retired) employees, their
beneficiaries, and covered dependents. Additionally, one of the Department’s bureaus, OCC, separately sponsors a
defined life insurance benefit plan for current and retired employees, and is the administrator for a private defined
benefit retirement plan, the Pentegra Defined Benefit Plan (PDBP), that provides certain health and life insurance
benefits for certain of its retired employees who meet eligibility requirements.

R. REVENUE AND FINANCING SOURCES
The Department’s activities are financed either through exchange revenue it receives from others or through non-
exchange revenue and financing sources (such as appropriations provided by the Congress and penalties, fines, and
certain user fees collected). User fees primarily include collections from the public for the IRS costs to process
installment agreements and accompanying photocopy and reproduction charges. Exchange revenues are recognized
when earned; i.e., goods have been delivered or services have been rendered. Revenue from reimbursable agreements
is recognized when the services are provided. Non-exchange revenues are recognized when received by the respective
collecting bureau. Appropriations used are recognized as financing sources when related expenses are incurred or
assets are purchased.

The Department also incurs certain costs that are paid in total or in part by other federal entities, such as pension
costs, the FEHBP, and any un-reimbursed payments made from the Treasury Judgment Fund on behalf of the
Department. These subsidized costs are recognized on the Statement of Net Cost, and the imputed financing for these
costs is recognized on the Statement of Changes in Net Position. As a result, there is no effect on net position. Other
non-exchange financing sources such as donations and transfers of assets without reimbursements are also
recognized for the period in which they occurred on the Statements of Changes in Net Position.

The Department recognizes revenue it receives from disposition of forfeited property as non-exchange revenue on the
Statements of Changes in Net Position. The costs related to the Forfeiture Fund program are reported on the
Statements of Net Cost. The Treasury Forfeiture Fund is the special fund account for depositing non-tax forfeiture
proceeds received pursuant to laws enforced or administered by law enforcement bureaus that participate in the
Treasury Forfeiture Fund. Forfeited property balances are reported in “Other Assets” on the Balance Sheets.

S. CUSTODIAL REVENUES AND COLLECTIONS
Cash collected by the Department, primarily from taxes. It does not include revenue collected by other federal
agencies, such as user fees and other receipts, which are remitted for general operating purposes of the U.S.
Government or are earmarked for certain trust funds. The Statements of Changes in Net Position are presented on
the “modified accrual basis.” The Department recognizes revenues as cash is collected, and records a “non-cash
accrual adjustment” representing the net increase or decrease during the reporting period in net revenue-related
assets and liabilities, mainly taxes receivable. The Department also records as revenues non-cash market valuation
changes related to the U.S. Government’s holdings in American International Group, Inc.

T. PERMANENT AND INDEFINITE APPROPRIATIONS
Permanent and indefinite appropriations are used to disburse tax refunds, income tax credits, and child tax credits.
These appropriations are not subject to budgetary ceilings established by Congress. Therefore, refunds payable at
year end are not subject to funding restrictions. Refund payment funding is recognized as appropriations are used.
Permanent indefinite authority for refund activity is not stated as a specific amount and is available for an indefinite
period of time. Although funded through appropriations, refund activity, in most instances, is reported as a custodial
activity of the Department, since refunds are, in substance, a custodial revenue-related activity resulting from
taxpayer overpayments of their tax liabilities.

The Department also has two permanent and indefinite appropriations related to debt activity. One is used to pay
interest on the public debt securities; the other is used to redeem securities that have matured, been called, or are
eligible for early redemption. These accounts are not annual appropriations and do not have refunds. Debt activity
appropriations are related to the Department’s liability and are reported on the Department’s Balance Sheet.
Permanent indefinite authority for debt activity is available for an indefinite period of time.

The Department also has permanent and indefinite appropriations to fund increases in the projected subsidy costs of
credit programs as determined by the reestimation process required by the FCRA. The Department’s renewable
energy project is also covered by permanent indefinite appropriations.
Additionally, the Department has other permanent and indefinite appropriations to make certain payments on behalf
of the U.S. Government. These appropriations are provided to make payments to the FRB for fiscal services provided,
and to the financial institutions for services provided as financial agents of the U.S. Government. They also include
appropriations provided to make other disbursements on behalf of the U.S. Government, including payments made to
various parties as a result of certain claims and judgments rendered against the United States.

U. INCOME TAXES
As an agency of the U.S. Government, the Department is exempt from all income taxes imposed by any governing
body, whether it is a federal, state, commonwealth, local, or foreign government.

V. USE OF ESTIMATES
The Department has made certain estimates and assumptions relating to the reporting of assets, liabilities, revenues,
expenses, and the disclosure of contingent liabilities to prepare its financial statements. Actual results could differ
from these estimates. It is possible that the results of operations, cash flows or the financial position of the
Department could be materially affected in future periods by adverse changes in the outlook for the key assumptions
underlying management’s estimates. Significant transactions subject to estimates include loan and credit program
receivables, investments in GSEs and other non-federal securities and related impairment, tax receivables, loan
guarantees, depreciation, liability for liquidity commitment to GSEs, imputed costs, actuarial liabilities, cost and
earned revenue allocations, contingent legal liabilities, and credit reform subsidy costs.

The Department accounts for all of its TARP and non-TARP credit program receivables in accordance with credit
reform accounting (refer to the accounting policy above entitled “Credit Program Receivables,”). These receivables
are derived using credit reform modeling which is subject to the use of estimates. The Department recognizes the
sensitivity of credit reform modeling to slight changes in certain model assumptions, and uses regular review of
model factors, statistical modeling, and annual reestimates to reflect the most accurate cost of the credit programs to
the U.S. Government. The purpose of reestimates is to update original program subsidy cost estimates to reflect
actual cash flow experience as well as changes in forecasts of future cash flows. Forecasts of future cash flows are
updated based on actual program performance to date, additional information about the portfolio, additional publicly
available relevant historical market data on securities performance, revised expectations for future economic
conditions, and enhancements to cash flow projection methods.

The forecasted cash flows used to determine these credit program amounts are sensitive to slight changes in model
assumptions, such as general economic conditions, specific stock price volatility of the entities in which the
Department has an equity interest, estimates of expected default, and prepayment rates. Forecasts of financial results
have inherent uncertainty. The TARP Credit Program Receivables, Net line item on the Balance Sheets is reflective of
relatively illiquid, troubled assets whose values are particularly sensitive to future economic conditions and other
assumptions. Additional discussion related to sensitivity analysis can be found in the Management’s Discussion and
Analysis section of this AFR.

The liabilities to the GSEs related to the SPSPA is a contingent liquidity commitment, predicated on the future
occurrence of an excess of liabilities and minimum capital reserve amounts, as defined, over the assets of either GSE
at the end of any reporting quarter, and are probable liabilities of the Department. The Department performs annual
valuations, as of September 30, on the preferred stock and warrants in an attempt to provide a “sufficiently reliable”
estimate of the outstanding commitments in order for the Department to record the remaining liability in accordance
with SFFAS No. 5.

The valuations incorporated various forecasts, projections and cash flow analyses to develop an estimate of probable
liability. Any changes in valuation, including impairment, are recorded and disclosed in accordance with SFFAS No.
7, Accounting for Revenue and Other Financing Sources. Since the valuation is an annual process, the change in
valuation of the preferred stock and warrants are deemed usual and recurring. The GSEs contingent liability is
assessed annually and recorded at the gross estimated amount, without considering the increase in preferred stock
liquidity preference, future dividend payments, or future commitment fees, due to the uncertainties involved.

Estimation of such complex and long-duration contingencies is subject to uncertainty, and it is possible that new
developments will adversely impact ultimate amounts required to be funded by the Department under agreements
between the Department and each GSE. Specifically, the occurrence of future shareholder deficits, which ultimately
determines the Department’s liabilities to the GSEs, is most sensitive to future changes in the housing price index.

W. OTHER-THAN-TEMPORARY IMPAIRMENTS
A decline in the market value (either due to credit, price or currency) of any investment below cost that is deemed to
be other-than-temporary is accounted for as an impairment and the carrying value is reduced to fair value for
financial reporting purposes. To determine whether an impairment is other-than-temporary, the Department
considers whether it has the ability and intent to hold the investment until a market price recovery, and considers
whether evidence indicating the cost of the investment is recoverable outweighs evidence to the contrary.

X. CREDIT, MARKET AND FOREIGN CURRENCY RISK
Credit risk is the potential, no matter how remote, for financial loss from a failure of a borrower or counterparty to
perform in accordance with underlying contractual obligations. The Department takes on possible credit risk when it
makes direct loans or credits to foreign entities or becomes exposed to institutions which engage in financial
transactions with foreign countries. The following programs of the Department entail credit risk: monetary assets
held; committed but undisbursed direct loans; liquidity commitment to the GSEs; GSE obligations obtained under
the HFA Initiative (the NIBP and TCLP); investments, loans, and other credit programs of the TARP; programs
including the CDFI Fund, SBLF, and certain portions of the Department’s participation in the IMF; and the Terrorism
Risk Insurance Program.

Except for the Terrorism Risk Insurance Program, the Department’s activities focus on the underlying problems in
the credit markets, and the ongoing instability in those markets exposes the Department to potential costs and losses.
The extent of the risk assumed by the Department is described in more detail in the notes to the financial statements
and, where applicable, is factored into credit reform models and reflected in fair value measurements. Given the
history of the Department with respect to such exposure and the financial policies in place in the U.S. Government
and other institutions in which the United States participates, the Department’s expectation of credit losses is
nominal.

For Emergency Economic Stabilization Act (EESA) programs, the statute requires that the budgetary costs of the
troubled assets and guarantees of troubled assets be calculated by adjusting the discount rate for market risks.
Within the TARP programs, the Department has invested in many assets that would traditionally be held by private
investors and their valuation would inherently include market risk. Accordingly, for all TARP direct loans, equity
investments, and other credit programs, the Department calculates a Market Risk Adjusted Discount Rate (MRADR).
Therefore, the Department’s cost estimates for the TARP programs are adjusted for unexpected loss and the
estimated risk of expected cash flows. Under SFFAS No. 2, including market risk in the cash flow estimates is
consistent with the type of assets being valued. The inclusion of the MRADR is the mechanism for deriving a fair
value of the assets. As directed by Congress, a MRADR is also used in the credit reform model for certain portions of
the Department’s participation in the IMF.

The Department faces certain risks and uncertainties as a result of holding securities denominated in foreign
currency. The price of holdings of such securities may widely fluctuate as a result of volatility in foreign currency
markets and changes in real and perceived credit of the Department’s counterparties.

Y. EARMARKED FUNDS
The Department has accounted for revenues and other financing sources for earmarked funds separately from other
funds. Earmarked funds are financed by specifically identified revenues, often supplemented by other financing
sources, which remain available over time. These specifically identified revenues and other financing sources are
required by statute to be used for designated activities or purposes. SFFAS No. 27, Identifying and Reporting
Earmarked Funds, defines the following three criteria for determining an earmarked fund: (i) a statute committing
the U.S. Government to use specifically identified revenues and other financing sources not used in the current period
for future use to finance the designated activities, benefits, or purposes; (ii) explicit authority for the earmarked fund
to retain revenues and other financing sources not used in the current period for future use to finance the designated
activities, benefits, or purposes; and (iii) a requirement to account for and report on the receipt, use, and retention of
the revenues and other financing sources that distinguished the earmarked fund from the U.S. Government’s general
revenues.

Z. ALLOCATION TRANSFERS
The Department is a party to allocation transfers with other federal agencies as both a transferring (parent) entity
and/or a receiving (child) entity. Allocation transfers are legal delegations by one department of its authority to
obligate budget authority and outlay funds to another department. A separate fund account (allocation account) is
created in the U.S. Treasury as a subset of the parent fund account for tracking and reporting purposes. All allocation
transfers of balances are credited to this account, and subsequent obligations and outlays incurred by the child entity
are charged to this allocation account as they execute the delegated activity on behalf of the parent. Parent federal
agencies report both the proprietary and budgetary activity and the child agency does not report any financial activity
related to budget authority allocated from the parent federal agency to the child federal agency.

The Department allocates funds, as the parent, to the Department of Energy. Also, the Department receives
allocation transfers, as the child, from the Agency for International Development, General Services Administration,
and Department of Transportation.

OMB allows certain exceptions to allocation reporting for certain funds. Accordingly, the Department has reported
certain funds, including the Agency for International Development and Executive Office of the President funds, for
which the Department is the child in the allocation transfer but, in compliance with OMB guidance (Circular No. A-
136, II.4.2, question 5, for three exceptions), will report all activities relative to these allocation transfers in the
Department’s financial statements.

AA. FIDUCIARY ACTIVITIES
Fiduciary activities are the collection or receipt, and the management, protection, accounting, investment, and
disposition by the U.S. Government of cash or other assets in which non-Federal individuals or entities have an
ownership interest that the U.S. Government must uphold. Fiduciary cash and other assets are not assets of the U.S.
Government.

AB. RELATED PARTIES AND OTHER ENTITIES
The primary “related parties” with whom the Department conducts business are other federal agencies, mainly
through the normal lending activities of the BPD and the FFB. These activities are disclosed in the financial
statements. Additionally, the Secretary serves on the FHFA Oversight Board, and consults with the Director of FHFA
on matters involving Fannie Mae and Freddie Mac. This provides the Department a voice in the FHFA’s actions as
the conservator for Fannie Mae and Freddie Mac. The Department has no transactions with FHFA, but rather
transacts directly with the GSEs. The Department also utilizes the services of the FRBs to execute a variety of
transactions on behalf of the BPD and the ESF. Because of the magnitude and variety of services provided, the
following provides an overview of the FRBs’ purpose, governance, and the various services provided on behalf of the
Department.

Federal Reserve System
The Federal Reserve System (FR System) was created by Congress under the Federal Reserve Act of 1913. The FR
System consists of the Federal Reserve Board of Governors (Board), the Federal Open Market Committee (FOMC),
and the FRBs. Collectively, the FR System serves as the nation’s central bank and is responsible for formulating and
conducting monetary policy, issuing and distributing currency (Federal Reserve Notes), supervising and regulating
financial institutions, providing nationwide payments systems (including large-dollar transfers of funds, automated
clearinghouse (ACH) operations, and check collection), providing certain financial services to federal agencies and
fiscal principals, and serving as the U.S. Government’s bank. Monetary policy includes actions undertaken by the FR
System that influence the availability and cost of money and credit as a means of helping to promote national
economic goals. The FR System also conducts operations in foreign markets in order to counter disorderly conditions
in exchange markets or to meet other needs specified by the FOMC to carry out its central bank responsibilities. The
FR System is not included in the federal budget. It is considered an independent central bank, and its decisions are
not ratified by the executive branch of the U.S. Government.

The Department interacts with the FRBs in a variety of ways, including the following:
•   The FRBs serve as the Department’s fiscal agent and depositary, executing banking and other financial
    transactions on the Department’s behalf. The Department reimburses the FRBs for these services, the cost of
    which is included on the Departments’ Statements of Net Costs.
•   The FRBs hold Treasury and other federal securities in the FRBs’ System Open Market Account (SOMA) for the
    purpose of conducting monetary policy.
•   The FRBs hold gold certificates issued by the Department in which the certificates are collateralized by gold.
•   The FRBs hold SDR certificates issued by the Department which are collateralized by SDRs.
•   The FRBs are required by Board policy to transfer their excess earnings to the Department on behalf of the U.S.
    Government.

The Department also consults with the FR System on matters affecting the economy and certain financial stability
activities. The above financial activities involving the Department are accounted for and disclosed in the
Department’s financial statements. In accordance with SFFAC No. 2, Entity and Display, the FR Systems’ assets,
liabilities, and operations are not into the Department’s financial statements.

Federal Reserve System Structure

The Board is an independent organization governed by seven members who are appointed by the President and
confirmed by the Senate. The full term of a Board member is 14 years, and the appointments are staggered so that
one term expires on January 31 of each even-numbered year. The Board has a number of supervisory and regulatory
responsibilities for institutions including, among others, state-chartered banks that are members of the FR System,
bank holding companies, and savings and loan holding companies. In addition, the Board has general supervisory
responsibilities for the 12 FRBs, and issues currency (Federal Reserve Notes) to the FRBs for distribution.

The FOMC is comprised of the seven Board members and five of the 12 FRB presidents, and is charged with
formulating and conducting monetary policy primarily through open market operations (the purchase and sale of
certain securities in the open market), the principal tool of national monetary policy. These operations affect the
amount of reserve balances available to depository institutions, thereby influencing overall monetary and credit
conditions. The 12 FRBs are chartered under the Federal Reserve Act, which requires each member bank to own the
capital stock of its FRB. Supervision and control of each FRB is exercised by a board of directors, of which three are
appointed by the Board of Governors of the FR System, and six are elected by their member banks.

The FRBs participate in formulating and conducting monetary policy, distribute currency and coin, and serve as fiscal
agents for the Department, other federal agencies and fiscal principals. Additionally, the FRBs provide short-term
loans to depository institutions and loans to participants in programs or facilities with broad-based eligibility in
unusual and crucial circumstances when approved by the Board.

Federal Reserve System Assets and Liabilities

The FRBs hold Treasury and other securities in the SOMA for the purpose of conducting monetary policy. Treasury
securities held by the FRBs totaled $1.6 trillion and $1.7 trillion at September 30, 2012 and 2011, respectively. These
assets are generally subject to the same market (principally interest-rate) and credit risks as other financial
instruments. In the open market, the FR System purchases and sells Treasury securities as a mechanism for
controlling the money supply.

The FRBs have deposit liabilities with Treasury and depository institutions. The FRBs issue Federal Reserve Notes,
the circulating currency of the United States, which are collateralized by the Treasury securities and other assets held
by the FRBs.

Financial and other information concerning the FR System, including financial statements for the Board and the
FRBs, may be obtained at http://www.federalreserve.gov.

FRB Residual Earnings Transferred to the Department

FRBs generate income, from interest earned on securities, reimbursable services provided to federal agencies, and the
provision of priced services to depository institutions as specified by the Monetary Control Act of 1980. Although the
FRBs generate earnings from carrying out open market operations (via the earnings on securities held in the SOMA
account), their execution of these operations is for the purpose of accomplishing monetary policy rather than
generating earnings. Each FRB is required by Board policy to transfer to the Department its residual (or excess)
earnings, after providing for the cost of operations, payment of dividends, and reservation of an amount necessary to
equate surplus with paid-in capital. These residual earnings may vary due to, among other things, changes in the
SOMA balance levels that may occur in conducting monetary policy. In the event of losses, or a substantial increase
in capital, an FRB will suspend its payments to the U.S. Treasury until such losses or increases in capital are
recovered through subsequent earnings. The FRB residual earnings of $82.0 billion and $82.5 billion for fiscal years
ended September 30, 2012 and 2011, respectively, are reported as custodial revenues on the Department’s Statements
of Changes in Net Position. They constituted three percent of the Department’s total custodial revenues collected in
fiscal years 2012 and 2011. “Taxes, Interest and Other Receivables, Net includes a receivable for FRB’s residual
earnings which represents the earnings due to the U.S. Treasury as of September 30, but not collected by the U.S.
Treasury until after the end of the month.


PART 3. OTHER NOTES TO THE FINANCIAL STATEMENTS
(THE INFORMATION PROVIDED IN THIS SECTION IS DERIVED FROM THE DEPARTMENT’S AGENCY
FINANCIAL REPORT FINANCIAL STATEMENT FOOTNOTES.)
A. FR NOTES REPORT NOTE 18 – CONTINGENCIES (TEXT DATA)

LEGAL CONTINGENCIES
The Department is a party in various administrative proceedings, legal actions, and claims, including equal
opportunity matters which may ultimately result in settlements or decisions adverse to the U.S. Government. These
contingent liabilities arise in the normal course of operations and their ultimate disposition is unknown. The
Department has disclosed contingent liabilities where the conditions for liability recognition have not been met and
the likelihood of unfavorable outcome is more than remote. The Department does not accrue for possible losses
related to cases where the potential loss cannot be estimated or the likelihood of an unfavorable outcome is less than
probable.

In some cases, a portion of any loss that may occur may be paid by the Department’s Judgment Fund, which is
separate from the operating resources of the Department. For cases related to the Contract Disputes Act of 1978 and
awards under federal anti-discrimination and whistle-blower protection acts, the Department must reimburse the
Judgment Fund from future appropriations.

The Department had one contingent liability in fiscal year 2012 related to legal action taken in the case of Cobell v.
Salazar where losses are determined to be probable. In this case, the parties agreed to a total settlement of $3.4
billion. Specific details of this litigation case are provided below.

In the opinion of the Department’s management and legal counsel, based on information currently available, the
expected outcome of other legal actions, individually or in the aggregate, will not have a materially adverse effect on
the Department’s financial statements, except for the pending legal actions described below which may have a
materially adverse impact on the financial statements depending on the outcomes of the cases.

Pending Legal Actions

• Cobell et al. v. Salazar et al. (formerly Cobell v. Kempthorne): Native Americans allege that the Department of the
  Interior and the Department of the Treasury have breached trust obligations with respect to the management of the
  plaintiffs’ individual Indian monies. In August 2008, the Federal District Court issued an opinion awarding $455
  million to the plaintiffs. This decision was overturned in July 2009. The Appellate Court found that the U.S.
  Government owes a cost-effective accounting, in scale with available funds.

  In December 2009, the parties agreed to settle the plaintiff’s claims, as well as claims for mismanagement of assets
  and land that were not asserted in the case, for $1.5 billion. The U.S. Government also agreed to pay an additional
  amount of up to $1.9 billion to purchase certain land interests owned by Native Americans. The Department of the
  Interior, jointly named in the case, accrued the entire $3.4 billion as a contingent liability in fiscal year 2011 upon
  President Obama’s signing of legislation authorizing the settlement in December 2010. Accordingly, the
  Department of the Treasury will not accrue any portion of this liability. Several class members appealed the
  settlement however, in May 2012, the Appellate Court upheld the District Court’s decision approving the
  settlement. Appellants filed petitions for certiorari to the Supreme Court. Final approval of the settlement will not
  occur until the appeals from individuals challenging the settlement have run their course.

• Tribal Trust Fund Cases: Numerous cases have been filed in the U.S. District Courts in which Native American
  Tribes seek a declaration that the United States has not provided the tribes with a full and complete accounting of
  their trust funds, and seek an order requiring the U.S. Government to provide such an accounting. In addition,
  there are a number of other related cases seeking damages in the U.S. Court of Federal Claims, which do not name
  the Department as a defendant. During fiscal year 2012, a number of tribal trust fund cases settled for an aggregate
  settlement amount totaling $754 million, which was paid from the Judgment Fund. The U.S. Government is
  currently in discussion with counsel representing most of the remaining plaintiff tribes with tribal trust fund cases
  pending against the United States about the feasibility of an out-of-court settlement. Plaintiff tribes in several of
  the pending cases have chosen to pursue active litigation, rather than settlement discussion, and the U.S.
  Government is vigorously litigating those cases. The Department is unable to determine the likelihood of an
  unfavorable outcome or an estimate of potential loss at this time.
• Amidax Trading Group v. S.W.I.F.T.: Plaintiffs allege that the Department’s Terrorist Finance Tracking Program
  has involved unlawful disclosure of information by the Society for Worldwide Interbank Financial
  Telecommunications (S.W.I.F.T.). Defendants include the Department of the Treasury as well as several Treasury
  officials. The case was dismissed by the District Court in February 2009, and the plaintiff subsequently appealed
  that ruling to the Court of Appeals for the Second Circuit. The parties completed the appellate briefing, and the oral
  argument occurred in July 2010. In December 2011, the Second Circuit ruled in favor of the defendants, affirming
  the District Court and, in July 2012, the Second Circuit denied the plaintiff’s petition for rehearing. It is unclear
  whether the plaintiff will file a petition of certiorari with the Supreme Court, but the plaintiff has obtained an
  extension of the deadline, until December 24, 2012, to seek Supreme Court review. The Department is unable to
  determine the likelihood of an unfavorable outcome or an estimate of potential loss at this time.
• James X. Bormes v. United States of America: The complaint alleges that the government willfully violated certain
  provisions of the Fair and Accurate Credit Transaction Act (FACTA) P.L. 108-159 in that the transaction
  confirmation received by the complainant from Pay.gov improperly included the expiration date of the credit card
  used for that transaction. The complaint does not state the amount of damages sought on behalf of the class
  beyond asserting that each class member would be entitled to $100 to $1,000 in statutory damages. In a letter sent
  to the Department of Justice, the plaintiff proposed a fund of $30 million for just the Illinois class members.

  In July 2009, the U.S. District Court for the Northern District of Illinois granted the U.S. Government’s motion to
  dismiss this case for lack of an unequivocal waiver of sovereign immunity. In November 2010, the U.S. Court of
  Appeals for the Federal Circuit reversed the District Court’s decision and directed that the case be remanded back
  to the District Court for further proceedings. The U.S. Government’s petition for a rehearing of that decision was
  denied by the Federal Circuit in March 2011. In January 2012, the U.S. Supreme Court granted the U.S.
  Government a writ of certiorari concerning this decision. The case was argued on October 2, 2012, and a decision
  by the U.S. Supreme Court is pending. The Department is unable to determine the likelihood of an unfavorable
  outcome or an estimate of potential loss at this time.

• Other Legal Actions: The Department is also involved in employment related legal actions (e.g., matters alleging
  discrimination and other claims before the Equal Employment Opportunity Commission, Merit System Protection
  Board, etc.) for which an unfavorable outcome is reasonably possible, but for which an estimate of potential loss
  cannot be determined at this time. It is not expected that these cases will have a material adverse effect on the
  Department’s financial position or results.


OTHER CONTINGENCIES

Terrorism Risk Insurance Program

The Terrorism Risk Insurance Act (TRIA), signed into law in November 2002, was enacted to address market
disruptions resulting from terrorist attacks on September 11, 2001. TRIA helps to ensure available and affordable
commercial property and casualty insurance for terrorism risk, and simultaneously allows private markets to
stabilize. The authority to pay claims under the Terrorism Risk Insurance Program (TRIA Program) is activated upon
the certification of an “act of terrorism” by the Secretary in concurrence with the Secretary of State and the Attorney
General. If a certified act of terrorism occurs, insurers may be eligible to receive reimbursement from the U.S.
Government for insured losses above a designated deductible amount. Insured losses above this amount will be
shared between insurance companies and the U.S. Government. TRIA also gives the Department authority to recoup
federal payments made under the TRIA Program through policyholder surcharges under certain circumstances, and
contains provisions designed to manage litigation arising from or relating to a certified act of terrorism. There were
no claims under TRIA as of September 30, 2012 or 2011.



B. FR NOTES REPORT NOTE 19 – COMMITMENTS (TEXT DATA)

Loan Commitments

The Department, through FFB, makes loan commitments with federal agencies, or private sector borrowers whose
loans are guaranteed by federal agencies, to extend them credit for their own use (refer to Part 2.L). As of September
30, 2012 and 2011, the Department had loan commitments totaling $86.2 billion and $95.5 billion, respectively.

Multilateral Development Banks

The Department, on behalf of the United States, has subscribed to capital for certain multilateral development banks
(MDBs), portions of which are callable under certain limited circumstances to meet the obligations of the respective
MDB. There has never been, nor is there anticipated, a call on the U.S. commitment for these subscriptions.
Exchange Stabilization Agreement

In April 1994, the Department signed the North American Framework Agreement (NAFA), which includes the
Exchange Stabilization Agreement (ESA) with Mexico. The Department, through the ESF, has a standing swap line
for $3.0 billion with Mexico under the NAFA and its implementing ESA. The amounts and terms (including the
assured source of repayment) of any borrowing under NAFA and ESA will have to be negotiated and agreed to before
any actual drawing can occur. The ESA does provide sample clauses that state that transactions shall be exchange
rate neutral for the ESF, and shall bear interest based on a then current rate tied to U.S. Treasury bills. There were no
drawings outstanding on the ESF swap line as of September 30, 2012 and 2011. The Department renewed the ESA
through December 14, 2012.

New Arrangements to Borrow
The Supplemental Appropriations Act of 2009 (P.L. 111-32) provided the authorization and appropriations for an
increase in the United States’ participation in the New Arrangements to Borrow (NAB). Because the U.S. financial
participation in the IMF is denominated in SDRs, P.L. 111-32 authorized and appropriated up to the dollar equivalent
of SDR 75 billion to implement this commitment. The United States agreed in May 2010 that its participation in the
NAB would increase from SDR 6.6 billion to SDR 69.1 billion, pursuant to IMF Executive Board Decision No. 14577-
(10/35). Total U.S. participation in the NAB of SDR 69.1 billion was equivalent to $106.5 billion and $107.9 billion as
of September 30, 2012 and 2011, respectively.

Contingent Liability to GSEs

The SPSPA agreements between the Department and each GSE, which have no expiration date, provide for the
Department to disburse funds to the GSEs if, at the end of any quarter, the FHFA determines that the liabilities
exceed its assets. At September 30, 2012, the Department recorded a contingent liability of $9.0 billion with a
projected maximum commitment payable to the GSEs of $282.3 billion. The recorded contingent liability of $316.2
billion at September 30, 2011 constituted the maximum commitment payable at the end of that year. Such accruals
are adjusted as new information develops or circumstances change.


C. FR NOTES REPORT NOTE 22 - EARMARKED FUNDS (TEXT DATA)

Bureau                      Fund Code                            Fund Title/Description
Exchange Stabilization Fund (ESF)
ESF                         20X4444                              Exchange Stabilization Fund

D.C. Pensions
DCP                                20X1713                       Federal payment - D.C. Judicial Retirement
DCP                                20X1714                       Federal payment - D.C. Federal Pension Fund
DCP                                20X5511                       D.C. Federal Pension Fund
DCP                                20X8212                       D.C. Judicial Retirement and Survivor's Annuity Fund

Public Enterprise/Revolving Funds
BEP                         20X4502                              Bureau of Engraving and Printing Fund
MNT                         20X4159                              Public Enterprise Fund
OCC                         20X8413                              Assessment Funds
OCC                         20X4264                              Assessment Funds
IRS                         20X4413                              Federal Tax Lien Revolving Fund

Other Earmarked Funds
BPD                                20X5080                       Gifts to Reduce Pubic Debt
DO                                 20X5816                       Confiscated and Vested Iraqi Property and Assets
DO                                 20X8790                       Gifts and Bequests Trust Fund
FMD                               20X5081                       Presidential Election Campaign
FMD                               20X8902                       Esther Cattell Schmitt Gift Fund
FMD                               9515585                       Travel Promotion Fund, Corp for Travel Promotion
FMD                               9525585                       Travel Promotion Fund, Corp for Travel Promotion
FMD                               95X5585                       Travel Promotion Fund, Corp for Travel Promotion
FMS                               206/75445                     Debt Collection Special Fund
FMS                               207/85445                     Debt Collection Special Fund
FMS                               208/95445                     Debt Collection Special Fund
FMS                               209/05445                     Debt Collection Special Fund
FMS                               200/15445                     Debt Collection Special Fund
FMS                               201/25445                     Debt Collection Special Fund
FMS                               202/35445                     Debt Collection Special Fund
IRS                               20X5510                       Private Collection Agency Program
IRS                               20X5433                       Informant Reimbursement
OFR                               20X5590                       Financial Research Fund
TFF                               20X5697                       Treasury Forfeiture Fund

Pursuant to the legal authority found in section 10 of the Gold Reserve Act of 1934, as amended, the ESF may
purchase or sell foreign currencies, holds U.S. foreign exchange and SDR assets, and may provide financing to foreign
governments and foreign entities. The ESF accounts for and reports its holdings to FMS on the Standard Form 224,
“Statement of Transactions,” and provides other reports to Congress. Interest on SDRs in the IMF, Investments in
U.S. Securities (BPD), and Investments in Foreign Currency Assets are its primary sources of revenue. The ESF’s
earnings and realized gains on foreign currency assets represent inflows of resources to the government, and the
interest revenues earned from U.S. Securities are the result of intra-Departmental flows.

D.C. Pension Funds provide annuity payments for retired D.C. teachers, police officers, judges, and firefighters. The
sources of revenues are through intragovernmental flows including annual appropriations and interest earnings from
investments, as well as inflows of resources to the government of employee contributions. All proceeds are
earmarked.

The BEP, Mint, OCC, and IRS operate “public enterprise/revolving funds” to account for their respective revenues
and expenses. 31 USC § 5142 established the revolving fund for BEP to account for revenue and expenses related to
the currency printing activities. P.L. 104-52 (31 USC § 5136) established the Public Enterprise Fund for the Mint to
account for all revenue and expenses related to the production and sale of numismatic products and circulating
coinage. Revenues and other financing sources at the Mint are mainly from the sale of numismatic and bullion
products, and the sale of circulating coins to the FRB system, and represent inflows of resources to the government.
12 USC § 481 established the Assessment Funds for OCC. Revenue and financing sources are from the bank
examinations and assessments for the oversight of the national banks, savings associations, and savings and loan
holding companies. These non-appropriated funds contribute to the inflows of resources to the government to
specifically fund these entity’s operations. 26 USC § 7810 established the Federal Tax Lien Revolving Fund to account
for revenue and expenses from the sale of property foreclosed upon by a holder of a lien. There are minimal
transactions with other government agencies.

There are other earmarked funds at several Treasury bureaus, such as donations to the Presidential Election
Campaign Fund, funds related to the debt collection program, gifts to reduce the public debt, and other enforcement
related activities. Public laws, the U.S. Code, and the Debt Collection Improvement Act established and authorized
the use of these funds. Sources of revenues and other financing sources include contributions, cash and property
forfeited in enforcement activities, public donations, and debt collection, representing inflows to the government.

D. FR NOTES REPORT NOTE 26 - HERITAGE ASSETS (TEXT DATA)

The Department has a total of fifteen multi-use heritage assets for fiscal years 2012 and 2011. The Treasury Complex
(Main Treasury Building and Annex), declared a national historical landmark in 1972, is treated as a multi-use
heritage asset and is expected to be preserved indefinitely. The buildings that house the Mint in Denver, San
Francisco, Fort Knox, and West Point are also considered multi-use heritage assets and included on the National
Register of Historic Places. Additionally, the Mint maintains heritage assets consisting of four coin collections and six
historical artifacts.



E. FR NOTES REPORT NOTE 27 - FIDUCIARY ACTIVITY (TEXT DATA)

Bureau       Fund Code         Authority               Fund Title/Description
BEP          20X6513.013       31 USC 5119             Mutilated Currency Claims Funds
BPD          20X6008           31 USC 3513             Payment Principal & Interest Govt. Agencies
FMD          20X6045           31 USC 3328             Proceeds, Payments of Unpaid Checks
FMD          20X6048           31 USC 3329, 3330       Proceeds of Withheld Foreign Checks
FMD          2015X6078         50 APP. USC 2012        War Claims Fund, Foreign Claims Settlement Commission
FMD          20X6092           31 USC 1321             Debt Management Operations
FMD          20X6104           22 USC 1627             Albanian Claims Fund, Treasury
FMD          20X6133           31 USC 1322             Payment of Unclaimed Moneys
FMD          20X6309           22 USC 1627(a)          Libyan Claims Settlement Fund
FMD          20X6310           22 USC 1627(a)          Libyan Claims Settlement Fund
FMD          20X6311           98 Stat. 1876           Kennedy Center Revenue Bond
FMD          20X6312           22 USC 1627             Iranian Claims Settlement Fund
FMD          20X6314           22 USC 1644g            German Democrat Settlement Fund
FMD          20X6315           22 USC 1645h            Vietnam Claims Settlement Fund
FMD          20X6501.018       31 USC 3513             Small Escrow Amounts
FMD          20X6720           31 USC 3513             SM DIF Account for Dep. & Check Adj.
FMD          20X6830           104 Stat. 1061          Net Interest Payments to/from State
FMD          20X6999           31 USC 3513             Accounts Payable, Check Issue UNDDR
IRS          20X6737           90 Stat. 269-270        Internal Revenue Collections for Northern Mariana Island
IRS          20X6738           31 USC 3513             Coverover Withholdings-U.S. Virgin Islands
IRS          20X6740           31 USC 3515             Coverover Withholdings-Guam
IRS          20X6741           31 USC 3513             Coverover Withholdings-American Samoa
OAS          20X6317.001       22 USC 2431             Belize Escrow, Debt Reduction
OAS          20X6501.018       31 USC 3513             Small Escrow Amounts



F. FR NOTES REPORT NOTE 28B – FINANCING AND HOUSING MARKET STABILIZATION - LIABILITIES
     TO   GOVERNMENT SPONSORED ENTERPRISES (GSES) (TEXT DATA)
Congress established Fannie Mae and Freddie Mac as GSEs to support the supply of mortgage loans. A key function
of the GSEs is to package purchased mortgages into securities, which are subsequently sold to investors.

Leading up to the financial crisis, increasingly difficult conditions in the housing market challenged the soundness
and profitability of the GSEs, thereby undermining the entire housing market. This led Congress to pass the Housing
and Economic Recovery Act (HERA) (P.L. 110-289). This Act created the new FHFA, with enhanced regulatory
authority over the GSEs, and provided the Secretary with certain authorities intended to ensure the financial stability
of the GSEs, if necessary. On September 7, 2008, FHFA placed the GSEs under conservatorship, and the Department
entered into a Senior Preferred Stock Purchase Agreement (SPSPA) with each GSE. These actions were taken to
preserve the GSEs’ assets, ensure a sound and solvent financial condition, and mitigate systemic risks that
contributed to current market instability. The SPSPAs were amended in August 2012 (the amended SPSPAs) which
changed, among other things, the basis by which quarterly dividends are paid by the GSEs to the U.S. Government.
The dividend change in the amended SPSPAs is effective commencing with the quarter ending March 31, 2013.

The actions taken by the Department thus far are temporary, as defined by section 1117 of HERA, and are intended to
provide financial stability. The purpose of the Department’s actions is to maintain the solvency of the GSEs so they
can continue to fulfill their vital roles in the home mortgage market while the Administration and Congress determine
what structural changes should be made. The FHFA director may terminate the conservatorship if safe and solvent
conditions can be established. Draws under the SPSPAs are designed to ensure that the GSEs maintain positive net
worth as a result of any net losses from operations, and also meet taxpayer dividend requirements under the SPSPAs.
The SPSPAs were structured to ensure any draws result in an increased nominal investment as further discussed
below.

Under the SPSPAs, the Department initially received from each GSE: (i) 1,000,000 shares of non-voting variable
liquidation preference senior preferred stock with a liquidation preference value of $1,000 per share, and (ii) a non-
transferrable warrant for the purchase, at a nominal cost, of 79.9 percent of common stock on a fully-diluted basis.
The warrants expire on September 7, 2028. Through December 31, 2012, the senior preferred stock accrues dividends
at 10.0 percent per year, payable quarterly. Under the amended SPSPAs, the quarterly dividend payment will change
from a 10.0 percent per annum fixed rate dividend to an amount equivalent to the GSE’s positive net worth above a
capital reserve amount. The capital reserve amount is initially set at $3.0 billion for calendar year 2013, and declines
by $600 million at the beginning of each calendar year thereafter until it reaches zero by calendar year 2018. The
GSEs will not pay a quarterly dividend if their positive net worth is not above the required capital reserve threshold;
in such cases, the Department may be required to provide funding pursuant to the amended SPSPAs.

Cash dividends of $18.4 billion and $15.6 billion were received during fiscal years ended September 30, 2012 and
2011, respectively. In addition, beginning in fiscal year 2011, the GSEs were scheduled to begin paying the
Department a “Periodic Commitment Fee” (PCF) on a quarterly basis, payable in cash or via an increase to the
liquidation preference. This fee may be waived by the Department for up to one year at a time if warranted by adverse
mortgage market conditions. The Department waived the PCF payments for calendar years 2012 and 2011 given that
the imposition of the PCF at that time would not fulfill its intended purpose of generating increased compensation to
the American taxpayer. Commencing January 1, 2013, the PCF will no longer be required pursuant to the amended
SPSPAs.

The SPSPAs, which have no expiration date, provide for the Department to disburse funds to the GSEs if, at the end of
any quarter, the FHFA determines that the liabilities of either GSE exceed its assets. The maximum amount available
to each GSE under this agreement was originally $100.0 billion in fiscal year 2008, raised to $200.0 billion in fiscal
year 2009, and replaced in fiscal year 2010 with a formulaic cap. This formulaic cap allows for continued draws for a
three-year period ending December 2012 at amounts that will automatically adjust upwards quarterly by the
cumulative amount of any net deficits realized by either GSE and downward by the GSE’s positive net worth, if any, as
of December 31, 2012, but not below $200.0 billion, and will become fixed at the end of the three-year period. At the
conclusion of this period, the remaining commitment will then be fully available to be drawn per the terms of the
agreements (referred to hereafter as the “Adjusted Caps”). Draws against the funding commitment of the SPSPAs do
not result in the issuance of additional shares of senior preferred stock; instead, the liquidation preference of the
initial 1,000,000 shares is increased by the amount of the draw.

Actual payments to the GSEs for fiscal years ended September 30, 2012 and 2011 were $18.5 billion and $20.8 billion,
respectively. Additionally, $9.0 billion and $316.2 billion were accrued as a contingent liability as of September 30,
2012 and 2011, respectively. This accrued contingent liability is based on the projected future draws under the
SPSPAs. It is undiscounted and does not take into account any of the offsetting dividends which may be received, as
the dividends are owed directly to the General Fund.


ACCOUNTING TREATMENT
Entity Transactions ― The estimated contingent liability to the GSEs accrued pursuant to the SPSPAs is funded
through the Department’s direct appropriations. Therefore, they are reflected at their gross amount as “entity” costs
on the Department’s Statements of Net Cost and in the line item, “Cumulative Results of Operations” on the
Department’s Balance Sheets, without considering the increase in senior preferred stock liquidation preference/fair
value adjustments, future dividend receipts from the GSEs, or any PCFs.

Non-Entity Transactions ― As actual payments are made to the GSEs, they result in increases to the U.S.
Government’s liquidation preference in the GSEs’ senior preferred stock, and thus represent General Fund exchange
revenue reported on the Department’s Statements of Net Cost as “GSEs Non-Entity Cost (Revenue).” The associated
valuation losses and dividends are General Fund-related costs and revenues that are likewise reported as “GSEs Non-
Entity Cost (Revenue).”


SENIOR PREFERRED STOCK AND WARRANTS FOR COMMON STOCK
In determining the fair value of the senior preferred stock and warrants for common stock, the Department relied on
the GSEs’ public filings and press releases concerning its financial statements, projection forecasts, monthly
summaries, quarterly credit supplements, independent research regarding high-yield bond and preferred stock
trading, independent research regarding the GSEs’ common stock trading, discussions with the GSE’s management,
and other information pertinent to the fair valuations. Because of the nature of the instruments, which are not
publicly traded and for which there is no comparable trading information available, the fair valuations rely on
significant unobservable inputs that reflect assumptions about the expectations that market participants would use in
pricing.

The fair value of the senior preferred stock considers the amount of forecasted dividend payments. The fair
valuations assume that a hypothetical buyer would acquire the discounted dividend stream as of the transaction date.
The significant decline in the fair value of the senior preferred stock at September 30, 2012 compared to 2011 is
primarily due to a decrease in expected dividend payments and an increase in the discount rate used in the current
year’s valuation to reflect more of the variable nature of the future cash flows anticipated as a result of the amended
SPSPAs compared to the prior fiscal year.

The fair value of the warrants are impacted by the nominal exercise price and the large number of potential exercise
shares, the market trading of the common stock that underlies the warrants as of September 30, the principal market,
and the market participants. Other discounting factors are the holding period risk related directly to the amount of
time that it will take to sell the exercised shares without depressing the market and the other activity under the
SPSPA.


GSE CONTINGENT LIABILITIES
As part of the fair valuation exercise, the Department prepared a series of long-range forecasts through 2025 to
determine what the implied amount of the total contingent liability to the GSEs under the SPSPAs would be as of
September 30. Since future payments under the SPSPAs are deemed to be probable, the Department estimated a
contingent liability of $9.0 billion as of September 30, 2012. This estimate reflects the projected equity deficits of the
GSEs stemming from credit losses and contractual dividend requirements until December 31, 2012. The estimated
contingent liability as of September 30, 2012 included several case scenarios which resulted in total SPSPA estimates
ranging from $3.5 billion (based on an “optimistic” case scenario) to $22.4 billion (based on an “extreme” case
scenario). The $9.0 billion contingent liability reported as of September 30, 2012 reflects the Department’s best
estimate. This compares to the $316.2 billion contingent liability reported as of September 30, 2011 which was based
on a range of $309.6 billion to $376.1 billion. At September 30, 2012, the maximum remaining potential
commitment to the GSEs for the remaining life of the SPSPAs under the Adjusted Caps was estimated at $282.3
billion, which was based upon case scenario estimates ranging from $274.0 billion to $291.5 billion. The recorded
contingent liability of $316.2 billion at September 30, 2011 constituted the maximum commitment payable under the
Adjusted Caps, minus actual payments made through the end of that fiscal year. Such accruals are adjusted as new
information develops or circumstances change.

Based on the annual valuation of the Department’s estimated future contingent liability, the Department reduced its
estimated liability by $288.7 billion and $22.9 billion at the end of fiscal years 2012 and 2011, respectively, via a
reduction in expense. The significant reduction in this estimated liability at September 30, 2012 compared to 2011 is
primarily due to a forecasted reduction in the amount of future draws needed by the GSEs which, in part, reflects
lower quarterly dividend payments anticipated as a result of the amended provisions of the SPSPAs. The Department
reported this expense reduction as a reduction to entity costs within the Economic Program section of the
Department’s Statements of Net Cost.

In determining the contingent liability estimates, the Department relied on the GSEs’ public filings and press releases
concerning its audited and unaudited financial statements, monthly summaries, quarterly credit supplements,
September 2012 forecast for the years 2012 through 2015 (as provided by FHFA), and discussions with the GSEs’
forecasting team and FHFA. The forecasted draws under the SPSPAs after December 31, 2015 were based on general
guidance provided by the GSE managers as to the key assumptions that were used for subsequent periods. Absent
longer-term financial forecasts from the GSEs and FHFA, the forecasts after 2015 generally assume similar operating
assumptions on the guarantee business and assume a gradual wind-down of the retained portfolios (and
corresponding net interest income) through 2025, as directed under the amended SPSPAs for each GSE to reduce the
maximum balance of its retained mortgage portfolio by 15.0 percent per annum beginning December 31, 2013 (a
change from the 10.0 percent per annum prior to the amended SPSPAs). The maximum balance of the GSEs’ retained
mortgage portfolio is initially set at $650 billion as of December 31, 2012, and is required under the amended SPSPAs
to be reduced to $250.0 billion by December 31, 2018. The Department also relied upon economic and demographic
data from the 2012 Annual Report of the Board of Trustees of the Federal Old-Age and Survivors Insurance and
Federal Disability Insurance Trust Funds and the FHFA’s House Price Index.
Both GSEs reported significantly lower early delinquencies on additions to their credit books on loans originated after
2008. This favorable early delinquency experience is an improvement compared with the loans originated in 2005
through 2008. Incremental draws under the SPSPAs through December 31, 2012 are projected in order to meet the
10.0 percent per annum dividend payment requirement. Under the amended SPSPAs, both GSEs may require
additional draws should they report a net deficit in any quarter commencing with the quarter ending March 31, 2013.

Under the amended SPSPAs, the Department’s forecasts indicate that each GSE will not fully utilize the amount of
funding available under the Adjusted Cap. The Department’s forecasts of future liquidity payments may differ from
actual experience. Future actual liquidity payment levels will depend on numerous factors that are difficult to predict,
including, but not limited to, changes in government policy with respect to the GSEs, the business cycle, inflation,
home prices, unemployment rates, interest rates, changes in housing preferences, home financing alternatives,
availability of debt financing, market rates of guarantee fees, outcomes of loan refinancings and modifications, new
housing programs, and other applicable factors.


REGULATORY ENVIRONMENT
Pursuant to a provision within the Dodd Frank Act, the Secretary conducted a study and developed recommendations
regarding the options for ending the conservatorship. In February 2011, the President delivered to Congress a report
from the Secretary that provided recommendations regarding the options for ending the conservatorship and plans to
wind down the GSEs. To date, Congress has not approved a plan to address the future of the GSEs, thus the GSEs
continue to operate under the direction of their conservator, the FHFA, who’s stated planned objectives are to build a
revitalized infrastructure for the secondary mortgage market and a continued gradual contraction of the GSEs
presence in the secondary mortgage market.

In December 2011, Congress passed the Temporary Payroll Tax Cut Continuation Act of 2011 (TPTCCA), which was
funded by an increase of ten basis points in the GSEs’ guarantee fees beginning April 1, 2012, and is effective through
October 1, 2021. The increased fees are to be remitted to the Department and not retained by the GSEs. On
September 28, 2012, the GSEs remitted to the Department an amount of $35 million as the first payment of these
increased fees covering the period of April 1, 2012 through June 30, 2012. This increase in guarantee fees did not
affect the profitability of the GSEs during that time period.

G. FR NOTES REPORT NOTE 20 – TROUBLED ASSET RELIEF PROGRAM (TARP) DIRECT LOANS AND
    EQUITY INVESTMENTS (TEXT DATA)
The Department administers a number of programs designed to help stabilize the financial system and restore the
flow of credit to consumers and businesses. Through TARP, the Department made direct loans, equity investments,
and entered into other credit programs. On October 3, 2010, TARP’s authority to make new commitments to
purchase or guarantee troubled assets expired.
DIRECT LOAN AND EQUITY INVESTMENT PROGRAMS

Capital Purchase Program

TARP began implementing programs in fiscal year 2009, commencing with the Capital Purchase Program (CPP)
which was designed to help stabilize the financial system by assisting in building the capital base of certain viable U.S.
financial institutions to increase the capacity of those institutions to lend to businesses and consumers and support
the economy. Under this program, the Department invested a total of $204.9 billion and purchased senior perpetual
preferred stock and subordinate debentures from qualifying U.S. controlled banks, savings associations, and certain
bank and savings and loan holding companies (Qualified Financial Institution or QFI). Additionally, the Department
exercised warrants received from non-public QFIs resulting in additional holdings of senior preferred stock (or
subordinated debentures as appropriate). The senior preferred stock has a stated dividend rate ranging from 5.0
percent to 9.0 percent. The dividends are cumulative for bank holding companies and subsidiaries of bank holding
companies, and non-cumulative for others, and payable when and if declared by the institution’s board of directors.
QFIs that are Sub-chapter S corporations (public and non-public) issued subordinated debentures that have a
maturity of 30 years, and interest rates ranging from 7.7 percent to 13.8 percent. QFIs, subject to regulatory approval,
may repay the Department’s investment at any time. For fiscal years 2012 and 2011, repayments and sales of CPP
investments totaled $8.2 billion and $30.2 billion, respectively.

In addition to the senior preferred stock, the Department received warrants from public QFIs to purchase a number
of shares of common stock. The warrants have a ten-year term, and the Department may exercise any warrants held
in whole or in part at any time.

As part of the management of the investments in CPP, the Department entered into certain agreements to exchange
and/or convert existing investments. In fiscal year 2009, the Department entered into an exchange agreement with
Citigroup under which the Department exchanged $25.0 billion of its investment in Citigroup senior preferred stock
for 7.7 billion shares of Citigroup common stock, at $3.25 per share. Between April 2010 and January 2011, the
Department had sold all of its Citigroup common stock held, generating cash proceeds of $31.9 billion, resulting in
proceeds in excess of cost of $6.9 billion (cash proceeds from sales of Citigroup common stock and warrants in fiscal
year 2011 were $15.8 billion, which exceeded cost by $3.9 billion).

The Department entered into other transactions with various financial institutions which generally are in poor
financial condition with a high likelihood of failure. The changes in cost associated with these transactions are
considered workouts rather than modifications, in accordance with SFFAS No. 2, and are captured in the year-end
reestimates.

Of the $8.2 billion in CPP investment repayments and sales during fiscal year 2012, net proceeds of $1.3 billion
resulted from auction sales which stemmed from the Department’s decision in fiscal year 2012 to sell certain CPP
investments to the public in auction sales. Total repayments and sales resulted in net proceeds less than cost of $285
million in fiscal year 2012. Because these auction sales were not considered in the formulation estimate for the CPP
program, a modification was recorded, increasing the cost of the program by $973 million. During fiscal year 2011,
certain financial institutions participating in CPP became eligible to exchange their TARP-held stock investments to
preferred stock in the SBLF program. Because this refinance was not considered in the formulation estimate for the
CPP program, a modification was recorded in fiscal year 2011, resulting in a subsidy cost reduction of $1.0 billion.
The estimated value of the CPP preferred equity investments is based on the net present values of the expected
dividend payments and proceeds from repurchases and sales. The model assumes a probabilistic evolution of each
institution’s asset-to-liability ratio (based on the estimated fair value of the institution’s assets against its liabilities).
Historical volatility is used to scale the likely evolution of each institution’s asset-to-liability ratio. Inputs to the
model include institution specific accounting data obtained from regulatory filings, an institution’s stock price
volatility, historical bank failure information, as well as market prices of comparable securities trading in the market.
The market risk adjustment is obtained through a calibration process to the market value of certain trading securities
of financial institutions within the TARP programs or other comparable financial institutions. The Department
estimates the values and projects the cash flows of warrants using an option-pricing approach based on the current
stock price and its volatility. Investments in common stock which are exchange traded are valued at the quoted
market price as of fiscal year end.

American International Group, Inc. Investment Program

The Department provided assistance to systemically significant financial institutions on a case by case basis in order
to help provide stability to those institutions that were critical to a functioning financial system and were at
substantial risk of failure, as well as to help prevent broader disruption to financial markets. In fiscal year 2009, the
Department invested in AIG which (after being restructured in the same fiscal year) consisted of $41.6 billion of AIG’s
non-cumulative 10.0 percent Series E preferred stock. Additionally, the Department made available to AIG a $29.8
billion equity capital facility and received AIG’s non-cumulative 10.0 percent Series F preferred stock under which
AIG drew $27.8 billion. In January 2011, the Department (in combination with AIG and the FRBNY) restructured the
AIG investments in which it converted the $41.6 billion of Series E preferred stock and $27.8 billion of the Series F
equity capital facility into a $20.3 billion interest in AIG SPVs, and 1.1 billion shares of AIG common stock. The
remaining $2.0 billion of undrawn Series F capital facility was converted to a new equity capital facility that was
subsequently cancelled in fiscal year 2011. Additionally, the credit facility between FRBNY and AIG was terminated,
and the Department (not TARP) on behalf of the General Fund separately received 563 million shares of AIG common
stock. Upon completion of the restructuring, the Department (including TARP) held a combined total of 1.7 billion
shares of AIG common stock, or 92.1 percent of AIG’s common stock equity.

Since the January 2011 restructuring, the Department (including TARP) has sold shares of the AIG common stock in
the open market. During fiscal year 2012, the Department (including TARP) sold 1.2 billion shares of AIG common
stock for $38.2 billion, of which the General Fund and TARP received $13.0 billion and $25.2 billion, respectively. In
fiscal year 2011, the Department (including TARP) sold 200 million shares of AIG common stock for $5.8 billion, of
which the General Fund and TARP received $2.0 billion and $3.8 billion, respectively. For the TARP shares sold, the
proceeds were less than the Department’s cost by $9.9 billion and $1.9 billion for fiscal years 2012 and 2011,
respectively. AIG common shares sold by the General Fund were provided at no cost to the Department. At
September 30, 2012 and 2011, the Department owned 234 million shares and 1.5 billion shares of AIG common stock,
respectively, with a fair value totaling approximately $7.7 billion and $31.9 billion, or 15.9 percent and 76.9 percent of
AIG’s outstanding common stock, respectively. Of this total, TARP owned 154 million shares and 960 million shares,
at September 30, 2012 and 2011, respectively, or 10.5 percent ($5.1 billion fair value) and 50.8 percent ($21.1 billion
fair value) of AIG’s outstanding common stock, respectively. The fair value of the AIG common stock was based on
the New York Stock Exchange (NYSE) quoted market price as of September 30, 2012 and 2011.
In fiscal year 2012, the Department received $9.6 billion in distributions from the AIG SPVs, which fully repaid the
remaining investment balance of $9.3 billion. The Department recorded proceeds in excess of cost of $127 million
plus investment income of $191 million. In fiscal year 2011, the Department received $11.5 billion in distributions
from the AIG SPVs, reduced its AIG SPV outstanding balance by $11.2 billion to $9.3 billion, and received investment
income of $246 million, and recorded capitalized dividend income of $204 million. The SPVs were valued at their
liquidation preference since the value of the underlying assets within the SPVs greatly exceeded the liquidation
preference.

Automotive Industry Financing Program

The Automotive Industry Financing Program (AIFP) was designed to help prevent a significant disruption of the
American automotive industry, which could have had a negative effect on the economy of the United States.

General Motors Company and General Motors Corporation
In fiscal year 2009, the Department provided $49.5 billion to General Motors Corporation (Old GM) through various
loan agreements including the initial loan for general and working capital purposes and the final loan for debtor in
possession (DIP) financing while Old GM was in bankruptcy. During fiscal year 2009, the Department and a newly
created General Motors Company (New GM) extinguished substantially all but $7.1 billion of these initial financing
arrangements, and the Department received $2.1 billion in 9.0 percent cumulative perpetual preferred stock and 60.8
percent of the common equity interest in New GM. Additionally, New GM assumed $7.1 billion of the original DIP
loan which it fully repaid to the Department by the end of fiscal year 2010.

During fiscal year 2011, New GM repurchased its preferred stock for 102.0 percent of its liquidation amount, or $2.1
billion. As part of an initial public offering by New GM in fiscal year 2011, the Department sold approximately 412
million shares of its common stock for $13.5 billion. The sale resulted in net proceeds less than cost of $4.4 billion.
At September 30, 2012 and 2011, the Department held 500 million shares of the common stock of New GM, which
represented approximately 32.0 percent of New GM’s common stock outstanding. The fair value of the New GM
common shares held as of September 30, 2012 and 2011 was $11.4 billion and $10.1 billion, respectively, based on the
NYSE quoted market price.

Chrysler Group LLC and Chrysler Holding LLC
In fiscal year 2009, the Department invested $5.9 billion in Chrysler Holding LLC (Old Chrysler), consisting of $4.0
billion for general and working capital purposes (the general purpose loan) and $1.9 billion in DIP financing while
Old Chrysler was in bankruptcy. Upon entering bankruptcy, a portion of Old Chrysler was sold to a newly created
entity, Chrysler Group LLC (New Chrysler). In fiscal year 2010, under the terms of a bankruptcy agreement, the
initial financing to Old Chrysler was replaced by financing to New Chrysler in which the Department funded a $4.6
billion loan to New Chrysler, with a commitment to fund it an additional $2.1 billion. Also, New Chrysler assumed
$500 million of the Old Chrysler general purpose loan. In fiscal year 2011, New Chrysler repaid the $5.1 billion loan
principal ($4.6 billion funded and $500 million assumed from Old Chrysler) and interest due on the loan, and the
Department terminated New Chrysler’s ability to draw on the remaining available $2.1 billion loan commitment.
Total net proceeds received relating to the fiscal year 2011 transactions were $896 million less than the Department’s
cost. As a result of these transactions, the Department had no remaining interest in New Chrysler as of September
30, 2012 and 2011. The Department continues to hold a right to receive proceeds from a bankruptcy liquidation trust,
but no significant cash flows are expected.
Ally Financial Inc. (formerly known as GMAC Inc.)

The Department invested a total of $16.3 billion in GMAC Inc. between December 2008 and December 2009 to help
support its ability to originate new loans to GM and Chrysler dealers and consumers, and to help address GMAC’s
capital needs. In May 2010, GMAC changed its corporate name to Ally Financial, Inc. (Ally). As a result of original
investments, exchanges, conversions and warrant exercises, as of September 30, 2012 and 2011, the Department held
981,971 shares of Ally common stock, representing 73.8 percent of Ally’s outstanding common stock. The
Department also held 119 million shares of Ally Series F-2 Mandatorily Convertible Preferred Securities, with a $50
per share liquidation preference and a stated dividend rate of 9.0 percent, and are convertible into at least 513,000
shares of Ally common stock at Ally’s option subject to approval of the FRB and consent by the Department, or
pursuant to an order by the FRB compelling such conversion. The Series F-2 security is also convertible at the option
of the Department upon certain specified corporate events. Absent any optional conversion, any Series F-2 remaining
preferred shares will automatically convert to Ally common stock after seven years from the issuance date. When
combined with the Ally common stock currently owned, conversion of the Series F-2 preferred stock into common
stock would represent 81.0 percent ownership of Ally common stock held by the Department. In fiscal years 2012 and
2011, the Department received $534 million and $839 million in dividends from Ally, respectively.

Prior to September 30, 2011, the Department held 2.7 million shares of 8.0 percent cumulative Trust Preferred
Securities (TruPS) with a $1,000 per share liquidation preference. During fiscal year 2011, the agreement between
Ally and the Department regarding its TruPS was amended to facilitate the Department’s sale of these securities on
the open market. Because this amendment to agreement terms was not considered in the formulation subsidy cost
estimate for the program, the Department recorded a modification resulting in a subsidy cost reduction of $174
million. In March 2011, the Department sold its TruPS for $2.7 billion, resulting in proceeds in excess of cost of $127
million.

As of September 30, 2012 and 2011, for investments in Ally’s common equity and mandatorily convertible preferred
stock, which are valued on an “if-converted” basis, the Department used certain valuation multiples such as price-to-
earnings, price-to-tangible book value, and asset manager valuations to estimate the value of the shares. The
multiples were based on those of comparable publicly-traded entities. The adjustment for market risk is incorporated
in the data points the Department uses to determine the measurement for Ally as all points rely on market data.

Public-Private Investment Program

The Public-Private Investment Program (PPIP) is part of the Department’s efforts to help restart the financial
securities market and provide liquidity for legacy securities. Under this program, the Department (as a limited
partner) made equity investments in and loans to nine investment vehicles (referred to as Public-Private Investment
Funds or “PPIFs”) established by private investment managers between September and December 2009. The equity
investments were used to match private capital and equal 49.9 percent of the total equity invested. The loans bear
interest at 1-Month LIBOR, plus 1.0 percent, payable monthly. The maturity date of each loan is the earlier of ten
years or the termination of the PPIF. Each PPIF terminates in eight years from its commencement, if not previously
terminated, or extended with two one-year extensions subject to the Department’s approval. The loan agreements
are subject to certain financial covenants and require cash flows from purchased securities received by the PPIFs to be
distributed in accordance with a priority of payments schedule (waterfall) designed to help protect the interests of
secured parties. As a condition of its investment, the Department also received a warrant from each of the PPIFs
entitling the Department to 2.5 percent of investment proceeds otherwise allocable to the non-Department partners
after the PPIFs return 100.0 percent of the non-Department partners’ capital contributions. Additionally, the PPIFs
pay a management fee to the fund manager from the Department’s share of investment proceeds.

The PPIFs may invest, under certain conditions, in commercial mortgage-backed securities (CMBS) and non-agency
residential mortgage-backed securities (RMBS) issued prior to January 1, 2009, for a term of three years. The three-
year investment period for the remaining PPIFs ends December 2012. The PPIFs are also permitted to invest in
certain temporary securities, including bank deposits, U.S. Treasury securities, and certain money market mutual
funds. As of September 30, 2012, the PPIFs’ portfolios were comprised of approximately 74.0 percent RMBS and
26.0 percent CMBS, compared to 79.0 percent and 21.0 percent, respectively, as of September 30, 2011.

At September 30, 2012 and 2011, the Department had equity investments in PPIFs outstanding of $4.1 billion and
$5.5 billion, and loans outstanding of $5.7 billion and $10.4 billion, for an aggregate total of $9.8 billion and $15.9
billion, respectively. As of September 30, 2012 and 2011, the Department had legal commitments to disburse up to
$3.1 billion and $4.3 billion, respectively, for additional investments and loans to the remaining PPIFs. During fiscal
year 2012, the Department disbursed $245 million as an equity investment and $803 million as loans to PPIFs, as
compared to $1.1 billion of equity investments and $2.3 billion as loans in fiscal year 2011. In addition, the
Department received $5.7 billion and $1.0 billion in loan principal and interest repayments from the PPIFs in fiscal
years 2012 and 2011, respectively. Also during fiscal year 2012, the Department received $3.2 billion in equity
distributions, comprised of $1.3 billion of investment income, $223 million of proceeds in excess of cost, and a $1.7
billion reduction of the gross investment outstanding. In fiscal year 2011, the Department received $735 million in
equity distributions, comprised of $306 million of investment income, $91 million of proceeds in excess of cost, and a
$338 million reduction of the gross investment outstanding.

The Department estimates cash flows to the PPIFs by simulating the performance of the collateral supporting the
assets held by the PPIF. Inputs used to simulate the cash flows, which consider market risks, include unemployment
forecasts, home price appreciation/depreciation forecasts, the current term structure of interest rates, historical pool
performance, and estimates of the net income and value of commercial real estate supporting the CMBS. The
simulated cash flows are then run through a financial model that defines distributions of the RMBS/CMBS to
determine the estimated cash flows to the PPIF. Once determined, these cash flows are run through the waterfall of
the PPIF to determine the expected cash flows to the Department through both the equity investments and loans.

Other Direct Loan and Equity Investment Programs

The Department initiated other programs intended to help unlock the flow of credit to consumers and small
businesses. Three programs were established to help accomplish this: the Term Asset-Backed Securities Loan Facility
(TALF); the Small Business Administration (SBA) 7(a) Securities Purchase Program, and the Community
Development Capital Initiative (CDCI).

Term Asset-Backed Securities Loan Facility

The TALF was created by the FRB to provide low-cost funding to investors in certain classes of Asset Backed
Securities (ABS). The Department agreed to participate in the program by providing liquidity and credit protection to
the FRB.

Under the TALF, the FRBNY, as implementer of the TALF program, originated loans on a non-recourse basis to
purchasers of certain AAA rated ABS secured by consumer and commercial loans and CMBS. The FRBNY ceased
issuing new loans on June 30, 2010. Approximately $1.5 billion and $11.3 billion of loans due to the FRBNY
remained outstanding as of September 30, 2012 and 2011, respectively.

As part of the program, the FRBNY created the TALF, LLC, an SPV that agreed to purchase from the FRBNY any
collateral it has seized due to borrower default. The TALF, LLC would fund purchases from the accumulation of
monthly fees paid by FRBNY as compensation for the agreement. Only if the TALF, LLC had insufficient funds to
purchase the collateral did the Department commit to invest up to $20.0 billion in non-recourse subordinated notes
issued by the TALF, LLC. This commitment was reduced to $4.3 billion in fiscal year 2010, and further reduced in
fiscal year 2012 to $1.4 billion, in consultation with the FRBNY.

The Department disbursed $100 million upon creation of the TALF, LLC, and the remainder can be drawn to
purchase collateral in the event the fees are not sufficient to cover purchases. The subordinated notes bear interest at
1-Month LIBOR plus 3.0 percent, and mature ten years from the closing date, subject to extension. As of September
30, 2012 and 2011, no TALF loans were in default and consequently no collateral was purchased by the TALF, LLC.

In valuing the TALF loan, the Department model derives the cash flows to the SPV, and ultimately the Department, by
simulating the performance of underlying collateral. Loss probabilities on the underlying collateral are calculated
based on analysis of historical loan loss and charge-off experience by credit sector and subsector. Impaired TALF-
eligible securities are projected to be purchased by the SPV, which could require additional Department funding.
Simulation outcomes consisting of a range of loss scenarios are probability-weighted to generate the expected net
present value of future cash flows.

SBA 7(a) Securities Purchase Program
In March 2010, the Department began purchasing securities backed by SBA 7(a) loans (7(a) Securities) as part of the
Unlocking Credit for Small Business Initiative. The program was created to provide additional liquidity to the market
so that banks are able to make more small business loans. Under this program, the Department had purchased 7(a)
securities collateralized with 7(a) loans that are guaranteed by the full faith and credit of the U.S. Government. In
May 2011, the Department began selling its securities to investors; sales were completed and the program closed in
January 2012. Over the course of the program, the Department had invested a total of $367 million (excluding
purchased accrued interest), and received $376 million in sales proceeds and in principal and interest payments. As
of September 30, 2012, the Department held no investment in SBA 7(a) securities, and held $128 million of these
securities at September 30, 2011. During fiscal year 2012 and 2011, the Department had received $127 million and
$247 million, respectively, in sales proceeds, and in principal and interest payments on the securities. The valuation
of SBA 7(a) securities was based on the discounted estimated cash-flows of the securities.


Community Development Capital Initiative
In fiscal year 2010, the CDCI was created to provide additional low cost capital in Community Development Financial
Institutions (CDFIs) to encourage more lending to small businesses. Under the terms of the program, the
Department purchased senior preferred stock (or subordinated debt) from eligible CDFIs with an initial dividend rate
of 2.0 percent that will increase to 9.0 percent after eight years.

CDFIs participating in the CPP, subject to certain criteria, were eligible to exchange, through September 30, 2010,
their CPP preferred shares (subordinated debt) then held by the Department for CDCI preferred shares (subordinated
debt). These exchanges were treated as disbursements from CDCI and repayments to CPP. The Department had
invested a total of $570 million ($363 million as a result of exchanges from CPP) in 84 institutions under the CDCI.
In fiscal year 2012, the Department received $3 million in repayments. No repayments were received in fiscal year
2011. The Department received $11 million in dividends and interest from its CDCI investments during both fiscal
years 2012 and 2011. The Department valued the CDCI preferred stock investments in a manner broadly analogous to
the methodology used to value the preferred stock securities within the CPP program.


OTHER CREDIT PROGRAMS

Asset Guarantee Program

The Asset Guarantee Program (AGP) provided guarantees for assets held by systemically significant financial
institutions that faced a risk of losing market confidence due in large part to a portfolio of distressed or illiquid assets.
Section 102 of the EESA required the Secretary to establish the AGP to guarantee troubled assets originated or issued
prior to March 14, 2008, including MBS, and established the Troubled Assets Insurance Financing Fund (TAIFF).

In January 2009, the Department entered into a guarantee agreement with Citigroup under which the Department,
the Federal Deposit Insurance Corporation (FDIC), and the FRBNY (collectively the USG Parties) provided protection
against the possibility of large losses on an asset pool of approximately $301.0 billion of loans and securities backed
by residential and commercial real estate and other such assets, which remained on Citigroup’s balance sheet. The
Department’s portion of the guarantee was limited to $5.0 billion. As a premium for the guarantee, Citigroup issued
$7.0 billion of cumulative perpetual preferred stock (subsequently converted to Trust Preferred Securities with
similar terms) with an 8.0 percent stated dividend rate and a warrant for the purchase of Citigroup common stock, of
which $4.0 billion of the preferred stock and the warrant were issued to the Department, and $3.0 billion of the
preferred stock was issued to the FDIC.

In fiscal year 2010, the USG Parties and Citigroup agreed to terminate the guarantee agreement; accordingly,
Citigroup cancelled $1.8 billion of the preferred stock previously issued to the Department. In fiscal year 2011, the
Department sold its remaining Citigroup TruPS it held for $2.2 billion, and sold the warrants for $67 million. In
connection with the termination of the guarantee agreement, FDIC agreed to transfer to the Department $800
million of TruPS holdings plus dividends, subject to Citigroup’s payment of certain debt guaranteed by the FDIC.
This TruPS related receivable from the FDIC was valued at $967 million and $739 million at September 30, 2012 and
2011, respectively. The Department expects to receive a cash transfer of dividends and interest, along with the TruPS
from FDIC, as scheduled, on December 31, 2012. The Department valued the AGP preferred stock investments in a
manner broadly analogous to the methodology used to value the preferred stock securities within the CPP program.


FHA-Refinance Program

In fiscal year 2010, the Department entered into a loss-sharing agreement with the FHA to support a program in
which FHA guarantees refinancing of borrowers whose homes are worth less than the remaining amounts owed
under their mortgage loans. In fiscal year 2011, the Department established a $50 million account, held by a
commercial bank as its agent, from which any required reimbursements for losses will be paid to third-party
claimants, including banks or other investors. FHA disbursed $234 million and $73 million of loans during fiscal
year 2012 and 2011, respectively. At September 30, 2012 and 2011, 1,774 and 334 loans that FHA had guaranteed
with a total value of $307 million and $73 million, respectively, had been refinanced under the program. At
September 30, 2012 and 2011, the Department’s maximum exposure related to the FHA guarantee totaled $41 million
and $6 million, respectively. The Department’s guarantee resulted in the Department incurring a $7 million and $1
million liability as of September 30, 2012 and 2011, respectively.

Based on credit reform accounting, the liability was derived as the present value of the future cash outflows for the
Department’s share of losses incurred on any defaults of the disbursed loans. The budget subsidy rates for the
program, entirely for defaults, excluding modifications and reestimates, were set at 4.0 percent and 1.26 percent for
loans guaranteed in fiscal years 2012 and 2011, respectively. As of September 30, 2012 and 2011, the Department
recorded subsidy cost of $9 million and $1 million, respectively, for projected losses due to defaults. The program
recorded a $3 million downward reestimate for the year ended September 30, 2012, due to a reduction in market
risks and lower than projected defaults. As of September 30, 2012, no claims were paid under the program.


SUBSIDY COST
During fiscal year 2012, a modification occurred in the CPP. During fiscal year 2011, modifications occurred within
AIFP (see Ally Financial Inc.) and CPP. See the detailed discussion above for modifications related to each program.
Modification cost (income) for the fiscal years ended September 30, 2012 and 2011, totaled $973 million and $1.2
billion, respectively.

Changes in subsidy cost due to reestimates from year to year are mainly due to improved market conditions. Net
downward reestimates for the fiscal years ended September 30, 2012 and 2011, totaled $11.9 billion and $11.6 billion,
respectively.

During fiscal year 2012, there were significant AIG sales of common stock which impacted the subsidy cost. The AIG
Investment Program had a decrease in subsidy cost resulting from a downward reestimate of $9.2 billion. The
Department calculated a $9.2 billion downward reestimate relating primarily to sales in fiscal year 2012 of 806
million shares of AIG common stock at prices higher than September 30, 2011, and increase in revaluing the
remaining portfolio.


HOUSING PROGRAMS UNDER TARP
The following housing programs under TARP are designed to provide stability for both the housing market and
homeowners. These programs assist homeowners who are experiencing financial hardships to remain in their homes
until their financial position improves or they relocate to a more sustainable living situation. These programs fall
within three initiatives:

    1.   Making Home Affordable Program (MHA)
    2.   HFA Hardest-Hit Fund
    3.   Federal Housing Administration (FHA)-Refinance Program

The MHA includes various programs that provide an array of incentives to servicers, borrowers, and investors for: (i)
modifying first liens, (ii) extinguishing second liens on first lien loans, (iii) helping investors to partially offset losses
due to home price declines, (iv) offering incentives to encourage mortgage principal reduction for eligible
homeowners whose homes are worth significantly less than their outstanding first-lien mortgage balances, (v)
offering assistance to unemployed homeowners, and (vi) assisting eligible borrowers unable to retain their homes by
simplifying and streamlining the short sale and deed in lieu of foreclosure processes. All MHA disbursements are
made to servicers either for themselves or for the benefit of borrowers and investors, and all payments are contingent
on borrowers remaining in good standing. To be considered for MHA programs, borrowers must apply by December
31, 2013.

Implemented in fiscal year 2010, the HFA Hardest-Hit Fund provides targeted aid to families in the states hit hardest
by the housing market downturn and unemployment. Approved states meeting the criteria for this program develop
and roll out their own programs with timing and types of programs offered targeted to address the specific needs and
economic conditions of their state. States have until December 31, 2017 to enter into agreements with borrowers.

As discussed above under “Other Credit Programs,” the FHA-Refinance Program is a joint initiative with the HUD
which is intended to encourage refinancing of existing underwater (i.e. the borrower owes more than the home is
worth) mortgage loans not currently insured by FHA into FHA-insured mortgages. HUD will pay a portion of the
amount refinanced to the investor and the Department will pay incentives to encourage the extinguishment of second
liens associated with the refinanced mortgages. The Department established a letter of credit that obligated the
Department’s portion of any claims associated with the FHA-guaranteed mortgages. Homeowners can refinance into
FHA-guaranteed mortgages through December 31, 2014, and the Department will honor its share of claims against
the letter of credit through 2020.

As of September 30, 2012 and 2011, the Department had committed up to $45.6 billion for these programs. For fiscal
year 2012 and 2011, payments made from the Housing Programs under TARP totaled $3.1 billion and $1.9 billion,
respectively.
                                                             U.S.Department of the Treasury                              11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Accounts Receivable                              A                   D                        525                   407
                                                                                 Variance:                          0                     0

Trading          Name                           Status 2012-SEPTEMBER      2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     13                        20                   20                     0
 1400 Department of the Interior                                    19                        21                   21                     0
 2800 Social Security Administration                                 5                        10                   10                     0
 3600 DEPARTMENT OF VETERANS                                         5                         9                    9                     0
        AFFAIRS
 4700 General Services Administration                              177                       170                  170                     0
 5100 Federal Deposit Insurance Corporation                          0                         2                    2                     0
 6900 Department of Transportation                                   0                         3                    3                     0
 7000 Department of Homeland Security                                0                         2                    2                     0
 7500 Department of Health and Human                                81                        71                   71                     0
        Services
 9500 Independent and Other Agencies                                60                         5                    5                     0
 DE00 Department of Defense                                        165                        94                   94                     0
                                  Total                            525                       407                  407                     0




                                                                          -1-
                                                             U.S.Department of the Treasury                              11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Advances to Others and Prepayments               A                   D                         2                     2
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                                   2                         1                    1                     0
 9500 Independent and Other Agencies                                 0                         1                    1                     0
                                  Total                              2                         2                    2                     0

Agency FS Status CP Line Description                              Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Federal Investments                              A                   D                        968                   739
                                                                                 Variance:                          0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 5100 Federal Deposit Insurance Corporation                        968                       739                  739                     0
                                  Total                            968                       739                  739                     0




                                                                          -2-
                                                             U.S.Department of the Treasury                                 11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type        NB              2012-SEPTEMBER        2011-SEPTEMBER
 BS              Interest Receivable                              A                   D                           531                   225
                                                                                 Variance:                             0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    342                          47                    47                     0
 1800 United States Postal Service                                  48                          47                    47                     0
 2500 National Credit Union Administration                           2                           2                     2                     0
 4700 General Services Administration                               32                          33                    33                     0
 6000 Railroad Retirement Board                                     44                          52                    52                     0
 6900 Department of Transportation                                   0                           1                     1                     0
 8900 Department of Energy                                          55                          35                    35                     0
 9100 Department of Education                                        6                           5                     5                     0
 9500 Independent and Other Agencies                                 2                           3                     3                     0
                                   Total                           531                         225                   225                     0

Agency FS Status CP Line Description                              Account Type        NB              2012-SEPTEMBER        2011-SEPTEMBER
 BS              Loans Receivable                                 A                   D                         946,705               771,198
                                                                                 Variance:                             0                     0

Trading       Name                              Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 93,537                       89,535                89,535                    0
 1300 Department of Commerce                                       554                          540                   540                    0
 1400 Department of the Interior                                    94                          278                   278                    0
 1601 Department of Labor                                       38,997                       48,936                48,936                    0

                                                                          -3-
                                                            U.S.Department of the Treasury                             11-16-2012 14:59:27
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                   GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                           Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2012-SEPTEMBER       2011-SEPTEMBER         Previously Reported    Line item Changes
Partner
 1800 United States Postal Service                              15,000                 13,000                 13,000                    0
 1900 Department of State                                            3                      3                      3                    0
 2500 National Credit Union Administration                       3,200                  3,500                  3,500                    0
 2700 Federal Communications Commission                              0                     51                     51                    0
 3600 DEPARTMENT OF VETERANS                                       843                  1,680                  1,680                    0
        AFFAIRS
 4700 General Services Administration                            1,819                  1,898                  1,898                    0
 6000 Railroad Retirement Board                                  3,402                  3,484                  3,484                    0
 6800 Environmental Protection Agency                                1                      3                      3                    0
 6900 Department of Transportation                               5,194                  4,343                  4,343                    0
 7000 Department of Homeland Security                           18,073                 17,754                 17,754                    0
 7200 Agency for International Development                         478                    478                    478                    0
 7300 Small Business Administration                              7,920                 11,190                 11,190                    0
 7500 Department of Health and Human                               151                      1                      1                    0
        Services
 8300 Export-Import Bank of the United States                   11,301                  8,279                  8,279                    0
 8600 Department of Housing and Urban                           11,568                  6,090                  6,090                    0
        Development
 8900 Department of Energy                                      15,786                 10,033                10,033                     0
 9100 Department of Education                                  715,297                547,103               547,103                     0
 9500 Independent and Other Agencies                             2,534                  2,236                 2,236                     0
 DE00 Department of Defense                                        953                    783                   783                     0
                                  Total                       946,705                 771,198               771,198                     0




                                                                          -4-
                                                             U.S.Department of the Treasury                               11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Other Assets (without reciprocals)                A                   D                    16,202,179            14,902,717
                                                                                  Variance:                           0                    0

Trading        Name                             Status 2012-SEPTEMBER       2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                  16,202,179                14,902,717            14,902,717                    0
                                  Total                      16,202,179                14,902,717            14,902,717                    0


Agency FS Status CP Line Description                               Account Type        NB           2012-SEPTEMBER        2011-SEPTEMBER
 BS              Accounts Payable                                  L                   C                        256                   159
                                                                                  Variance:                           0                    0

Trading         Name                            Status 2012-SEPTEMBER       2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                     30                        21                    21                     0
 1400 Department of the Interior                                    10                         6                     6                     0
 1500 Department of Justice                                          6                         6                     6                     0
 1601 Department of Labor                                           20                        15                    15                     0
 1800 United States Postal Service                                  14                        13                    13                     0
 1900 Department of State                                            0                         1                     1                     0
 2400 Office of Personnel Management                                 4                        12                    12                     0
 2800 Social Security Administration                                 0                         1                     1                     0
 3600 DEPARTMENT OF VETERANS                                         3                         4                     4                     0
        AFFAIRS
 4700 General Services Administration                                 6                        6                      6                    0
 6900 Department of Transportation                                    2                        0                      0                    0

                                                                           -5-
                                                             U.S.Department of the Treasury                                11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                         Status 2012-SEPTEMBER        2011-SEPTEMBER            Previously Reported    Line item Changes
Partner
 7000 Department of Homeland Security                              1                            2                     2                     0
 7200 Agency for International Development                         4                            0                     0                     0
 7300 Small Business Administration                                2                            2                     2                     0
 7500 Department of Health and Human                              16                           39                    39                     0
        Services
 8300 Export-Import Bank of the United States                     67                            0                     0                     0
 9100 Department of Education                                      6                           14                    14                     0
 9500 Independent and Other Agencies                              13                            4                     4                     0
 9999 Unidentified                                                11                            6                     6                     0
 DE00 Department of Defense                                       41                            7                     7                     0
                                  Total                           (256)                      (159)                 (159)                    0

Agency FS Status CP Line Description                              Account Type        NB             2012-SEPTEMBER        2011-SEPTEMBER
 BS              Advances from Others and Deferred Credits        L                   C                           57                    56
                                                                                 Variance:                            0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                         8                          6                     6                     0
 1500 Department of Justice                                          2                          2                     2                     0
 1601 Department of Labor                                           10                         12                    12                     0
 1900 Department of State                                           13                         12                    12                     0
 7000 Department of Homeland Security                                1                          6                     6                     0
 7200 Agency for International Development                           9                         13                    13                     0


                                                                          -6-
                                                             U.S.Department of the Treasury                                11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER            Previously Reported    Line item Changes
Partner
 7300 Small Business Administration                                  1                          1                     1                     0
 8600 Department of Housing and Urban                                8                          1                     1                     0
        Development
 9500 Independent and Other Agencies                                 5                          3                     3                     0
                                  Total                            (57)                       (56)                  (56)                    0


Agency FS Status CP Line Description                              Account Type        NB             2012-SEPTEMBER        2011-SEPTEMBER
 BS              Benefit Program Contributions Payable            L                   C                          247                   239
                                                                                 Variance:                            0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER            Previously Reported    Line item Changes
Partner
 1601 Department of Labor                                          124                       124                    124                     0
 2400 Office of Personnel Management                                96                        89                     89                     0
 2800 Social Security Administration                                 0                        26                     26                     0
 9900 Treasury General Fund                                         27                         0                      0                     0
                                  Total                           (247)                      (239)                 (239)                    0




                                                                          -7-
                                                             U.S.Department of the Treasury                                 11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2012                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB             2012-SEPTEMBER        2011-SEPTEMBER
 BS              Federal Debt                                     L                    C                       4,822,607             4,680,864
                                                                                 Variance:                             0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                    142                          135                   135                    0
 1400 Department of the Interior                                 6,595                        6,722                 6,722                    0
 1500 Department of Justice                                      4,589                        2,891                 2,891                    0
 1601 Department of Labor                                       20,730                       16,093                16,093                    0
 1602 PENSION BENEFIT GUARANTY                                  22,533                       22,075                22,075                    0
        CORPORATION
 1800 United States Postal Service                                2,590                    1,815                    1,815                    0
 1900 Department of State                                        16,928                   16,433                   16,433                    0
 2400 Office of Personnel Management                            934,905                  906,607                  906,607                    0
 2500 National Credit Union Administration                       13,020                   15,326                   15,326                    0
 2700 Federal Communications Commission                           6,540                    5,816                    5,816                    0
 2800 Social Security Administration                          2,719,042                2,654,497                2,654,497                    0
 3600 DEPARTMENT OF VETERANS                                      9,196                    9,904                    9,904                    0
        AFFAIRS
 5000 Securities and Exchange Commission                           451                          451                   451                    0
 5100 Federal Deposit Insurance Corporation                     41,676                       46,089                46,089                    0
 6000 Railroad Retirement Board                                  2,340                        2,159                 2,159                    0
 6400 Tennessee Valley Authority                                    25                           25                    25                    0
 6800 Environmental Protection Agency                            4,613                        7,097                 7,097                    0
 6900 Department of Transportation                              22,271                       26,629                26,629                    0
 7000 Department of Homeland Security                            4,537                        4,148                 4,148                    0


                                                                           -8-
                                                             U.S.Department of the Treasury                                  11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                           Fiscal Year: 2012                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2012-SEPTEMBER       2011-SEPTEMBER            Previously Reported     Line item Changes
Partner
 7500 Department of Health and Human                           303,152                   321,827                 321,827                      0
        Services
 7802 Farm Credit System Insurance                                3,187                       3,262                 3,262                     0
        Corporation
 8000 National Aeronautics and Space                                 17                         17                     17                     0
        Administration
 8600 Department of Housing and Urban                             4,889                       6,244                 6,244                     0
        Development
 8900 Department of Energy                                      34,846                    33,106                  33,106                      0
 9500 Independent and Other Agencies                             7,833                     7,515                   7,515                      0
 DE00 Department of Defense                                    635,960                   563,981                 563,981                      0
                                  Total                      (4,822,607)               (4,680,864)             (4,680,864)                    0

Agency FS Status CP Line Description                               Account Type        NB             2012-SEPTEMBER         2011-SEPTEMBER
 BS              Interest Payable                                  L                   C                        45,592                 47,841
                                                                                  Variance:                             0                     0

Trading         Name                            Status 2012-SEPTEMBER       2011-SEPTEMBER            Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      1                           1                     1                      0
 1400 Department of the Interior                                    20                          20                    20                      0
 1601 Department of Labor                                          111                         121                   121                      0
 1602 PENSION BENEFIT GUARANTY                                     162                         182                   182                      0
        CORPORATION
 1900 Department of State                                           170                         181                   181                     0
 2400 Office of Personnel Management                              8,903                       9,593                 9,593                     0

                                                                           -9-
                                                             U.S.Department of the Treasury                              11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                          Fiscal Year: 2012                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2012-SEPTEMBER      2011-SEPTEMBER         Previously Reported     Line item Changes
Partner
 2500 National Credit Union Administration                          81                     73                      73                     0
 2700 Federal Communications Commission                              8                      7                       7                     0
 2800 Social Security Administration                            26,482                 28,085                  28,085                     0
 3600 DEPARTMENT OF VETERANS                                       113                    128                     128                     0
        AFFAIRS
 5000 Securities and Exchange Commission                             1                      1                       1                     0
 5100 Federal Deposit Insurance Corporation                        314                    178                     178                     0
 6000 Railroad Retirement Board                                      4                      5                       5                     0
 6800 Environmental Protection Agency                                7                     16                      16                     0
 6900 Department of Transportation                                  60                     53                      53                     0
 7000 Department of Homeland Security                               14                     11                      11                     0
 7500 Department of Health and Human                             3,230                  3,616                   3,616                     0
        Services
 7802 Farm Credit System Insurance                                  16                     20                      20                     0
        Corporation
 8600 Department of Housing and Urban                               10                     29                      29                     0
        Development
 8900 Department of Energy                                         120                    111                     111                     0
 9500 Independent and Other Agencies                                58                     49                      49                     0
 DE00 Department of Defense                                      5,707                  5,361                   5,361                     0
                                  Total                        (45,592)               (47,841)                (47,841)                    0




                                                                          - 10 -
                                                                  U.S.Department of the Treasury                                   11-16-2012 14:59:27
                                                                  Financial Management Service
                                                              Governmentwide Financial Report System

                                                           GF004F - Trading Partner Summary Note Report

Statement: BALANCE SHEET                                                 Fiscal Year: 2012                               Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                             Reported in: MILLIONS                    Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                     Account Type         NB            2012-SEPTEMBER         2011-SEPTEMBER
 BS              Liability to the General Fund for custodial and other   L                    C                      1,257,752              1,226,475
                 non-entity assets
                                                                                         Variance:                            0                     0

Trading                                                    2012-SEPTEMBER         2011-SEPTEMBER            Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                        1,257,752                   1,226,475              1,226,475                     0
                                  Total                           (1,257,752)                 (1,226,475)            (1,226,475)                    0


Agency FS Status CP Line Description                                     Account Type         NB            2012-SEPTEMBER         2011-SEPTEMBER
 BS              Other Liabilities (without reciprocals)                 L                    C                         (19)                    (2)
                                                                                         Variance:                            0                     0

Trading          Name                           Status 2012-SEPTEMBER             2011-SEPTEMBER            Previously Reported     Line item Changes
Partner
 1400 Department of the Interior                                           1                           0                      0                     0
 2400 Office of Personnel Management                                      (2)                          0                      0                     0
 4700 General Services Administration                                     (5)                         (1)                    (1)                    0
 7000 Department of Homeland Security                                     (7)                         (1)                    (1)                    0
 7500 Department of Health and Human                                      (2)                          0                      0                     0
        Services
 9500 Independent and Other Agencies                                      (4)                          0                      0                     0
                                  Total                                   19                           2                      2                     0




                                                                                - 11 -
                                                                U.S.Department of the Treasury                                    11-16-2012 14:59:27
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                        Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                           Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type             NB            2012-SEPTEMBER         2011-SEPTEMBER
 SCNP            Accrual for Non-entity Amounts to be Collected and CF                       D                       (2,139)                (12,519)
                 Transferred to the General Fund
                                                                                        Variance:                            0                     0

Trading                                                  2012-SEPTEMBER         2011-SEPTEMBER             Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                          (2,139)                    (12,519)               (12,519)                    0
                                  Total                              (2,139)                    (12,519)               (12,519)                    0


Agency FS Status CP Line Description                                   Account Type          NB            2012-SEPTEMBER         2011-SEPTEMBER
 SCNP            Non-Entity Collections Transferred to the General     CF                    D                       48,601                 103,055
                 Fund
                                                                                        Variance:                            0                     0

Trading                                                  2012-SEPTEMBER         2011-SEPTEMBER             Previously Reported     Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                          48,601                    103,055                103,055                      0
                                  Total                              48,601                    103,055                103,055                      0




                                                                               - 12 -
                                                                U.S.Department of the Treasury                              11-16-2012 14:59:27
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2012                             Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                  Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type         NB          2012-SEPTEMBER        2011-SEPTEMBER
 SCNP            Nonexpenditure Transfers-out of unexpended          CF                   D                        43                    4
                 appropriations and financing sources
                                                                                     Variance:                         0                     0

Trading                                                  2012-SEPTEMBER       2011-SEPTEMBER          Previously Reported    Line item Changes
Partner        Name                             Status
 1900 Department of State                                               0                         4                    4                     0
 6900 Department of Transportation                                     40                         0                    0                     0
 7200 Agency for International Development                              3                         0                    0                     0
                                  Total                                43                         4                    4                     0

Agency FS Status CP Line Description                                 Account Type         NB          2012-SEPTEMBER        2011-SEPTEMBER
 SCNP            Transfers-out Without Reimbursement                 CF                   D                        47                    60
                                                                                     Variance:                         0                     0

Trading       Name                              Status 2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 1300 Department of Commerce                                            1                         0                    0                     0
 1500 Department of Justice                                             2                         1                    1                     0
 7000 Department of Homeland Security                                  44                        59                   59                     0
                                  Total                                47                        60                   60                     0




                                                                            - 13 -
                                                                U.S.Department of the Treasury                                  11-16-2012 14:59:27
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2012                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2012-SEPTEMBER        2011-SEPTEMBER
 SCNP            Imputed Financing Source                            F                     C                          812                   925
                                                                                      Variance:                            0                     0

Trading         Name                            Status 2012-SEPTEMBER         2011-SEPTEMBER              Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                  806                         919                    919                     0
 7000 Department of Homeland Security                                   6                           6                      6                     0
                                  Total                              (812)                        (925)                 (925)                    0

Agency FS Status CP Line Description                                 Account Type          NB             2012-SEPTEMBER        2011-SEPTEMBER
 SCNP            Nonexpenditure transfers-in of unexpended           F                     C                          185                   133
                 appropriations and financing sources
                                                                                      Variance:                            0                     0

Trading                                                  2012-SEPTEMBER       2011-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 1900 Department of State                                               0                           9                      9                     0
 6900 Department of Transportation                                     40                           0                      0                     0
 7200 Agency for International Development                            145                         123                    123                     0
 9500 Independent and Other Agencies                                    0                           1                      1                     0
                                  Total                              (185)                        (133)                 (133)                    0




                                                                             - 14 -
                                                             U.S.Department of the Treasury                                    11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2012                                  Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                       Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type          NB              2012-SEPTEMBER         2011-SEPTEMBER
 SCNP            Other budgetary financing sources                F                     C                         96,366                 (18,823)
                                                                                   Variance:                              0                     0

Trading          Name                           Status 2012-SEPTEMBER      2011-SEPTEMBER               Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                      3                             4                      4                     0
 1400 Department of the Interior                                     0                           (13)                   (13)                    0
 1500 Department of Justice                                          1                             3                      3                     0
 3600 DEPARTMENT OF VETERANS                                         7                            13                     13                     0
        AFFAIRS
 4700 General Services Administration                               19                            44                    44                      0
 6900 Department of Transportation                                  24                            29                    29                      0
 7000 Department of Homeland Security                              121                           123                   123                      0
 7500 Department of Health and Human                                20                            22                    22                      0
        Services
 8600 Department of Housing and Urban                                0                             1                      1                     0
        Development
 8900 Department of Energy                                           1                           7                        7                     0
 9500 Independent and Other Agencies                                34                           2                        2                     0
 9900 Treasury General Fund                                     95,995                     (19,088)                 (19,088)                    0
 DE00 Department of Defense                                        141                          30                       30                     0
                                  Total                        (96,366)                        18,823                18,823                     0




                                                                          - 15 -
                                                                U.S.Department of the Treasury                                 11-16-2012 14:59:27
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                      Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                         Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type          NB             2012-SEPTEMBER        2011-SEPTEMBER
 CUST            Accrual for Non-entity Amounts to be Collected and CF                    D                         4,111                 (153)
                 Transferred to the General Fund
                                                                                     Variance:                            0                     0

Trading                                                  2012-SEPTEMBER       2011-SEPTEMBER             Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                         4,111                        (153)                 (153)                    0
                                  Total                             4,111                        (153)                 (153)                    0


Agency FS Status CP Line Description                                 Account Type         NB             2012-SEPTEMBER        2011-SEPTEMBER
 CUST            Expenditure Transfers-out of financing sources      CF                   D                          128                    49
                                                                                     Variance:                            0                     0

Trading        Name                             Status 2012-SEPTEMBER         2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                           128                          49                    49                     0
                                  Total                               128                          49                    49                     0




                                                                            - 16 -
                                                                U.S.Department of the Treasury                                  11-16-2012 14:59:27
                                                                Financial Management Service
                                                            Governmentwide Financial Report System

                                                         GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                       Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                          Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                 Account Type          NB             2012-SEPTEMBER        2011-SEPTEMBER
 CUST            Non-Entity Collections Transferred to the General   CF                    D                       2,259,932             2,096,426
                 Fund
                                                                                      Variance:                            0                     0

Trading                                                  2012-SEPTEMBER       2011-SEPTEMBER              Previously Reported    Line item Changes
Partner        Name                             Status
 9900 Treasury General Fund                                      2,259,932                  2,096,426               2,096,426                    0
                                   Total                         2,259,932                  2,096,426               2,096,426                    0


Agency FS Status CP Line Description                                 Account Type          NB             2012-SEPTEMBER        2011-SEPTEMBER
 CUST            Other budgetary financing sources                   F                     C                         (487)                 (324)
                                                                                      Variance:                            0                     0

Trading       Name                              Status 2012-SEPTEMBER         2011-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1400 Department of the Interior                                     (487)                        (324)                 (324)                    0
                                   Total                              487                         324                    324                     0




                                                                             - 17 -
                                                             U.S.Department of the Treasury                               11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF CHANGES IN NET POSITION                   Fiscal Year: 2012                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2012-SEPTEMBER        2011-SEPTEMBER
 CUST            Other taxes and receipts                         F                    C                         0                     3
                                                                                  Variance:                          0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER           Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                         0                          3                     3                     0
                                  Total                             0                         (3)                   (3)                    0




                                                                         - 18 -
                                                             U.S.Department of the Treasury                                   11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2012                                 Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                      Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                               Account Type         NB              2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Borrowing and Other Interest Revenue (Exchange)   ER                   C                         35,511                28,821
                                                                                   Variance:                             0                     0

Trading          Name                         Status 2012-SEPTEMBER         2011-SEPTEMBER              Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                 4,166                          4,157                  4,157                    0
 1300 Department of Commerce                                       28                             26                     26                    0
 1400 Department of the Interior                                    3                              4                      4                    0
 1601 Department of Labor                                       1,475                          1,656                  1,656                    0
 1800 United States Postal Service                                187                            171                    171                    0
 2500 National Credit Union Administration                          5                              6                      6                    0
 2700 Federal Communications Commission                             2                              8                      8                    0
 3600 DEPARTMENT OF VETERANS                                      116                            143                    143                    0
        AFFAIRS
 4700 General Services Administration                             124                            129                   129                     0
 6000 Railroad Retirement Board                                   117                            128                   128                     0
 6900 Department of Transportation                                217                            187                   187                     0
 7000 Department of Homeland Security                             104                             61                    61                     0
 7200 Agency for International Development                         24                             25                    25                     0
 7300 Small Business Administration                               436                            511                   511                     0
 7500 Department of Health and Human                                4                              0                     0                     0
        Services
 8300 Export-Import Bank of the United States                     524                            439                   439                     0
 8600 Department of Housing and Urban                             465                            414                   414                     0
        Development
 8900 Department of Energy                                        709                             404                   404                    0
 9100 Department of Education                                  26,643                          20,196                20,196                    0

                                                                          - 19 -
                                                             U.S.Department of the Treasury                                  11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                               118                         118                   118                      0
 DE00 Department of Defense                                         44                          38                    38                      0
                                  Total                        (35,511)                    (28,821)               (28,821)                    0




Agency FS Status CP Line Description                              Account Type          NB            2012-SEPTEMBER         2011-SEPTEMBER
 NCS             Borrowings Gains                                 ER                    C                          46                     64
                                                                                   Variance:                            0                     0

Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER             Previously Reported     Line item Changes
Partner
 1200 Department of Agriculture                                     45                          26                     26                     0
 2500 National Credit Union Administration                           0                          12                     12                     0
 7000 Department of Homeland Security                                0                          11                     11                     0
 8900 Department of Energy                                           1                          15                     15                     0
                                  Total                            (46)                        (64)                   (64)                    0




                                                                          - 20 -
                                                             U.S.Department of the Treasury                               11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2012                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                              Account Type         NB           2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Buy/Sell Revenue                                 ER                   C                       1,083                 1,265
                                                                                  Variance:                          0                     0

Trading          Name                           Status 2012-SEPTEMBER      2011-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                      9                         10                   10                     0
 1300 Department of Commerce                                         4                          2                    2                     0
 1500 Department of Justice                                          3                          7                    7                     0
 1601 Department of Labor                                           87                        100                  100                     0
 1900 Department of State                                            6                          5                    5                     0
 2400 Office of Personnel Management                                 1                          1                    1                     0
 2800 Social Security Administration                               722                        859                  859                     0
 3600 DEPARTMENT OF VETERANS                                        11                         10                   10                     0
        AFFAIRS
 4700 General Services Administration                                3                          6                    6                     0
 5100 Federal Deposit Insurance Corporation                          0                          2                    2                     0
 6000 Railroad Retirement Board                                      0                          1                    1                     0
 7000 Department of Homeland Security                                7                         16                   16                     0
 7200 Agency for International Development                           7                          3                    3                     0
 7500 Department of Health and Human                               150                        172                  172                     0
        Services
 8000 National Aeronautics and Space                                 1                          1                    1                     0
        Administration
 8600 Department of Housing and Urban                                7                          7                    7                     0
        Development
 8900 Department of Energy                                           0                          2                    2                     0
 9100 Department of Education                                        1                          2                    2                     0


                                                                         - 21 -
                                                             U.S.Department of the Treasury                                     11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2012                                   Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                        Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading        Name                             Status 2012-SEPTEMBER      2011-SEPTEMBER                Previously Reported     Line item Changes
Partner
 9500 Independent and Other Agencies                                61                             54                     54                     0
 DE00 Department of Defense                                          3                              5                      5                     0
                                  Total                         (1,083)                        (1,265)                (1,265)                    0




Agency FS Status CP Line Description                              Account Type          NB               2012-SEPTEMBER         2011-SEPTEMBER
 NCS             Benefit Program Costs                            GC                    D                           1,756                  1,744
                                                                                   Variance:                               0                     0

Trading         Name                            Status 2012-SEPTEMBER      2011-SEPTEMBER                Previously Reported     Line item Changes
Partner
 1601 Department of Labor                                          120                           101                     101                     0
 2400 Office of Personnel Management                             1,636                         1,630                   1,630                     0
 2800 Social Security Administration                                 0                            12                      12                     0
 6900 Department of Transportation                                   0                             1                       1                     0
                                  Total                          1,756                         1,744                   1,744                     0




                                                                          - 22 -
                                                            U.S.Department of the Treasury                                 11-16-2012 14:59:27
                                                            Financial Management Service
                                                        Governmentwide Financial Report System

                                                    GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                 Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                     Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                             Account Type         NB             2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Borrowing and Other Interest Expense            GC                   D                         8,746                 8,016
                                                                                 Variance:                             0                    0

Trading          Name                         Status 2012-SEPTEMBER       2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                   505                         592                   592                     0
 1300 Department of Commerce                                        2                           1                     1                     0
 1400 Department of the Interior                                    2                           5                     5                     0
 1900 Department of State                                           1                           0                     0                     0
 2700 Federal Communications Commission                             2                           5                     5                     0
 3600 DEPARTMENT OF VETERANS                                      216                         197                   197                     0
        AFFAIRS
 6900 Department of Transportation                                 29                          36                    36                     0
 7200 Agency for International Development                        112                         129                   129                     0
 7300 Small Business Administration                               258                         308                   308                     0
 7500 Department of Health and Human                                7                           4                     4                     0
        Services
 8300 Export-Import Bank of the United States                     179                          191                   191                    0
 8600 Department of Housing and Urban                           1,917                        1,866                 1,866                    0
        Development
 8900 Department of Energy                                        205                          161                   161                    0
 9100 Department of Education                                   5,271                        4,456                 4,456                    0
 9500 Independent and Other Agencies                               38                           62                    62                    0
 DE00 Department of Defense                                         2                            3                     3                    0
                                  Total                         8,746                        8,016                 8,016                    0




                                                                        - 23 -
                                                          U.S.Department of the Treasury                                11-16-2012 14:59:27
                                                          Financial Management Service
                                                      Governmentwide Financial Report System

                                                  GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                Fiscal Year: 2012                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                    Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                            Account Type         NB           2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Buy/Sell Costs                                 GC                   D                       2,044                 1,736
                                                                                Variance:                          0                     0

Trading          Name                         Status 2012-SEPTEMBER      2011-SEPTEMBER           Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                   49                         27                   27                     0
 1300 Department of Commerce                                       6                          1                    1                     0
 1400 Department of the Interior                                  15                         18                   18                     0
 1500 Department of Justice                                       15                         14                   14                     0
 1601 Department of Labor                                          6                          6                    6                     0
 1800 United States Postal Service                               248                        276                  276                     0
 1900 Department of State                                         19                         16                   16                     0
 2400 Office of Personnel Management                              23                         24                   24                     0
 4700 General Services Administration                            831                        841                  841                     0
 5100 Federal Deposit Insurance Corporation                        6                          0                    0                     0
 6400 Tennessee Valley Authority                                   3                          0                    0                     0
 6800 Environmental Protection Agency                             21                         28                   28                     0
 6900 Department of Transportation                               339                         84                   84                     0
 7000 Department of Homeland Security                            178                        184                  184                     0
 7200 Agency for International Development                        43                         36                   36                     0
 7500 Department of Health and Human                              47                         53                   53                     0
        Services
 8300 Export-Import Bank of the United States                     66                          0                    0                     0
 8900 Department of Energy                                        10                          5                    5                     0
 9500 Independent and Other Agencies                              96                        109                  109                     0
 DE00 Department of Defense                                       23                         14                   14                     0

                                                                       - 24 -
                                                              U.S.Department of the Treasury                                 11-16-2012 14:59:27
                                                              Financial Management Service
                                                          Governmentwide Financial Report System

                                                       GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                   Fiscal Year: 2012                                Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                       Reported in: MILLIONS                     Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading           Name                          Status 2012-SEPTEMBER       2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
                                  Total                           2,044                        1,736                 1,736                    0




Agency FS Status CP Line Description                               Account Type         NB             2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Federal Securities Interest Expense               GC                   D                        187,285               203,026
                                                                                   Variance:                             0                    0

Trading         Name                            Status 2012-SEPTEMBER       2011-SEPTEMBER             Previously Reported    Line item Changes
Partner
 1200 Department of Agriculture                                       5                            5                     5                    0
 1400 Department of the Interior                                    114                          119                   119                    0
 1500 Department of Justice                                           4                            6                     6                    0
 1601 Department of Labor                                           462                          650                   650                    0
 1602 PENSION BENEFIT GUARANTY                                    1,008                        1,112                 1,112                    0
        CORPORATION
 1800 United States Postal Service                                    1                         1                       1                     0
 1900 Department of State                                           715                       744                     744                     0
 2400 Office of Personnel Management                             37,035                    38,486                  38,486                     0
 2500 National Credit Union Administration                          214                       236                     236                     0
 2700 Federal Communications Commission                              27                        24                      24                     0
 2800 Social Security Administration                            110,788                   115,169                 115,169                     0

                                                                          - 25 -
                                                             U.S.Department of the Treasury                             11-16-2012 14:59:27
                                                             Financial Management Service
                                                         Governmentwide Financial Report System

                                                      GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                  Fiscal Year: 2012                            Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                      Reported in: MILLIONS                 Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line


Trading          Name                           Status 2012-SEPTEMBER     2011-SEPTEMBER          Previously Reported    Line item Changes
Partner
 3600 DEPARTMENT OF VETERANS                                       482                    541                    541                     0
        AFFAIRS
 5000 Securities and Exchange Commission                             1                      1                       1                    0
 5100 Federal Deposit Insurance Corporation                        131                    147                     147                    0
 6000 Railroad Retirement Board                                     46                     55                      55                    0
 6800 Environmental Protection Agency                              155                    120                     120                    0
 6900 Department of Transportation                                 252                    239                     239                    0
 7000 Department of Homeland Security                               26                     27                      27                    0
 7500 Department of Health and Human                            13,892                 15,740                  15,740                    0
        Services
 7802 Farm Credit System Insurance                                  49                     76                     76                     0
        Corporation
 8000 National Aeronautics and Space                                 1                      1                      1                     0
        Administration
 8600 Department of Housing and Urban                            1,293                    484                    484                     0
        Development
 8900 Department of Energy                                       1,415                  1,442                   1,442                    0
 9500 Independent and Other Agencies                               201                    213                     213                    0
 DE00 Department of Defense                                     18,968                 27,388                  27,388                    0
                                  Total                        187,285                203,026                203,026                     0




                                                                         - 26 -
                                                               U.S.Department of the Treasury                               11-16-2012 14:59:27
                                                               Financial Management Service
                                                           Governmentwide Financial Report System

                                                        GF004F - Trading Partner Summary Note Report

Statement: STATEMENT OF NET COST                                    Fiscal Year: 2012                              Period: SEPTEMBER

Entity:    2000 - Department of the Treasury                        Reported in: MILLIONS                   Decimal Point: ZERO
    Amounts presented as debits and credits()
    I = Inactive Line
Agency FS Status CP Line Description                                Account Type         NB           2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Imputed Costs                                      GC                   D                        813                   925
                                                                                    Variance:                          0                     0

Trading         Name                            Status 2012-SEPTEMBER        2011-SEPTEMBER           Previously Reported    Line item Changes
Partner
 2400 Office of Personnel Management                                 807                        919                  919                     0
 7000 Department of Homeland Security                                  6                          6                    6                     0
                                  Total                              813                        925                  925                     0

Agency FS Status CP Line Description                                Account Type         NB           2012-SEPTEMBER        2011-SEPTEMBER
 NCS             Other Expenses (without reciprocals)               GC                   D                        489                   485
                                                                                    Variance:                          0                     0

Trading        Name                             Status 2012-SEPTEMBER        2011-SEPTEMBER           Previously Reported    Line item Changes
Partner
 9900 Treasury General Fund                                          489                        485                  485                     0
                                  Total                              489                        485                  485                     0




                                                                           - 27 -
                                                                                                                                                                            11/16/2012 15:01:25

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 01             Taxes                                                                                         Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                        Agency Notes:        OAI - Appendix A
      Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxes (SSFAS No.7, par. 67-69)                                                Line Attributes: Dollars
                                                                                                                        Rounding Method: Millions                     Decimal: Zero
Line Status   Line Description        NB      2012 - SEPTEMBER         2011 - SEPTEMBER              Previously Rptd       Line Item Changes
 1            Estimated realized      Debit                 87,000                102,693                     102,693                          0
              value of compliance
              assessments as of
              the end of the period
 2            Estimated realizable    Debit
              value of pre-
              assessment work-
              in-progress
 3            Changes in 1 and 2      Debit
              above
 4            Other claims for        Debit                 11,400                 15,600                      15,600                          0
              refunds not yet
              accrued but likely to
              be paid when
              administrative
              actions are
              completed
 5            Management's best       Debit
              estimate of
              unasserted claims for
              refunds
 6            Changes in 4 and 5      Debit
              above
 7            Amount of               Debit                125,000                106,519                     106,519                          0
              assessments written
              off that continue to
              be statutorily
              collectible




                                                                                               - 1 -
                                                                                                                                                                                                    11/16/2012 15:01:25

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 01                Taxes                                                                                                            Fiscal Year: 2012                  Period: SEPTEMBER
        Entity: 2000           Department of the Treasury                                                                                            Agency Notes:        OAI - Appendix A
        Status: Complete                                                                                    I = Inactive Line


  Tab: Other Data Info.
      Section: B                 Section Name: Provide the following amount if a range is estimable               No Data: YES                 Line Attributes: Dollars
                                               and not included in Sec. A (SFFAS No. 7 par 67)                                               Rounding Method: User-Defined                   Decimal: User-Defined


Line Status     Line Description          NB                      CY Low                          CY High                       PY Low                      PY High
 1              Estimated realizable     Debit
                value of pre-
                assessment work-
                in-progress
 2              Changes in line 1        Debit
                above
 3              Management's best        Debit
                estimate of
                unasserted claims for
                refunds
 4              Changes in line 3        Debit
                above

     Tab: Other Text Data

        Section: A                 Section Name: Taxes (SSFAS No.7, par. 67-69)

 Line         Question                                                                                                           Answer
 1            Provide the explicit definitions of estimated amounts of the size of the tax gap.                                 The tax gap is the difference between the amount of tax imposed by law and what taxpayers
                                                                                                                                actually pay on time. The tax gap arises from the three types of noncompliance: not filing
                                                                                                                                required tax returns on time or at all (the nonfiling gap), underreporting the correct amount of
                                                                                                                                tax on timely filed returns (the underreporting gap), and not paying on time the full amount
                                                                                                                                reported on timely filed returns (the underpayment gap). Of these three components, only
                                                                                                                                the underpayment gap is observed; the nonfiling gap and the underreporting gap must be
                                                                                                                                estimated. The tax gap, estimated to be about $450 billion for tax year 2006 (the most
                                                                                                                                recent estimate made), represents the net amount of noncompliance with the tax laws.
                                                                                                                                Underreporting of tax liability accounts for 84 percent of the gap, with the remainder almost
                                                                                                                                evenly divided between nonfiling (6 percent) and underpaying (10 percent). Part of the
                                                                                                                                estimate is based on data from a study of individual returns filed for tax year 2006. It does
                                                                                                                                not include any taxes that should have been paid on income from illegal activities. Each
                                                                                                                                instance of noncompliance by a taxpayer contributes to the tax gap, whether or not the IRS
                                                                                                                                detects it, and whether or not the taxpayer is even aware of the noncompliance. Some of the
                                                                                                                                tax gap arises from intentional (willful) noncompliance, and some of it arises from
                                                                                                                                unintentional mistakes.
                                                                                                                                The collection gap is the cumulative amount of tax, penalties, and interest assessed over
                                                                                                                                many years, but not paid by a certain point in time, which the IRS expects will remain
                                                                                                                                uncollectible. In essence, it represents the difference between the total balance of unpaid
                                                                                                                                assessments and the net taxes receivable reported on the balance sheet of the IRS. The tax
                                                                                                                                gap and the collection gap are related and overlapping concepts, but they have significant



                                                                                                                 - 2 -
                                                                                                                                                                                                    11/16/2012 15:01:25

                                                                                        U.S. Department of the Treasury
                                                                                         Financial Management Service
                                                                                    Governmentwide Financial Report System
                                                                                           GF007 - Other Data Report

Other Data: 01               Taxes                                                                                                            Fiscal Year: 2012                    Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                            Agency Notes:        OAI - Appendix A
       Status: Complete                                                                                  I = Inactive Line



    Tab: Other Text Data

       Section: A                Section Name: Taxes (SSFAS No.7, par. 67-69)

Line        Question                                                                                                          Answer
                                                                                                                             differences. The collection gap is a cumulative balance sheet concept for a particular point in
                                                                                                                             time, while the tax gap is like an income statement item for a single year. Moreover, the tax
                                                                                                                             gap estimates include all noncompliance, while the collection gap includes only amounts that
                                                                                                                             have been assessed (a small portion of all noncompliance) and have not yet reached their
                                                                                                                             statutory collection expiration date. Also, the tax gap includes only tax, while the collection
                                                                                                                             gap includes tax, penalties, and interest.

2           Provide the appropriate explanation of the limited reliability of the estimates of the size of the tax           The Internal Revenue Service developed the concept of the tax gap as a way to gauge
            gap.                                                                                                             taxpayer¿s compliance with their federal tax obligations. The tax gap measures the extent of
                                                                                                                             which taxpayers do not file their tax returns and pay the correct tax on time.
                                                                                                                             Previous estimates of the tax gap relied on detailed research that was conducted for tax
                                                                                                                             years 1988 and earlier. To update this research and reflect a changing economy, revisions to
                                                                                                                             the tax code and more subtle shifts in individual behavior, the IRS launched the National
                                                                                                                             Research Program (NRP) in 2001.
                                                                                                                             The current estimates based on the NRP are preliminary, so they are shown as ranges. As
                                                                                                                             refinements are made to the tax gap analysis, some of these estimates may change. It is
                                                                                                                             unlikely, but possible, that the final estimates of the tax gap will fall outside of the established
                                                                                                                             range.

3           Provide cross-references to portions of the tax gap due from identified noncompliant taxpayers                   N/A
            and importers.
4           Provide the estimates of the annual tax gap (amounts should specifically define whether it                       The tax gap figure does not include taxes that should have been paid on income from the
            includes or excludes estimates of tax due on illegally earned revenue).                                          illegal sector of the economy.
5           Disclose the amounts by which trust funds may be over- or under-funded in comparison with the                    N/A
            requirements of law, if reasonable estimable.




                                                                                                               - 3 -
                                                                                                                                                        11/16/2012 15:01:25

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 02           Annual Revenues and Expenditures                                                         Fiscal Year: 2012         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                  Agency Notes:    N/A
     Status: Complete                                                                  I = Inactive Line


  Tab: Other Data Info.
    Section: A              Section Name: Revenues from the Public                           No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




    Section: B              Section Name: Expenditures to the Public                         No Data: YES          Line Attributes:


Line Status   Line Description     NB                         HI                 SMI                       OASDI




                                                                                            - 4 -
                                                                                                                                                          11/16/2012 15:01:25

                                                                          U.S. Department of the Treasury
                                                                           Financial Management Service
                                                                      Governmentwide Financial Report System
                                                                             GF007 - Other Data Report

 Other Data: 02           Annual Revenues and Expenditures                                                           Fiscal Year: 2012         Period: SEPTEMBER
      Entity: 2000        Department of the Treasury                                                                    Agency Notes:    N/A
     Status: Complete                                                                    I = Inactive Line


  Tab: Other Data Info.
    Section: C              Section Name: Revenue from Other Government Accounts               No Data: YES          Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




    Section: D              Section Name: Net Result (Trust Fund)                              No Data: YES          Line Attributes:


Line Status   Line Description     NB                        HI                    SMI                       OASDI




                                                                                              - 5 -
                                                                                                                                                                       11/16/2012 15:01:25

                                                                              U.S. Department of the Treasury
                                                                               Financial Management Service
                                                                          Governmentwide Financial Report System
                                                                                 GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: A              Section Name: Investment in Non-Federal physical property (SFFAS      No Data: YES              Line Attributes: Dollars
                                           No. 8, par 87)                                                                  Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2012                   FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other non-Federal     Debit
              physical property

     Section: B              Section Name: Research and Development: Investment in                 No Data: YES              Line Attributes: Dollars
                                           Development (SFFAS No. 8, par. 94, 99 & 100)                                    Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description      NB                   FY 2012                   FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                  Debit
 2                                  Debit
 3                                  Debit
 4                                  Debit
 5                                  Debit
 6            Other investment in   Debit
              development




                                                                                                  - 6 -
                                                                                                                                                                       11/16/2012 15:01:25

                                                                             U.S. Department of the Treasury
                                                                              Financial Management Service
                                                                         Governmentwide Financial Report System
                                                                                GF007 - Other Data Report

 Other Data: 08            Stewardship Investments                                                                           Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                            Agency Notes:    N/A
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Investment in Human Capital (SFFAS No. 8, par 100)      No Data: YES              Line Attributes: Dollars
                                                                                                                           Rounding Method: User-Defined         Decimal: User-Defined
Line Status   Line Description       NB                 FY 2012                    FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other Investments in   Debit
              human capital


     Section: D              Section Name: Research and Development: Investment in Basic           No Data: YES              Line Attributes: Dollars
                                           Research (SFFAS No. 8, par.99 & 100)                                            Rounding Method: User-Defined         Decimal: User-Defined


Line Status   Line Description       NB                 FY 2012                    FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                   Debit
 2                                   Debit
 3                                   Debit
 4                                   Debit
 5                                   Debit
 6            Other investments in   Debit
              basic research




                                                                                                  - 7 -
                                                                                                                                                                                  11/16/2012 15:01:25

                                                                                       U.S. Department of the Treasury
                                                                                        Financial Management Service
                                                                                   Governmentwide Financial Report System
                                                                                          GF007 - Other Data Report

 Other Data: 08                Stewardship Investments                                                                                  Fiscal Year: 2012             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                    Agency Notes:    N/A
        Status: Complete                                                                                I = Inactive Line


     Tab: Other Data Info.
      Section: E                 Section Name: Research and Development: Investment in Applied                No Data: YES              Line Attributes: Dollars
                                               Research (SFFAS No. 8, par 100)                                                        Rounding Method: User-Defined         Decimal: User-Defined


Line Status      Line Description         NB                    FY 2012                       FY 2011                       FY 2010                FY 2009                 FY 2008
 1                                       Debit
 2                                       Debit
 3                                       Debit
 4                                       Debit
 5                                       Debit
 6               Other investment in     Debit
                 applied research


     Tab: Other Text Data

        Section: A                  Section Name: Investment in Non-Federal physical property (SFFAS             No Data: YES
                                                  No. 8, par 87)

 Line         Question                                                                                                      Answer
 1            Provide a description of federally owened physical property transferred to state and local
              governments. (SFFAS No. 8, par 87)
 2            Provide a description of the major programs of Federal investments in non-Federal physical
              property used in the "Other Data Info" tab. (SFFAS No.8 par. 87)
     Tab: Other Text Data

        Section: B                  Section Name: Research and Development: Investment in                        No Data: YES
                                                  Development (SFFAS No. 8, par. 94, 99 & 100)

 Line         Question                                                                                                      Answer
 1            Provide a description of the major programs of Federal investments in development used in the
              "Other Data Info" tab. (SFFAS No. 8, par. 100)
 2            Provide a description of the progress of major developmental projects including the results with
              respect to
              projects completed or otherwise terminated during the year and the status of projects that will
              continue (SFFAS No. 8,
              par. 99).




                                                                                                             - 8 -
                                                                                                                                                                      11/16/2012 15:01:25

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 08              Stewardship Investments                                                                              Fiscal Year: 2012         Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:    N/A
       Status: Complete                                                                             I = Inactive Line



    Tab: Other Text Data

       Section: C               Section Name: Investment in Human Capital (SFFAS No. 8, par 100)             No Data: YES

Line         Question                                                                                                   Answer
1           Provide a description of the major education and training programs considered Federal
            investments in human
            capital used in the "Other Data Info" tab (SFFAS No. 8, par. 94).
    Tab: Other Text Data

       Section: D               Section Name: Research and Development: Investment in Basic                  No Data: YES
                                              Research (SFFAS No. 8, par.99 & 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in basic research used in the
            "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new discoveries made during the year (SFFAS No. 8, par. 99)
    Tab: Other Text Data

       Section: E               Section Name: Research and Development: Investment in Applied                No Data: YES
                                              Research (SFFAS No. 8, par 100)

Line         Question                                                                                                   Answer
1           Provide a description of the major programs of Federal investments in applied research used in
            the "Other Data
            Info" tab (SFFAS No. 8, par. 100).
2           Provide a description of any major new applications developed during the year (SFFAS No. 8,
            par. 99)




                                                                                                         - 9 -
                                                                                                                                                                   11/16/2012 15:01:25

                                                                           U.S. Department of the Treasury
                                                                            Financial Management Service
                                                                       Governmentwide Financial Report System
                                                                              GF007 - Other Data Report

 Other Data: 09             Deferred Maintenance                                                                       Fiscal Year: 2012             Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                     Agency Notes:       N/A
      Status: Complete                                                                I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Range of Amounts                                No Data: YES               Line Attributes: Dollars
                                                                                                                     Rounding Method: User-Defined          Decimal: User-Defined
Line Status   Line Description         NB                CY- Low   D       CY- High    D CY - Critical Maintenance             PY- Low     D            PY- High    D PY - Critical Maintenance
                                                                                                                 D                                                                            D
 1            Buildings, structures,   N/A
              and facilities
 2            Furniture, fixtures,     N/A
              and equipment
 3            Other general            N/A
              property, plant, and
              equipment
 4            Heritage assets          N/A
 5            Stewardship land         N/A




                                                                                          - 10 -
                                                                                                                                                                      11/16/2012 15:01:25

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 11           Tax Burden                                                                                Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                    Agency Notes:        OAI - Appendix A
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Taxable Returnes-Individual Income Tax Returns for                      Line Attributes: Units
                                            Tax Year 2010 for the following AGI levels


Line Status   Line Description       NB                        AGI
 1            Under $15,000          N/A            37,602,000.0000
 2            $15,000 under          N/A            30,858,000.0000
              $30,000
 3            $30,000 under          N/A            25,605,000.0000
              $50,000
 4            $50,000 under          N/A            30,533,000.0000
              $100,000
 5            $100,000 under         N/A            13,998,000.0000
              $200,000
 6            $200,000 under         N/A               3,472,000.0000
              $500,000
 7            $500,000 or more       N/A                825,000.0000
     Section: B               Section Name: Individual AGI and Income Tax information -                             Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2010                       Rounding Method: Millions                     Decimal: Zero


Line Status   Line Description       NB                        AGI         Total Income Tax
 1            Under $15,000         Debit                     87,421                     1,587
 2            $15,000 under         Debit                    681,419                    14,314
              $30,000
 3            $30,000 under         Debit                   1,000,098                   47,754
              $50,000
 4            $50,000 under         Debit                   2,171,323                  167,026
              $100,000
 5            $100,000 under        Debit                   1,869,639                  224,423
              $200,000
 6            $200,000 under        Debit                    985,431                   192,826
              $500,000
 7            $500,000 or more       N/A                    1,293,811                  303,745




                                                                                                  - 11 -
                                                                                                                                                                 11/16/2012 15:01:25

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 11           Tax Burden                                                                              Fiscal Year: 2012              Period: SEPTEMBER
       Entity: 2000       Department of the Treasury                                                                  Agency Notes:     OAI - Appendix A
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C               Section Name: Individual AGI and Average Income Tax Information-                    Line Attributes: Dollars
                                            Individual Income Tax Returns for Tax Year 2010                     Rounding Method: Whole-Dollars             Decimal: Zero


Line Status   Line Description       NB      Avg. AGI per return      D    Avg. Income Tax per
                                                                                    return  D
 1            Under $15,000          N/A                      2,325                         42
 2            $15,000 under          N/A                     22,082                       464
              $30,000
 3            $30,000 under          N/A                     39,059                      1,865
              $50,000
 4            $50,000 under          N/A                     71,114                      5,470
              $100,000
 5            $100,000 under         N/A                    133,565                    16,033
              $200,000
 6            $200,000 under         N/A                    283,822                    55,537
              $500,000
 7            $500,000 or more       N/A                  1,568,256                   368,176
     Section: D               Section Name: Income Tax as a Percentage of AGI-Indvidual Income                    Line Attributes: Percent
                                            Tax Returns for Tax Year 2010


Line Status   Line Description       NB                       AGI
 1            Under $15,000          N/A                     1.8000
 2            $15,000 under          N/A                     2.1000
              $30,000
 3            $30,000 under          N/A                     4.8000
              $50,000
 4            $50,000 under          N/A                     7.7000
              $100,000
 5            $100,000 under         N/A                    12.0000
              $200,000
 6            $200,000 under         N/A                    19.6000
              $500,000
 7            $500,000 or more       N/A                    23.5000




                                                                                                 - 12 -
                                                                                                                                                                       11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 11              Tax Burden                                                                                Fiscal Year: 2012              Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                    Agency Notes:      OAI - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: E               Section Name: Income Subject to Tax & Total Income Tax After                            Line Attributes: Dollars
                                             Credits:Corp. Income for Tax Year 2009                                  Rounding Method: Millions                   Decimal: Zero


Line Status    Line Description       NB     Income Subject to Tax         Total Income Tax After
                                                                                      Credits
 1             Zero Assets           Debit                    45,444                     13,840
 2             $1 under $500         Debit                     6,280                      1,088
 3             $500 under $1,000     Debit                     3,273                          734
 4             $1,000 under $5,000   Debit                    11,116                      3,043
 5             $5,000 under          Debit                     6,206                      2,002
               $10,000
 6             $10,000 under         Debit                     9,865                      3,237
               $25,000
 7             $25,000 under         Debit                     8,968                      2,883
               $50,000
 8             $50,000 under         Debit                    12,209                      3,925
               $100,000
 9             $100,000 under        Debit                    20,445                      6,430
               $250,000
 10            $250,000 under        Debit                    24,838                      7,492
               $500,000
 11            $500,000 under         N/A                     91,990                     26,347
               $2,500,000
 12            $2,500,000 or more     N/A                    654,215                    133,974
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                         Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2009


Line Status    Line Description       NB     Income Subject to Tax
 1             Zero Assets            N/A                    30.5000
 2             $1 under $500          N/A                    17.3000
 3             $500 under $1,000      N/A                    22.4000
 4             $1,000 under $5,000    N/A                    27.4000
 5             $5,000 under           N/A                    32.3000
               $10,000
 6             $10,000 under          N/A                    32.8000
               $25,000



                                                                                                     - 13 -
                                                                                                                                                              11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 11            Tax Burden                                                                                Fiscal Year: 2012             Period: SEPTEMBER
        Entity: 2000       Department of the Treasury                                                                   Agency Notes:      OAI - Appendix A
       Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
      Section: F               Section Name: Percentage of Income Tax After Credits to Taxable                       Line Attributes: Percent
                                             Income-Corporation Income for Tax Year 2009


Line Status    Line Description       NB     Income Subject to Tax
 7             $25,000 under          N/A                    32.1000
               $50,000
 8             $50,000 under          N/A                    32.1000
               $100,000
 9             $100,000 under         N/A                    31.5000
               $250,000
 10            $250,000 under         N/A                    30.2000
               $500,000
 11            $500,000 under         N/A                    28.6000
               $2,500,000
 12            $2,500,000 or more     N/A                    20.5000




                                                                                                     - 14 -
                                                                                                                                                                         11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 12             Other information                                                                                 Fiscal Year: 2012              Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                            Agency Notes:        RSI
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Estimated amounts that may be paid out as other                                   Line Attributes: Dollars
                                            claims for tax refunds                                                          Rounding Method: Millions              Decimal: Zero


Line Status   Line Description         NB       2012 - SEPTEMBER          2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Estimated payout         Debit                   6,088                     8,109                      8,109                          0
              (including principal
              and interest) for
              claims pending
              judicial review by the
              Federal Courts
 2            Claims under appeal      Debit                   5,331                     7,507                      7,507                          0



     Section: B               Section Name: Other information related to taxes                                                Line Attributes: Dollars
                                                                                                                            Rounding Method: Millions              Decimal: Zero
Line Status   Line Description         NB       2012 - SEPTEMBER          2011 - SEPTEMBER               Previously Rptd       Line Item Changes
 1            Payroll taxes paid by    Debit                   2,353                     3,688                      3,688                          0
              Federal agencies
              included in individual
              and FICA taxes
 2            Refundable portion       Debit                  22,106                    22,691                     22,691                          0
              of child care tax
              credits issued
 3            Amount of EITC           Debit                  54,890                    55,652                     55,652                          0
              refunds
 4            Amount of EITC           Debit
              refunds applied to
              reduce taxpayer
              liability




                                                                                                  - 15 -
                                                                                                                                                                              11/16/2012 15:01:25

                                                                                     U.S. Department of the Treasury
                                                                                      Financial Management Service
                                                                                 Governmentwide Financial Report System
                                                                                        GF007 - Other Data Report

 Other Data: 14               Risk Assumed-Federal Insurance and Guarantee Programs(SFFAS No. 5, par. 105, 106,and 114)             Fiscal Year: 2012             Period: SEPTEMBER
         Entity: 2000         Department of the Treasury                                                                                Agency Notes:    N/A
        Status: Complete                                                                            I = Inactive Line


     Tab: Other Data Info.
      Section: A                Section Name: Risk Assumed                                                 No Data: YES             Line Attributes: Dollars
                                                                                                                                  Rounding Method: User-Defined         Decimal: User-Defined
Line Status      Line Description        NB       2012 - SEPTEMBER            2011 - SEPTEMBER                  Previously Rptd      Line Item Changes
 1               Present value of       Debit
                 unpaid expected
                 losses (net of
                 associated
                 premiums)
 2               Periodic changes       Debit




     Tab: Other Text Data

        Section: A                  Section Name: Risk Assumed                                              No Data: YES

 Line          Question                                                                                                 Answer
 1            Provide the indicators of the range of uncertainty around Federal insurance and guarantee
              programs related estimates and sensitivity of the estimates to changes in major assumptions
              (SFFAS No.5, par.114)
 2            Provide the actuarial or financial methods used to measure the present value of unpaid expected
              losses (SFFAS No. 5. par. 114)




                                                                                                        - 16 -
                                                                                                                                                                            11/16/2012 15:01:25

                                                                                 U.S. Department of the Treasury
                                                                                  Financial Management Service
                                                                             Governmentwide Financial Report System
                                                                                    GF007 - Other Data Report

 Other Data: 15              Analysis of FR Operating Revenue to Budget Receipts                                             Fiscal Year: 2012                Period: SEPTEMBER
        Entity: 2000         Department of the Treasury                                                                          Agency Notes:       N/A
       Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
      Section: A               Section Name: Operating Revenues to the Budget Receipts                                       Line Attributes: Dollars
                                                                                                                           Rounding Method: Millions                  Decimal: Zero
Line Status    Line Description         NB      CY-Individual income tax   CY-Corporation income   CY-Unemployment taxes        CY-Excise taxes         CY-Estate and gift taxes   CY-Customs duties
                                                 and tax withholdings                    taxes
 1             Undistributed           Credit                1,836,315                   237,492                   7,053                    78,067                      13,945
               Offsetting receipts
               (offset against
               outlays)
 2             Proprietary receipts    Credit
               from the public
               (offset against
               outlays)
 3             Rents and royalties     Credit
               on the outer
               continental shelf
               lands (offset against
               outlays)
 4             Offsetting              Credit
               governmental
               receipts (offset
               against outlays)
 5             Intrabudgetary          Credit
               transactions (offset
               against outlays)
 6             Earned (exchange)       Credit
               revenue reported in
               the Statement of Net
               Cost
 7                                     Credit
 8                                     Credit
 9                                     Credit
 10            Total (exchange and      N/A                 -1,836,315                -237,492                    -7,053                   -78,067                     -13,945
               nonexchange)

Line Status    Line Description         NB           CY-Other taxes and CY-Miscellaneous earned
                                                            receipts                 revenue
 1             Undistributed           Credit                    87,440                    4,741
               Offsetting receipts
               (offset against
               outlays)



                                                                                                   - 17 -
                                                                                                                                                                                            11/16/2012 15:01:25

                                                                                         U.S. Department of the Treasury
                                                                                          Financial Management Service
                                                                                     Governmentwide Financial Report System
                                                                                            GF007 - Other Data Report

 Other Data: 15                Analysis of FR Operating Revenue to Budget Receipts                                                          Fiscal Year: 2012                Period: SEPTEMBER
         Entity: 2000          Department of the Treasury                                                                                       Agency Notes:       N/A
        Status: Complete                                                                                 I = Inactive Line


  Tab: Other Data Info.
       Section: A                Section Name: Operating Revenues to the Budget Receipts                                                   Line Attributes: Dollars
                                                                                                                                         Rounding Method: Millions                   Decimal: Zero
Line Status      Line Description         NB            CY-Other taxes and CY-Miscellaneous earned
                                                               receipts                 revenue
 2               Proprietary receipts    Credit                          365
                 from the public
                 (offset against
                 outlays)
 3               Rents and royalties     Credit
                 on the outer
                 continental shelf
                 lands (offset against
                 outlays)
 4               Offsetting              Credit
                 governmental
                 receipts (offset
                 against outlays)
 5               Intrabudgetary          Credit
                 transactions (offset
                 against outlays)
 6               Earned (exchange)       Credit
                 revenue reported in
                 the Statement of Net
                 Cost
 7                                       Credit
 8                                       Credit
 9                                       Credit
 10              Total (exchange and      N/A                       -87,805                         -4,741
                 nonexchange)

      Tab: Other Text Data

        Section: A                 Section Name: Operating Revenues to the Budget Receipts

 Line         Question                                                                                                       Answer
 1            Provide a detailed description of the undistributed offsetting receipts reconciling item(s).                   Separate analysis submitted to FMS/Financial Reports Division (FRD)
 2            Provide a detailed description of the proprietary receipts from the public reconciling item(s).                Separate analysis submitted to FMS/Financial Reports Division (FRD)
 3            Provide a detailed description of the offsetting governmental receipts reconciling item(s).                    Separate analysis submitted to FMS/Financial Reports Division (FRD)
 4            Provide a detailed description of the intrabudgetary transaction reconciling item(s).                          Separate analysis submitted to FMS/Financial Reports Division (FRD)
 5            Provide a detailed description of the earned revenue reconciling item(s).                                      Separate analysis submitted to FMS/Financial Reports Division (FRD)



                                                                                                                - 18 -
                                                                                                                                                                                       11/16/2012 15:01:25

                                                                                      U.S. Department of the Treasury
                                                                                       Financial Management Service
                                                                                  Governmentwide Financial Report System
                                                                                         GF007 - Other Data Report

Other Data: 15               Analysis of FR Operating Revenue to Budget Receipts                                                       Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                                    Agency Notes:       N/A
       Status: Complete                                                                             I = Inactive Line



 Tab: Other Text Data

       Section: A               Section Name: Operating Revenues to the Budget Receipts

Line        Question                                                                                                    Answer
6           Provide a detailed description of the agency entered description reconciling item(s).                       Separate analysis submitted to FMS/Financial Reports Division (FRD)




                                                                                                        - 19 -
                                                                                                                                                                                11/16/2012 15:01:25

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                         Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                             Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                        I = Inactive Line


  Tab: Other Data Info.
     Section: A               Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                            Current Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB      CY-Federal Direct Student   CY-Electric Loans       CY-Rural Housing Service         CY-Federal Family               CY-Water and           CY-Farm Loans
                                                              Loans                                                                Education Loan         Environmental Loans
 1            Direct Loans            Debit
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans            N/A
              receivable, gross-
              end of the year

Line Status   Line Description        NB        CY-Export-Import Bank        CY-U.S. Agency for      CY-Housing and Urban CY-GSE Mortgage Backed                CY-All other loans               CY-Total
                                                             Loans    International Development           Development          Securities Purchase                  receivable
                                                                                                                                       Program
 1            Direct Loans            Debit                                                                                                   70,586                       27,466                     27,466
              Receivable, Gross -
              Beginning of Year
 2            Disbursements           Debit                                                                                                                                 5,643                      5,643
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                                                                                                  -70,586                       -1,520                     -1,520
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit                                                                                                                                    81                         81
 8            Direct Loans             N/A                                                                                                         0                       31,670                     31,670
              receivable, gross-



                                                                                                  - 20 -
                                                                                                                                                                                  11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16              Components of Loans and Equity Investments                                                          Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000          Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: A                 Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                              Current Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB       CY-Export-Import Bank        CY-U.S. Agency for        CY-Housing and Urban CY-GSE Mortgage Backed                CY-All other loans               CY-Total
                                                             Loans    International Development             Development          Securities Purchase                  receivable
                                                                                                                                         Program
              end of the year




     Section: B                 Section Name: Components of Direct Loans Receivable, Gross -                                     Line Attributes: Dollars
                                              Prior Year                                                                       Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB     PY-Federal Direct Student     PY-Electric Loans       PY-Rural Housing Service         PY-Federal Family               PY-Water and           PY-Farm Loans
                                                              Loans                                                                  Education Loan         Environmental Loans
 1            Direct Loans            Debit
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            Direct Loans             N/A
              receivable, gross-
              end of the year

Line Status   Line Description         NB       PY-Export-Import Bank        PY-U.S. Agency for        PY-Housing and Urban PY-GSE Mortgage Backed                PY-All other loans               PY-Total
                                                             Loans    International Development             Development          Securities Purchase                  receivable
                                                                                                                                         Program
 1            Direct Loans            Debit                                                                                                    164,339                       15,487                     15,487



                                                                                                    - 21 -
                                                                                                                                                                              11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                       Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                           Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                       I = Inactive Line


  Tab: Other Data Info.
     Section: B               Section Name: Components of Direct Loans Receivable, Gross -                                   Line Attributes: Dollars
                                            Prior Year                                                                     Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB      PY-Export-Import Bank        PY-U.S. Agency for       PY-Housing and Urban PY-GSE Mortgage Backed               PY-All other loans               PY-Total
                                                           Loans    International Development            Development          Securities Purchase                 receivable
                                                                                                                                      Program
              Receivable, gross -
              beginning of year
 2            Disbursements           Debit                                                                                                                              12,180                     12,180
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                                                                                                -93,753                         -201                      -201
 4            Losses                  Debit
 5            Capitalized interest    Debit
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            Direct Loans            N/A                                                                                                   70,586                       27,466                     27,466
              receivable, gross-
              end of the year
     Section: C               Section Name: Components of Loan Guarantees, Gross - Current                                   Line Attributes: Dollars
                                            Year                                                                           Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB           CY-Federal Family        CY-Federal Housing       CY-Veterans Housing    CY-Export-Import Bank CY-Small Business Loans CY-Israeli Loan Guarantee
                                                  Education Loans        Administration Loans         Benefit Program                    Loans                                          Program
 1            Guaranteed Loans,       Debit
              gross-beginning of
              the year
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year




                                                                                                 - 22 -
                                                                                                                                                                             11/16/2012 15:01:25

                                                                               U.S. Department of the Treasury
                                                                                Financial Management Service
                                                                           Governmentwide Financial Report System
                                                                                  GF007 - Other Data Report

 Other Data: 16            Components of Loans and Equity Investments                                                       Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000        Department of the Treasury                                                                           Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                      I = Inactive Line


  Tab: Other Data Info.
     Section: C              Section Name: Components of Loan Guarantees, Gross - Current                                   Line Attributes: Dollars
                                           Year                                                                           Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description      NB      CY-OPIC Credit Program CY-Rural Housing Service CY-Business and Industry            CY-Export Credit       CY-All other Guaranteed                CY-Total
                                                                                                           Loans           Guarantee Programs                         loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year
 2            Disbursements         Debit
              (loans
              made/securities
              purchased)
 3            Repayments            Debit
 4            Other                 Debit                                                                                                                                    7                           7
 5            Guaranteed Loans,       N/A                                                                                                                                    7                           7
              gross-end of the
              year
     Section: D               Section Name: Components of Loan Guarantees, Gross - Prior Year     No Data: YES              Line Attributes: Dollars
                                                                                                                          Rounding Method: Millions                    Decimal: Zero
Line Status   Line Description      NB            PY-Federal Family        PY-Federal Housing       PY-Veterans Housing    PY-Export-Import Bank PY-Small Business Loans PY-Israeli Loan Guarantee
                                                 Education Loans        Administration Loans         Benefit Program                    Loans                                          Program
 1             Guaranteed Loans,    Debit
               gross-beginning of
               the year
 2             Disbursements        Debit
               (loans
               made/securities
               purchased)
 3             Repayments           Debit
 4             Other                Debit
 5             Guaranteed Loans,    N/A
               gross-end of the
               year

Line Status   Line Description      NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry             PY-Export Credit      PY-All other Guaranteed                PY-Total
                                                                                                           Loans           Guarantee Programs                         loans
 1            Guaranteed Loans,     Debit
              gross-beginning of
              the year



                                                                                                - 23 -
                                                                                                                                                                                 11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: D                 Section Name: Components of Loan Guarantees, Gross - Prior Year       No Data: YES              Line Attributes: Dollars
                                                                                                                              Rounding Method: Millions                    Decimal: Zero
Line Status   Line Description         NB      PY-OPIC Credit Program PY-Rural Housing Service PY-Business and Industry              PY-Export Credit      PY-All other Guaranteed                PY-Total
                                                                                                              Loans            Guarantee Programs                         loans
 2            Disbursements           Debit
              (loans
              made/securities
              purchased)
 3            Repayments              Debit
 4            Other                   Debit
 5            Guaranteed Loans,       N/A
              gross-end of the
              year
     Section: E               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description         NB         CY-Capital Purchase    CY-AIG, Inc., Investment    CY-Targeted Investment    CY-Automotive Industry            CY-Consumer and            CY-Public-Private
                                                          Program                     Program                   Program         Financing Program                 Business Lending     Investment Program
                                                                                                                                                                       Initiative
 1            TARP loans and          Debit                   17,299                     51,087                                                37,278                                                  15,943
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                                                                                                                                                             1,048
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                   -8,223                    -34,294                                                   -26                                                  -7,228
 4            Losses                  Debit                     -412                     -9,862
 5            Capitalized interest    Debit                                                -204
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and           N/A                     8,664                      6,727                                                37,252                                                   9,763
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description         NB           CY-All Other TARP                CY-Total
                                                         Programs


                                                                                                    - 24 -
                                                                                                                                                                                 11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: E               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Current Year                                                 Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB           CY-All Other TARP                 CY-Total
                                                        Programs
 1            TARP loans and          Debit                     798                     122,405
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                                               1,048
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                    -128                     -49,899
 4            Losses                  Debit                      -3                     -10,277
 5            Capitalized interest    Debit                                                -204
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and          N/A                      667                    63,073
              equity investments
              receivable, gross-
              end of year
     Section: F               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB         PY-Capital Purchase     PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry            PY-Consumer and            PY-Public-Private
                                                         Program                      Program                   Program         Financing Program                Business Lending      Investment Program
                                                                                                                                                                      Initiative
 1            TARP loans and          Debit                  49,779                      47,543                                                67,238                                                  13,729
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                                              20,292                                                                                                         3,421
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                 -32,395                     -15,034                                               -23,889                                                  -1,207
 4            Losses                  Debit                     -85                      -1,918                                                -6,071



                                                                                                    - 25 -
                                                                                                                                                                                 11/16/2012 15:01:25

                                                                                U.S. Department of the Treasury
                                                                                 Financial Management Service
                                                                            Governmentwide Financial Report System
                                                                                   GF007 - Other Data Report

 Other Data: 16             Components of Loans and Equity Investments                                                          Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                              Agency Notes:       1, 7, 11, and 12
      Status: Complete                                                                          I = Inactive Line


  Tab: Other Data Info.
     Section: F               Section Name: Components of TARP Direct Loans and Equity                                          Line Attributes: Dollars
                                            Investments, Gross - Prior Year                                                   Rounding Method: Millions                    Decimal: Zero


Line Status   Line Description        NB         PY-Capital Purchase     PY-AIG, Inc., Investment    PY-Targeted Investment    PY-Automotive Industry            PY-Consumer and            PY-Public-Private
                                                         Program                      Program                   Program         Financing Program                Business Lending      Investment Program
                                                                                                                                                                      Initiative
 5            Capitalized interest    Debit                                                 204
 6            Capitalized dividends Debit
 7            Other                   Debit
 8            TARP loans and          N/A                    17,299                      51,087                                                37,278                                                  15,943
              equity investments
              receivable, gross-
              end of year

Line Status   Line Description        NB           PY-All Other TARP                 PY-Total
                                                         Programs
 1            TARP loans and          Debit                     908                     179,197
              equity investments
              receivable, gross-
              beginning of year
 2            Disbursements           Debit                     126                      23,839
              (loans
              made/securities
              purchased)
 3            Repayments              Debit                    -236                     -72,761
 4            Losses                  Debit                                              -8,074
 5            Capitalized interest    Debit                                                 204
 6            Capitalized dividends   Debit
 7            Other                   Debit
 8            TARP loans and           N/A                      798                     122,405
              equity investments
              receivable, gross-
              end of year




                                                                                                    - 26 -
                                                                                                                                                                                       11/16/2012 15:01:25

                                                                                   U.S. Department of the Treasury
                                                                                    Financial Management Service
                                                                               Governmentwide Financial Report System
                                                                                      GF007 - Other Data Report

Other Data: 16              Components of Loans and Equity Investments                                                                Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                                    Agency Notes:       1, 7, 11, and 12
       Status: Complete                                                                           I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Components of Direct Loans Receivable, Gross -
                                              Current Year

Line        Question                                                                                                   Answer
1           Provide details regarding the programs reported in Sections A and B that comprise amounts                 There are regular direct loans and loans and equity investment that are accounted for under
            reported in the "all other Loans Receivable" column.                                                      the Federal Credit Reform Act of 1990 (FCRA). See FR Notes (GF006) Note 04A Direct
                                                                                                                      Loans Receivable and Mortgage Backed Securities for amounts in "Other."
2           Provide a detailed description of the amounts reported in Sections A and B that comprose the              See FR Notes (GF006) Note 04A Direct Loans Receivable and Mortgage Backed Securities
            "Other" line.                                                                                             for amounts in "Other."

                                                                                                                      Amounts in the "Total" column do not include GSE Mortgaged Backed Securities Purchase
                                                                                                                      Program. See below for recap of Sections A and B:

                                                                                                                      Section A- Components of Direct Loans Receivable, Gross- Current Year
                                                                                                                      Current FY/E 2012
                                                                                                                      (In Millions)

                                                                                                                      Column One - GSE Mortgaged Backed Securities Purchase Program
                                                                                                                      Column Two - All Other Loans Receivable
                                                                                                                      Column Three - Total

                                                                                                                      1 Direct loans receivable, gross - beginning of the year $70,586 $27,466 $98,052
                                                                                                                      2 Disbursements $0 $5,643 $5,643
                                                                                                                      3 Repayments ($70,586) ($1,520) ($72,106)
                                                                                                                      4 Losses $0 $0 $0
                                                                                                                      5 Capitalized interest $0 $0 $0
                                                                                                                      6 Capitalized dividends $0 $0 $0
                                                                                                                      7 Other $0 $81 $81
                                                                                                                      8 Direct loans receivable, gross - end of the year $0 $31,670 $31,670

                                                                                                                      Section B- Components of Direct Loans Receivable, Gross- Prior Year
                                                                                                                      Prior FY/E 2011
                                                                                                                      (In Millions)
                                                                                                                      Column One - GSE Mortgaged Backed Securities Purchase Program
                                                                                                                      Column Two - All Other Loans Receivable
                                                                                                                      Column Three - Total

                                                                                                                      1 Direct loans receivable, gross - beginning of the year $164,339 $15,487 $179,826
                                                                                                                      2 Disbursements $0 $12,180 $12,180
                                                                                                                      3 Repayments ($93,753) ($201) ($93,954)
                                                                                                                      4 Losses $0 $0 $0
                                                                                                                      5 Capitalized interest $0 $0 $0
                                                                                                                      6 Capitalized dividends $0 $0 $0
                                                                                                                      7 Other $0 $0 $0



                                                                                                       - 27 -
                                                                                                                                                                                       11/16/2012 15:01:25

                                                                                    U.S. Department of the Treasury
                                                                                     Financial Management Service
                                                                                Governmentwide Financial Report System
                                                                                       GF007 - Other Data Report

Other Data: 16              Components of Loans and Equity Investments                                                                Fiscal Year: 2012                Period: SEPTEMBER
       Entity: 2000         Department of the Treasury                                                                                    Agency Notes:       1, 7, 11, and 12
       Status: Complete                                                                            I = Inactive Line



    Tab: Other Text Data

       Section: A               Section Name: Components of Direct Loans Receivable, Gross -
                                              Current Year

Line        Question                                                                                                   Answer
                                                                                                                       8 Direct loans receivable, gross - end of the year $70,586 $27,466 $98,052



3           Provide details regarding the programs reported in Sections C and D that comprose the "Other"              There is only one program from Troubled Asset Relief Program (TARP) called FHA-
            line in the "all other Guaranteed Loans" column.                                                           Refinance Program
4           Provide a detailed description of the amounts reported in Sections C and D that comprose the               The amount is from the results of subsidy expense. See FR Notes (GF006) Note 04B Loan
            "Other" line.                                                                                              Guarantees.
5           Provide details regarding the programs reported in Sections E and F that comprise amounts                  For fiscal year 2012, the Programs include CDCI, TALF, and SBA. For fiscal year 2011, the
            reported in the "all other TARP Programs" column.                                                          Programs include CDCI, TALF, SBA, and TIP. See FR Notes (GF006) Note 20 Troubled
                                                                                                                       Asset Relief Program (TARP) Direct Loans and Equity Investments.
6           Provide a detailed description of the amounts reported in Sections E and F that comprise the               See FR Notes (GF006) Note 20 Troubled Asset Relief Program (TARP) Direct Loans and
            "Other" line.                                                                                              Equity Investments.




                                                                                                           - 28 -
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 3   Fund Balance                                                                      A      D       F                  344,346                 381,784
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Fund Balance with Treasury                              F                344,346                381,784                   381,784                     0
Total:                                                                   344,346                381,784                   381,784                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 4   Loans and Interest Receivable                                                     A      D       F                  914,304                 728,650
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Interest Receivable                                     F                    531                    225                       225                     0
Loans Receivable                                        F                913,773                728,425                   728,425                     0
Total:                                                                   914,304                728,650                   728,650                     0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 5   Advances to the Unemployment Trust Fund                                           A      D       F                    32,932                 42,773
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable                                        F                32,932                 42,773                     42,773                     0
Total:                                                                   32,932                 42,773                     42,773                     0




                                                                              -1-
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                  Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                        Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 6   Due From the General Fund                                                          A      D      F                16,202,179             14,902,717
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Other Assets (without reciprocals)                      F              16,202,179              14,902,717              14,902,717                     0
Total:                                                                 16,202,179              14,902,717              14,902,717                     0

Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 7   Other Intra-governmental Assets                                                    A      D      F                     1,495                  1,148
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Receivable                                     F                   525                     407                       407                     0
Advances to Others and Prepayments                      F                     2                       2                         2                     0
Federal Investments                                     F                   968                     739                       739                     0
Total:                                                                    1,495                   1,148                     1,148                     0
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 10 Cash, Foreign Currency & Other Monetary Assets                                      A      D      N                  145,551                 117,121
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                145,551                 117,121                  117,121                     0
Total:                                                                   145,551                 117,121                  117,121                     0



                                                                               -2-
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 11 Gold and Silver Reserves                                                           A      D       N                    11,062                 11,062
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                11,062                 11,062                     11,062                     0
Total:                                                                   11,062                 11,062                     11,062                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 12 Troubled Asset Relief Program (TARP) - Credit Program Receivables, Net             A      D       N                    40,231                 80,104
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
TARP Direct Loans and Equity Investments                N                40,231                 80,104                     80,104                     0
Total:                                                                   40,231                 80,104                     80,104                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 13 Investments in Government Sponsored Enterprises                                    A      D       N                  109,342                 133,043
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Investment in Government sponsored                      N                109,342                133,043                   133,043                     0
enterprises (GSEs)
Total:                                                                   109,342                  133,043                133,043                          0




                                                                              -3-
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 14 Investments in International Financial Institutions                                A      D       N                     6,043                  5,707
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Other Assets                                            N                 6,043                  5,707                      5,707                     0
Total:                                                                    6,043                  5,707                      5,707                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 15 Non-TARP Investments in American International Group, Inc.                         A      D       N                     2,611                 10,862
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                 2,611                 10,862                          0                 10,862
Beneficial Interest in Trust                       I    N                     0                      0                     10,862                (10,862)
Total:                                                                    2,611                 10,862                     10,862                      0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 16 Other Investments and Related Interest                                             A      D       N                    15,436                 15,798
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Debt and Equity Securities                              N                15,436                 15,798                     15,798                     0
Total:                                                                   15,436                 15,798                     15,798                     0




                                                                              -4-
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 17 Credit Program Receivables, Net                                                    A      D       N                    19,888                 92,820
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                19,888                 92,820                     92,820                     0
securities
Total:                                                                    19,888                  92,820                  92,820                          0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 18 Loans and Interest Receivable                                                      A      D       N                    10,334                  6,248
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Loans Receivable and mortgage backed                    N                10,334                  6,248                      6,248                     0
securities
Total:                                                                    10,334                     6,248                 6,248                          0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 19 Reserve Position in International Monetary Fund                                    A      D       N                    21,573                 20,682
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Cash and Other Monetary Assets                          N                21,573                 20,682                     20,682                     0
Total:                                                                   21,573                 20,682                     20,682                     0




                                                                              -5-
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 20 Tax, Other and Related Interest Receivables, Net                                   A      D       N                    41,463                 36,690
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Accounts and Taxes Receivable                           N                41,463                 36,690                     36,690                     0
Total:                                                                   41,463                 36,690                     36,690                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 21 Property, Plant and Equipment, Net                                                 A      D       N                     2,435                  2,266
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Property, Plant and Equipment                           N                 2,435                  2,266                      2,266                     0
Total:                                                                    2,435                  2,266                      2,266                     0

Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 22 Other Assets                                                                       A      D       N                      637                     751
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported      Line Item Changes
Inventory and Related Property                          N                  630                    743                        743                      0
Other Assets                                            N                    7                      8                           8                     0
Total:                                                                     637                    751                        751                      0




                                                                              -6-
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 27 Federal Debt and Interest Payable                                                   L      C      F                 4,861,005                4,720,165
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                  45,509                  47,742                  47,742                      0
Federal Debt                                            F               4,815,496               4,672,423               4,672,423                      0
Total:                                                                 (4,861,005)             (4,720,165)             (4,720,165)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 28 Other Debt and Interest Payable                                                     L      C      F                     7,194                   8,539
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Interest Payable                                        F                    83                      98                        98                      0
Federal Debt                                            F                 7,111                   8,441                     8,441                      0
Total:                                                                   (7,194)                 (8,539)                   (8,539)                     0
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 29 Due to the General Fund                                                             L      C      F                 1,257,752                1,226,475
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Liability to the General Fund for custodial and         F               1,257,752               1,226,475               1,226,475                      0
other non-entity assets
Total:                                                                 (1,257,752)             (1,226,475)             (1,226,475)                         0


                                                                               -7-
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 30 Other Intra-governmental Liabilities                                                 L      C     F                       541                     453
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        F                  256                     159                       159                       0
Interest Payable                                        F                    0                       1                          1                      0
Benefit Program Contributions Payable                   F                  247                     239                       239                       0
Advances from Others and Deferred Credits               F                   57                      56                        56                       0
Other Liabilities (without reciprocals)                 F                  (19)                     (2)                       (2)                      0
Total:                                                                    (541)                   (453)                     (453)                      0
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 33 Federal Debt and Interest Payable                                                    L      C     N                11,307,583              10,148,963
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Federal Debt Securities Held by the Public              N              11,307,583              10,148,963              10,148,963                      0
Total:                                                                (11,307,583)            (10,148,963)            (10,148,963)                     0




                                                                               -8-
                                                                 U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                                 GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 34 Certificates Issued to the Federal Reserve                                           L      C      N                     5,200                   5,200
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                        N                 5,200                  5,200                      5,200                      0
Total:                                                                    (5,200)                (5,200)                    (5,200)                     0

Line Agency Line Description                                                   Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 35 Allocation of Special Drawing Rights                                                 L      C      N                    54,463                  55,150
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                        N                 54,463                 55,150                    55,150                      0
Total:                                                                    (54,463)               (55,150)                  (55,150)                     0

Line Agency Line Description                                                   Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 36 Gold Certificates Issued to Federal Reserve                                          L      C      N                    11,037                  11,037
                                                                                      Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER         2011-SEPTEMBER          Previously Reported       Line Item Changes
Other Liabilities                                        N                 11,037                 11,037                    11,037                      0
Total:                                                                    (11,037)               (11,037)                  (11,037)                     0




                                                                                -9-
                                                                U.S. Department of the Treasury                                       11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                      Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 37 Refunds Payables                                                                    L      C       N                     3,255                   3,983
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER         Previously Reported       Line Item Changes
Accounts Payable                                        N                 3,255                    3,983                     3,983                      0
Total:                                                                   (3,255)                  (3,983)                   (3,983)                     0

Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 38 D.C. Pension and Judicial Retirement Actuarial Liability                            L      C       N                    10,059                   9,671
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Liabilities                                       N                 10,059                   9,671                     9,671                      0
Total:                                                                   (10,059)                 (9,671)                   (9,671)                     0

Line Agency Line Description                                                  Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 39 Liabilities to Government Sponsored Enterprises                                     L      C       N                     9,003                 316,230
                                                                                     Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER         Previously Reported       Line Item Changes
Liabilities to Government Sponsored                     N                 9,003                   316,230                  316,230                      0
Enterprises
Total:                                                                     (9,003)                 (316,230)              (316,230)                         0




                                                                               - 10 -
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 40 Other Liabilities                                                                  L      C       N                     5,374                  4,222
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Accounts Payable                                        N                 1,667                    804                       804                      0
Federal Employee and Veteran Benefits                   N                   655                    641                       641                      0
Payable
Loan Guarantee Liabilities                             N                       7                       0                       0                          0
Other Liabilities                                      N                   3,045                   2,777                   2,777                          0
Total:                                                                    (5,374)                 (4,222)                 (4,222)                         0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 45 Earmarked Funds                                                                    E      C       B                      200                     200
                                                                                    Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Net Position-Earmarked Funds                            B                  200                     200                       200                      0
Total:                                                                    (200)                   (200)                     (200)                     0




                                                                              - 11 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: BALANCE SHEET                                                     Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 46 All Other Funds                                                                     E      C      B                   317,309                 342,778
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                317,309                 342,778                  342,778                      0
Total:                                                                  (317,309)               (342,778)                (342,778)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 49 Earmarked Funds                                                                     E      C      B                    43,023                  43,611
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Earmarked Funds                            B                 43,023                  43,611                   43,611                      0
Total:                                                                   (43,023)                (43,611)                 (43,611)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 50 All Other Funds                                                                     E      C      B                    28,864                (306,451)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Net Position-Non-Earmarked Funds                        B                 28,864                (306,451)                (306,451)                     0
Total:                                                                   (28,864)                306,451                  306,451                      0




                                                                              - 12 -
                                                             U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                               Financial Management Service
                                                          Governmentwide Financial Report System

                                             GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                           Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                             Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 2   Beginning Balance                                                              BN      C      B                  (262,840)               (299,461)
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Beginning Net Position                               B               (262,840)               (299,461)                (299,461)                     0
Total:                                                                262,840                 299,461                  299,461                      0

Line Agency Line Description                                               Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 4   Appropriations Used                                                             F      C      B                   428,479                 548,129
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                    F                428,479                 548,129                  548,129                      0
Total:                                                               (428,479)               (548,129)                (548,129)                     0

Line Agency Line Description                                               Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 5   Non-exchange Revenue                                                            F      C      B                       620                     379
                                                                                  Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description             Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                             N                  271                     114                       114                       0
Other budgetary financing sources                    F                  349                     265                       265                       0
Total:                                                                 (620)                   (379)                     (379)                      0




                                                                           - 13 -
                                                                 U.S. Department of the Treasury                                   11/16/2012 14:59:58
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2012                                 Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                       Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N   2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 6   Donations and Forfeitures of Cash and Cash Equivalents                             F      C       N                    186                     586
                                                                                     Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2012-SEPTEMBER          2011-SEPTEMBER      Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                     186                     586                    586                       0
Total:                                                                     (186)                   (586)                  (586)                      0

Line Agency Line Description                                                  Status Account NB       F/N   2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 7   Transfers In/Out without Reimbursement                                             F      C       F                      0                          0
                                                                                     Variance:                                0                          0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2012-SEPTEMBER          2011-SEPTEMBER      Previously Reported       Line Item Changes
Total:                                                                       0                       0                        0                      0


Line Agency Line Description                                                  Status Account NB       F/N   2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 8   Other Budgetary Financing Sources                                                  F      C       B                    148                   4,550
                                                                                     Variance:                                0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N        2012-SEPTEMBER          2011-SEPTEMBER      Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                       0                      (81)                   (81)                     0
Other budgetary financing sources                     F                     148                    4,631                  4,631                      0
Total:                                                                     (148)                  (4,550)                (4,550)                     0




                                                                               - 14 -
                                                              U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 10 Donations and Forfeitures of Property                                             F      C      N                       174                     163
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                  174                     163                       163                       0
Total:                                                                  (174)                   (163)                     (163)                      0

Line Agency Line Description                                                Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 11 Accrued Interest & Discount on the Debt                                           F      C      F                    95,877                  14,042
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other budgetary financing sources                     F                 95,877                  14,042                   14,042                      0
Total:                                                                 (95,877)                (14,042)                 (14,042)                     0

Line Agency Line Description                                                Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                    Type
 12 Transfers In/Out without Reimbursement                                            F      C      F                       (47)                    (60)
                                                                                   Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Transfers-out Without Reimbursement                   F                   47                      60                        60                       0
Total:                                                                    47                      60                        60                       0




                                                                            - 15 -
                                                              U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                Financial Management Service
                                                           Governmentwide Financial Report System

                                              GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                            Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                              Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                               Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 13 Imputed Financing Sources                                                        F      C       F                       812                     925
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Imputed Financing Source                              F                  812                     925                       925                       0
Total:                                                                  (812)                   (925)                     (925)                      0

Line Agency Line Description                                               Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                   Type
 14 Transfers to the General Fund and Other                                          F      C       B                   (46,341)               (127,938)
                                                                                  Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                   129                      359                      359                      0
Other budgetary financing sources                     F                    (8)                 (37,761)                 (37,761)                     0
Accrual for Non-entity Amounts to be                  F                (2,139)                 (12,519)                 (12,519)                     0
Collected and Transferred to the General Fund
Non-Entity Collections Transferred to the             F                 48,601                  103,055                 103,055                          0
General Fund
Total:                                                                  46,341                  127,938                 127,938                          0




                                                                            - 16 -
                                                                 U.S. Department of the Treasury                                       11/16/2012 14:59:58
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2012                                     Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                           Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 21 Beginning Balance                                                                   BN      C       B                   342,978                 400,557
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2012-SEPTEMBER          2011-SEPTEMBER          Previously Reported       Line Item Changes
Beginning Net Position                                 B                  342,978                 400,557                   400,557                      0
Total:                                                                   (342,978)               (400,557)                 (400,557)                     0

Line Agency Line Description                                                   Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 23 Appropriations Received                                                              F      C       B                   419,130                 498,723
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER          2011-SEPTEMBER          Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                419,130                 498,723                   498,723                      0
and other adjustments)
Total:                                                                   (419,130)                  (498,723)              (498,723)                         0
Line Agency Line Description                                                   Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 24 Appropriations Transferred In/Out                                                    F      C       B                       142                     129
                                                                                      Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2012-SEPTEMBER          2011-SEPTEMBER          Previously Reported       Line Item Changes
Nonexpenditure transfers-in of unexpended              F                    185                     133                        133                       0
appropriations and financing sources
Nonexpenditure Transfers-out of unexpended              F                      43                           4                     4                          0
appropriations and financing sources
Total:                                                                       (142)                     (129)                   (129)                         0


                                                                               - 17 -
                                                                 U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                   Financial Management Service
                                                              Governmentwide Financial Report System

                                               GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF CHANGES IN NET POSITION                               Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 25 Other Adjustments                                                                    F      C      B                  (16,262)                  (8,302)
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description                 Status F/N     2012-SEPTEMBER          2011-SEPTEMBER        Previously Reported       Line Item Changes
Appropriations received as adjusted (rescissions         F                (16,262)                (8,302)                  (8,302)                     0
and other adjustments)
Total:                                                                     16,262                     8,302                 8,302                          0
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 26 Appropriations Used                                                                  F      C      B                 (428,479)               (548,129)
                                                                                      Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N       2012-SEPTEMBER          2011-SEPTEMBER        Previously Reported       Line Item Changes
Other budgetary financing sources                      F                 (428,479)               (548,129)               (548,129)                     0
Total:                                                                    428,479                 548,129                 548,129                      0




                                                                               - 18 -
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: STATEMENT OF NET COST                                             Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 34 Total Gross Costs                                                                  GC      D      B                  185,643                 488,741
                                                                                     Variance:                                 0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Interest on Debt Held by the Public                     N                245,707                 250,921                  250,921                     0
Imputed Costs                                           F                    813                     925                      925                     0
Buy/Sell Costs                                          F                  2,044                   1,736                    1,736                     0
Benefit Program Costs                                   F                  1,756                   1,744                    1,744                     0
Federal Securities Interest Expense                     F                187,285                 203,026                  203,026                     0
Borrowing and Other Interest Expense                    F                  8,746                   8,016                    8,016                     0
Non-Federal Gross Cost                                  N               (261,197)                 21,693                   21,693                     0
Other Expenses (without reciprocals)                    F                    489                     485                      485                     0
Gain/Loss from changes in actuarial                     N                      0                     195                      195                     0
assumptions
Total:                                                                   185,643                   488,741               488,741                          0
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                      Type
 35 Total Earned Revenues                                                              ER      C      B                    40,462                 84,586
                                                                                     Variance:                                  0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Buy/Sell Revenue                                        F                 1,083                   1,265                     1,265                     0
Borrowings Gains                                        F                    46                      64                        64                     0
Borrowing and Other Interest Revenue                    F                35,511                  28,821                    28,821                     0
(Exchange)
Non-Federal Earned Revenue                             N                   3,822                    54,436                54,436                          0
Total:                                                                   (40,462)                  (84,586)              (84,586)                         0


                                                                              - 19 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 2   Individual Income and FICA Taxes                                                   F      C      N                 2,159,990                2,102,030
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               2,159,990                2,102,030              2,102,030                      0
Total:                                                                 (2,159,990)              (2,102,030)            (2,102,030)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 3   Corporate Income Taxes                                                             F      C      N                   281,462                 242,848
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER        Previously Reported       Line Item Changes
Corporation Income Taxes                                N                281,462                  242,848                 242,848                      0
Total:                                                                  (281,462)                (242,848)               (242,848)                     0

Line Agency Line Description                                                  Status Account NB       F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 4   Estate and Gift Taxes                                                              F      C      N                    14,450                   9,079
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER        Previously Reported       Line Item Changes
Estate and Gift Taxes                                   N                 14,450                   9,079                    9,079                      0
Total:                                                                   (14,450)                 (9,079)                  (9,079)                     0




                                                                               - 20 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 5   Excise Taxes                                                                       F      C      N                    79,554                  72,794
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Excise Taxes                                            N                 79,554                  72,794                   72,794                      0
Total:                                                                   (79,554)                (72,794)                 (72,794)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 6   Railroad Retirement Taxes                                                          F      C      N                     4,773                   4,692
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 4,773                   4,692                     4,692                      0
Total:                                                                   (4,773)                 (4,692)                   (4,692)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 7   Unemployment Taxes                                                                 F      C      N                     7,159                   6,893
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Unemployment Taxes                                      N                 7,159                   6,893                     6,893                      0
Total:                                                                   (7,159)                 (6,893)                   (6,893)                     0




                                                                              - 21 -
                                                                  U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                    Financial Management Service
                                                               Governmentwide Financial Report System

                                                  GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                  Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                  Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                    Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                        Type
 8   Deposit of Earnings, Federal Reserve System                                          F      C      N                    81,957                  82,546
                                                                                       Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                  Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                  N                 81,957                  82,546                   82,546                      0
Total:                                                                     (81,957)                (82,546)                 (82,546)                     0

Line Agency Line Description                                                    Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                        Type
 9   Fines, Penalties, Interest & Other Revenue                                           F      C      B                       623                     591
                                                                                       Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N         2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                              N                      710                     568                       568                       0
Other taxes and receipts                              F                        0                       3                          3                      0
Other budgetary financing sources                     F                       24                      20                        20                       0
Accrual for Non-entity Amounts to be                  F                      111                       0                          0                      0
Collected and Transferred to the General Fund
Total:                                                                        (623)                    (591)                   (591)                         0




                                                                                - 22 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 11 Less Refunds                                                                        F      C      N                  (373,752)               (416,221)
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N               (327,675)               (344,384)                (344,384)                     0
Other Taxes and Receipts                                N                     (9)                     (3)                      (3)                     0
Corporation Income Taxes                                N                (43,970)                (67,777)                 (67,777)                     0
Excise Taxes                                            N                 (1,487)                 (2,189)                  (2,189)                     0
Estate and Gift Taxes                                   N                   (505)                 (1,778)                  (1,778)                     0
Unemployment Taxes                                      N                   (106)                    (90)                     (90)                     0
Total:                                                                   373,752                 416,221                  416,221                      0
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 13 Non-Cash Accrual Adjustment                                                         F      C      N                     5,543                     (150)
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N       2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings             N                   4,000                      0                          0                      0
Other Taxes and Receipts                              N                   1,552                   (310)                     (310)                      0
Excise Taxes                                          N                      (9)                     7                          7                      0
Accrual for Non-entity Amounts to be                  F                       0                   (153)                     (153)                      0
Collected and Transferred to the General Fund
Total:                                                                    (5,543)                     150                    150                           0




                                                                              - 23 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 15 Cash Proceeds from Sale of Stock                                                    F      C      N                    12,992                   1,973
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Miscellaneous Earned Revenue                            N                 12,992                  1,973                     1,973                      0
Total:                                                                   (12,992)                (1,973)                   (1,973)                     0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 16 Non-Cash Market Adjustments                                                         F      C      N                    (8,251)                  (9,944)
                                                                                     Variance:                                  0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Miscellaneous Earned Revenue                            N                (8,251)                 (9,944)                   (9,944)                     0
Total:                                                                    8,251                   9,944                     9,944                      0

Line Agency Line Description                                                  Status Account NB      F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                      Type
 20 Amounts Provided to Fund Non Federal Entities                                      CF      D      B                       386                     462
                                                                                     Variance:                                  0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Other Taxes and Receipts                                N                 (386)                   (462)                     (462)                      0
Total:                                                                     386                     462                       462                       0




                                                                              - 24 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                 Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                 Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 21 Amounts Provided to Fund the Federal Government                                     CF      D      B                2,255,830                2,104,790
                                                                                      Variance:                                 0                        0

Closing Package Line Reclassification
Closing Package Line Description               Status F/N      2012-SEPTEMBER           2011-SEPTEMBER        Previously Reported       Line Item Changes
Expenditure Transfers-out of financing sources         F                      128                       49                     49                      0
Other budgetary financing sources                      F                     (511)                    (344)                  (344)                     0
Non-Entity Collections Transferred to the              F                2,255,191                2,104,397              2,104,397                      0
General Fund
Total:                                                                  2,255,830                2,104,790              2,104,790                          0
Line Agency Line Description                                                   Status Account NB      F/N     2012-SEPTEMBER           2011-SEPTEMBER
                                                                                       Type
 22 Non-Cash Accrual Adjustment                                                         CF      D      B                        0                          0
                                                                                      Variance:                                 0                          0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER           2011-SEPTEMBER        Previously Reported       Line Item Changes
Individual Income Tax and Tax Witholdings               N                   0                        0                      (153)                    153
Other Taxes and Receipts                                N                   0                        0                       310                    (310)
Excise Taxes                                            N                   0                        0                        (7)                      7
Total:                                                                      0                        0                      (150)                   (150)




                                                                               - 25 -
                                                                U.S. Department of the Treasury                                     11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2012                                   Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                         Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 24 Amounts to be Provided to the General Fund                                        CF      D       F                     4,000                         0
                                                                                    Variance:                                   0                         0

Closing Package Line Reclassification
Closing Package Line Description              Status F/N       2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Accrual for Non-entity Amounts to be                  F                   4,000                     0                           0                     0
Collected and Transferred to the General Fund
Total:                                                                     4,000                          0                    0                          0
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 25 Accrual Adjustment                                                                CF      D       B                     1,543                    (150)
                                                                                    Variance:                                   0                       0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Other Taxes and Receipts                                N                (1,552)                   150                          0                   150
Excise Taxes                                            N                     9                      0                          0                     0
Total:                                                                    1,543                   (150)                         0                   150
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER          2011-SEPTEMBER
                                                                                     Type
 27 Cash Proceeds from Sales of Stock                                                 CF      D       N                    12,992                  1,973
                                                                                    Variance:                                   0                      0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported      Line Item Changes
Non-Entity Collections Transferred to the               F                12,992                   1,973                     1,973                     0
General Fund
Total:                                                                    12,992                     1,973                 1,973                          0



                                                                              - 26 -
                                                                U.S. Department of the Treasury                                      11/16/2012 14:59:58
                                                                  Financial Management Service
                                                             Governmentwide Financial Report System

                                                GF003G-Closing Package Line Reclassification Summary Report

Statement: CUSTODIAL ACTIVITY                                                Fiscal Year: 2012                                    Period: SEPTEMBER
    Entity: 2000 - Department of the Treasury                                Reported in: MILLIONS                          Decimal Point: ZERO

Amounts reported as normal/(abnormal) balances.
I = Inactive Line
Line Agency Line Description                                                 Status Account NB       F/N      2012-SEPTEMBER           2011-SEPTEMBER
                                                                                     Type
 28 Non-Cash Market Adjustment                                                        CF      D       N                    (8,251)                  (9,944)
                                                                                    Variance:                                   0                        0

Closing Package Line Reclassification
Closing Package Line Description                Status F/N     2012-SEPTEMBER          2011-SEPTEMBER         Previously Reported       Line Item Changes
Non-Entity Collections Transferred to the               F                (8,251)                 (9,944)                   (9,944)                     0
General Fund
Total:                                                                    (8,251)                 (9,944)                  (9,944)                         0




                                                                              - 27 -
